<html>
<title> - MEXICO CITY POLICY: EFFECTS OF RESTRICTIONS ON INTERNATIONAL FAMILY PLANNING FUNDING</title>
<body><pre>[Senate Hearing 107-165]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-165

  MEXICO CITY POLICY: EFFECTS OF RESTRICTIONS ON INTERNATIONAL FAMILY 
                            PLANNING FUNDING

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 19, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
75-604                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia
                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Aguirre, Dr. Maria Sophia, associate professor, Department of 
  Economics and Business, Catholic University of America, 
  Washington, DC.................................................    41
    Prepared statement...........................................    45
Bista, Dr. Nirmal K., director general, Family Planning 
  Association of Nepal, Kathmandu, Nepal.........................    36
    Prepared statement...........................................    39
Boxer, Hon. Barbara, U.S. Senator from California, submissions 
  for the record:
    ``Women in Prison in Nepal for Abortion''....................    56
    Sec. 2151b. Population Planning and Health Programs..........    59
Cleaver, Kathy, director of Planning and Information for the 
  Secretariat for Pro-Life Activities, U.S. Conference of 
  Catholic Bishops, Washington, DC...............................    56
    Prepared statement...........................................    58
Eberstadt, Dr. Nicholas N., scholar, American Enterprise 
  Institute, Washington, DC......................................    33
Galdos, Susana Silva, president, Movimiento Maneula Ramos, Lima, 
  Peru...........................................................    28
    Prepared statement...........................................    31
Hutchinson, Hon. Tim, U.S. Senator fron Arkansas.................     5
Kreczko, Alan J., Acting Assistant Secretary, Bureau of 
  Population, Refugees and Migration, Department of State; 
  accompanied by: Barbara Turner, Acting Assistant Administrator 
  for Global Programs, USAID, Washington, DC.....................    13
    Prepared statement...........................................    15
Lowey, Hon. Nita, U.S. Representative from New York..............    10
Neier, Aryeh, president, Open Society Institute, New York, NY....    60
    Prepared statement...........................................    61
Pellegrom, Dr. Daniel E., president, Pathfinder International, 
  Watertown, MA..................................................    51
    Prepared statement...........................................    53
Reid, Hon. Harry, U.S. Senator from Nevada.......................     3
Smith, Hon. Chris, U.S. Representative from New Jersey...........     6
Snowe, Hon. Olympia J., U.S. Senator from Maine, prepared 
  statement......................................................     9

                                 (iii)

  

 
  MEXICO CITY POLICY: EFFECTS OF RESTRICTIONS ON INTERNATIONAL FAMILY 
                            PLANNING FUNDING

                              ----------                              


                        THURSDAY, JULY 19, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Barbara Boxer, 
presiding.
    Present: Senators Boxer, Feingold, Chafee, and Allen.
    Senator Boxer. This meeting of the Foreign Relations 
Committee will come to order. And as we await the arrival of 
the first panel, which consists of several Senators and 
Representative Nita Lowey and Representative Chris Smith, we 
want to welcome Senator Hutchinson. And what I want to do, 
Senator, is give a brief opening statement and then call on 
you, and perhaps by that time we will be joined by our other 
colleagues.
    I want to welcome you all to this important hearing. Today 
the Senate Foreign Relations Committee meets to discuss the 
effects of the Mexico City Policy on international family 
planning. I want to thank Chairman Biden for supporting this 
hearing and for allowing me to chair it.
    Mexico City Policy is known as the global gag rule. It 
restricts foreign, non-governmental organizations that receive 
USAID family planning funds in three ways, and I'm going to 
identify the three ways that these restrictions play out.
    First, these non-governmental foreign organizations may not 
use their own money to provide legal abortion services. Second, 
they may not use their own money to advocate for changing the 
abortion laws in their own country. And third, they may not use 
their own money to provide full and accurate medical 
information about legal abortion services to their patients.
    As a result, many foreign, non-governmental organizations 
are being forced to either limit their services or simply to 
close their doors to women across the world, and we will hear 
witnesses who will so testify.
    I believe, and I know, that this will cause women and 
families increased misery and death. Among the witnesses who 
will testify before the committee this morning are the 
presidents of two foreign, non-governmental organizations who 
provide family planning services abroad. Ms. Susana Silva 
Galdos heads a non-governmental organization in Peru that is 
trying to work under the limitations imposed by the gag rule. 
Dr. Nirmal Bista works for a non-governmental organization in 
Nepal that has refused USAID funding because of the harsh 
restrictions of the gag rule.
    In fact, Ms. Galdos, our first witness from these foreign, 
non-governmental organizations, had to seek a temporary 
restraining order in Federal court yesterday in order to be 
allowed to testify before Congress on informing us of the 
abortion laws in Peru. It's almost unimaginable that a witness 
that a United States Senator asked to come here actually had to 
go to court to get a restraining order in order to speak in 
this, the freest and greatest country in the world.
    We were fortunate yesterday in that court case. The Bush 
administration conceded on this issue, so we're fortunate to 
have Ms. Galdos' uncensored testimony before the committee 
today.
    Why does the United States provide international family 
planning assistance? Because by providing family planning, 
counseling and care, by working to increase child survival 
rates, by improving maternal health and preventing the spread 
of HIV/AIDS and other infectious diseases, we help save lives.
    As a result of USAID funds, more than 50 million couples in 
the developing world use family planning. In the last 30 years 
the percentage of couples using family planning has risen 
fivefold. Fewer than 10 percent of the couples used 
contraception in the 1960's. More than 50 percent of the 
couples use contraception today. So 50 percent of the couples 
are planning their families.
    But the need for family planning assistance continues 
because the other side of it is that 50 percent of the couples 
in the developing world still do not use contraception. As a 
result, approximately 78,000 women throughout the world die 
each year as a result of unsafe abortions, and at least one-
fourth of all unsafe abortions in the world are to girls aged 
15 to 19.
    The problem is growing. By the year 2015 contraceptive 
needs in developing countries will grow by more than 40 
percent. Make no mistake, the Mexico City gag rule is 
restricting family planning, not abortions. International 
family planning assistance prevents abortions by helping women 
avoid unwanted pregnancies, and it saves the lives of thousands 
of poor women in developing countries who would otherwise die 
from unsafe abortions.
    For example, the recent increased availability of modern 
family planning methods has already resulted in a 33 percent 
drop in the abortion rate in Russia and a 60 percent reduction 
in Hungary. Family planning can significantly improve the 
health of these girls and young women by teaching them to 
postpone childbearing until the healthiest times in their 
lives, which would in turn prevent abortions.
    That is why I have introduced bipartisan legislation with 
Senators Snowe, Chafee, Collins, and 26 other co-sponsors to 
overturn the global gag rule. This legislation that we have 
introduced aims to overturn the Draconian restrictions on 
international family planning programs put into place by 
President Bush on January 22, one of his very first acts as 
President of these United States.
    Our bill will allow these organizations to continue to 
provide legal family planning services without needlessly 
restricting their funds. Our bill does nothing to change the 
fact that no U.S. funds can be used for abortion services. Let 
me repeat that. Since 1973 no U.S. funds may be used for 
abortion services. What our bill does is lift the restrictions 
on foreign organizations that would be unconstitutional here in 
the United States, and that's why the Bush administration was 
quick to just give in to us on our lawsuit. We would never gag 
people here. We couldn't do it. But they are doing it in 
foreign countries.
    I believe firmly that family planning organizations should 
not be prevented from using their own privately raised funds to 
provide legal abortion services, including counseling and 
referral, and these groups should not be forced to relinquish 
their right of free speech in order to receive U.S. funding, so 
I am very anxious to hear from all of our witnesses.
    I want to get an update on the other Senators. What do we 
know about the Congresswoman?
    They are on their way. There is one. We have our assistant 
majority leader. I am going to call on Senator Reid first 
because of his duties on the floor, and then right to you, 
Senator Hutchinson.
    Senator Reid, I just made my opening remarks. I know your 
time with us this morning is limited. I made the point that we 
believe that family planning saves women's lives, and I would 
be happy to hear from you.

     STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM NEVADA

    Senator Reid. I appreciate very much Senator Hutchinson 
accommodating me. The Senate is in recess now, and I have to go 
back and finish the bill I am managing. I really appreciate the 
opportunity to testify here today.
    Senator Boxer. Could you speak a little louder into the 
microphone, Senator.
    Senator Reid. I appreciate the opportunity to speak here 
today.
    About 2 years ago I took a trip. One of the places that I 
went was Nepal, an unusual and beautiful country. Eighty-four 
percent of the people in Nepal have no electricity, but also, 
in addition to that, Nepal has one of the highest maternal 
mortality rates in the whole world. Over 1,000 women out of 
every 100,000 women in Nepal die from pregnancy related 
complications compared to our country of about six or seven of 
every 100,000 women.
    The Mexico City Policy, in my opinion, threatens efforts 
aimed at reducing mortality rates and improving access to basic 
health care in Nepal and all over the world. Nepal is only an 
example.
    Our support of international family plan programs literally 
means, in my opinion, the difference between the life or death 
of women in developing countries. At least one woman dies every 
minute of every day from causes related to pregnancy and 
childbirth. One woman dies every minute of every day from 
causes related to pregnancy and childbirth. This means, Madam 
Chair, that almost 600,000 women die every year from causes 
related to pregnancy. Family planning efforts prevent 
unintended pregnancies and save the lives of thousands of women 
each year.
    In addition to reducing maternal and infant mortality 
rates, family planning helps prevent the spread of sexually 
transmitted diseases. The World Health Organization reports 
that about 6 million individuals, the majority of whom live in 
developing nations, become infected with HIV and that has gone 
up almost every year. At present in Africa we have 6,000 people 
dying every day from HIV-related diseases, every day, no 
weekends off, no vacations, every day. And that number is going 
up and will double, it's believed, within a dozen years.
    President Bush's rationale for imposing the gag rules is 
that he wants to decrease the number of abortions abroad. The 
last time the Mexico City Policy was in effect there was no 
reduction in the number of abortions. It only reduced access to 
quality health care services, increased unintended pregnancies, 
and actually increased the number of abortions.
    Research shows that the only way to reduce the need for 
abortion is to improve the family planning effort to decrease 
the number of unintended pregnancies. Access to contraception 
reduces the probability of having an abortion by 85 percent.
    Madam Chair, let me be clear, I do not support the use of 
one single taxpayer dollar to inform or promote abortion 
overseas. The law explicitly prohibits such activities for 
almost 30 years, since 1973. Instead, the legislation written 
by Senator Boxer, S. 367, supports family planning efforts that 
will reduce unintended pregnancies and reduce the need for 
abortions.
    Not only does the Mexico City Policy run counter to our 
country's commitment to women's health, it restricts foreign 
organizations in a way that would be unconstitutional in our 
own country. The Mexico City Policy violates a fundamental 
tenet of our democracy, freedom of speech. Exporting a policy 
that's unconstitutional at home is, in my opinion, the ultimate 
act of hypocrisy. Surely this is not the message we want to 
send to struggling democracies, which are looking to the United 
States as an example and for guidance.
    The bipartisan Global Democracy Promotion Act, S. 367, 
written by Senator Boxer, would ensure that United States 
foreign policy is consistent with American values, including 
free speech and medical ethics. I support this legislation, and 
I commend the Senator from California, Senator Boxer, for her 
efforts to protect and defend the rights of women around the 
world.
    Senator Boxer. Thank you, Senator. Your testimony is most 
welcome.
    I am extremely honored that you support the bill, and I 
want to also announce that Senator Daschle is as well a 
sponsor, as is Senator Chafee. Welcome, and I would be happy to 
hear from you at this time.
    Senator Chafee. Thank you, Senator Boxer. I am just 
listening to Senator Reid talk about what is constitutional in 
this country, and the hypocrisy of it is a main point.
    Senator Boxer. Thank you so very much. I want to welcome my 
former colleague in the House, Representative Chris Smith.
    Senator Hutchinson, we will turn to you. You and the 
Honorable Chris Smith will have differing views from ours, and 
we welcome you here to bring those views out.

  STATEMENT OF HON. TIM HUTCHINSON, U.S. SENATOR FROM ARKANSAS

    Senator Hutchinson. Thank you, Madam Chair, and members of 
the committee. I want to thank you for inviting me to testify 
on what truly is an important topic.
    President Bush's decision to re-implement the Mexico City 
Policy ensures that our legacy to the world does not include 
systematic violence against innocent, unborn children. It 
ensures that our citizens' tax dollars are used to enhance the 
lives of those in the developing world, not destroy them.
    In 1973 Senator Helms sponsored legislative language that 
prohibited U.S. monetary aid from being used to pay for 
abortions or involuntary sterilizations overseas. The intent of 
that legislation is clear. American taxpayers should not be 
compelled to fund overseas abortions. It sends a message to the 
world that the United States does not stand for the despair and 
hopelessness of attacking the most vulnerable group in the 
human race, the unborn.
    The Mexico City Policy builds on that goal by prohibiting 
aid to organizations that were involved in abortion activities. 
President Reagan took this step to prevent foreign, non-
governmental organizations from playing accounting games that 
result in the use of American tax dollars to pay for abortions, 
so, while we can pretend that allowing these organizations, 
these NGOs, to perform abortions with their own money and use 
American taxpayers' dollars for family planning, that we all 
know is a fiscal fiction, that these funds are fungible, and 
that the intent of the Helms legislation back in 1973 was not 
to compel American taxpayers to subsidize something that they 
believe is morally wrong. And that is what is happening if you 
do not have the Mexico City Policy in place. Every American tax 
dollar that went to an abortion provider freed up another 
dollar to pay for more abortions. That's wrong. And I am very 
pleased that President Bush has reinstated this prohibition.
    As this committee hears testimony on this issue, I just 
want to make a few points clear from my perspective. This 
policy does not affect the amount of United States aid going to 
international family planning by one cent. For fiscal year 2002 
President Bush is seeking over $400 million for population 
assistance, which is comparable to previous years. In fact, the 
policy will barely change the number of NGOs that receive the 
money.
    When the Mexico City language was re-instituted in fiscal 
year 2000, 448 groups accepted the policy. Only nine groups 
refused the policy. So family planning is not affected and to 
raise the specter of not having U.S. aid for family planning 
is, I believe, a red herring.
    Frankly, those NGOs that refused to abide by a simple and 
fair Mexico City language are precisely the kind of extremist 
organizations that the United States should not be associated 
with. As I said, 448 groups accepted the policy. Only nine 
groups refused the policy. Those groups that refused the policy 
truly have a radical abortion agenda, and our foreign aid money 
should not be to assist them.
    There are approximately 100 countries in the world--Madam 
Chairman, approximately 100 countries in the world still have 
strong pro-life laws. In the past, U.S. grantees like 
International Planned Parenthood Federation have actively 
lobbied some of those governments for anti-life legislation. 
The Mexico City Policy guarantees that our tax dollars will not 
be used to promote an agenda antithetical to millions of 
Americans.
    I had an opportunity to meet with a number of NGOs and 
individuals that have had firsthand experience with 
international development. I've been told about the need for 
more food, about the need for more medical supplies, about the 
need for safe drinking water, but not once have I heard about 
the need for more abortions. The Mexico City Policy will not 
affect the amount of funding that goes to HIV and AIDS at all. 
That totally remains the same, untouched.
    Madam Chairman, millions of Americans believe that abortion 
is fundamentally wrong and that it is the taking of a human 
life. Madam Chairman, you and I may disagree on that. In fact, 
our society is and will continue to be deeply divided over this 
issue. But one point in which there has been broad agreement in 
the past has been that Americans who believe it is wrong should 
not be forced by our government to subsidize a practice that is 
fundamentally against their deepest-held religious views.
    Pro-choice people often make the argument to me, as a pro-
lifer, ``It's fine for you to be pro-life, but don't impose 
your pro-life views on me in law.'' And, yet, that is precisely 
what the pro-choice individual is doing in opposing the Mexico 
City Policy. They are forcing me and millions who share my deep 
convictions on the sanctity of human life to violate our own 
beliefs and convictions by subsidizing that practice with my 
tax dollars in a foreign country. No American should be 
compelled to participate in an event which they believe is so 
wrong.
    So, Madam Chairman, I, with deepest respect for you, must 
oppose your legislation, and I thank you for the opportunity to 
express my viewpoint.
    Senator Boxer. Senator, I really do appreciate your very 
straightforward testimony. We know that we come from different 
places on this in this sense, I believe this policy causes 
abortion; you think it prevents it. That's where we have a 
disagreement. I think that this policy is completely against 
what you want to do, which is to reduce abortion. That's why we 
have an agreement over it. Family planning, having groups walk 
away from it because of this is counterproductive to what we 
both want, fewer abortions. We will have this agreement, I am 
sure, in another venue.
    Senator Hutchinson. May I be excused?
    Senator Boxer. Of course, you may. You have my deepest 
thanks for your testimony.
    And, Representative Smith, we will turn to you.

  STATEMENT OF HON. CHRIS SMITH, U.S. REPRESENTATIVE FROM NEW 
                             JERSEY

    Mr. Smith. Thank you very much, Madam Chairwoman, and I 
deeply appreciate the opportunity to testify today. I know some 
things will be said at this hearing about the Mexico City 
Policy, which prohibits U.S. subsidies of foreign abortionists 
and abortion lobbyists. I also recognize that we have a strong 
difference on this policy, as you just expressed again, and I 
know Mr. Chafee as well disagrees.
    Nevertheless, I hope the committee will consider my 
argument, that a strong, effective U.S. international family 
planning program should welcome the opportunity to put a wall 
of separation between that family planning program and the 
contentious issue of abortion.
    Madam Chairwoman, the overriding justification for the 
Mexico City Policy is the protection and the safeguarding of 
human life. Simply put, abortion is violence against children 
and in no way can abortion be construed as humane and 
compassionate. Abortion methods include dismembering innocent 
children with razor blade tip suction devices, some with the 
power of 20 or 30 times a household vacuum cleaner, or 
injections of chemical poisons designed to kill the child.
    Salt poisoning abortion entails injecting high concentrated 
salt water into the baby's amniotic sac. The baby breathes in 
the salty water and is burned alive, internally and externally. 
It takes about 2 hours to kill the child in this way.
    In recent years most Americans have been shocked to 
discover yet another hideous method to destroy an unborn child, 
partial birth abortion. Performed in the second and third 
trimester, the abortionist delivers the entire body except for 
the child's head. He then stabs the back of the child's head 
with a pair of scissors. The abortionist then sucks out the 
brains of that child and kills him or her. If that isn't 
violence against children, I don't know what is.
    Abortion treats pregnancy as a sexually transmitted 
disease, a tumor, a wart, a piece of junk to be destroyed. And, 
yet, if you ever watched an unborn child's image on an 
ultrasound screen, you can't help but be awed by the miracle of 
human life, by the preciousness of the child's being, and moved 
to pity by the helplessness and the vulnerability of that 
child. This is a human rights issue, Madam Chairwoman.
    To see an unborn child turning and twisting, kicking, and 
sucking his or her thumb while still in utero--and my wife and 
I have four children, three of those we saw with an ultrasound. 
And even though I've worked in the pro-life movement for many 
years, I was amazed and awed to see the intricate detail of 
their bodies very, very early in pregnancy.
    Senator Boxer. I saw my grandsons.
    Mr. Smith. So you know.
    Senator Boxer. It's great.
    Mr. Smith. But it does shatter the myth, I would 
respectfully submit, that this is mere tissue or ``products of 
conception.''
    Madam Chairwoman, while the Mexico City Policy is pro-life 
it is not, and I repeat, it is not anti-family planning. It 
does not cut by one penny the $425 million the United States 
spends every year promoting family planning overseas. And years 
of experience have shown that we can run a good, solid, family 
planning project without retaining abortionists or abortion 
lobbyists to administer that for us.
    During the 9 years the policy was originally in force, only 
two organizations refused to agree to the pro-life safeguards. 
We had hundreds of organizations left to choose from. Over 350 
family planning organizations agreed to abide by the Mexico 
City Policy. In fact, U.S. family planning appropriations 
increased dramatically during this time, in part because pro-
life Americans no longer felt an obligation to limit such 
spending in order to avoid subsidizing the international 
abortion industry.
    Some opponents of the Mexico City Policy like to call it a 
gag rule. They say it violates free speech, the right to free 
speech, although the Federal courts have upheld the policy as 
consistent with the first amendment. The restrictions on 
abortion promotion that it imposes are narrow and reasonable. 
In fact, they are absolutely necessary to ensure that the 
organizations function effectively as highly visible partners 
and representatives of the United States.
    The organizations that work with the United States overseas 
are our surrogates. They are an extension of U.S. policy. They 
are our ambassadors. Their promotion of abortion in these 
countries on issues closely related to the U.S. programs they 
administer as well as their activities, such as the actual 
performance of abortions, are inevitably going to be associated 
with the United States. So these activities are highly relevant 
to whether they can effectively administer our programs.
    Specifically, among the most important stated purposes of 
U.S. family planning programs overseas is to reduce the number 
of abortions. The United States has no obligation to administer 
these programs through agents whose other activities suggest 
otherwise, that they do not really agree with this goal. We 
would not hire the Tobacco Institute to run an anti-smoking 
campaign, not even if the organization carried out its pro-
tobacco activities with its own money. There's just too strong 
a conflict of interest, too high a probability of sending a 
mixed and confusing message to the people we are trying to 
reach.
    Similarly, it makes no sense to hire abortionists or 
abortion lobbyists to run programs that purport to reduce 
abortions. Money is fungible. When we give money to an 
organization, we unavoidably enrich and empower all those 
activities. U.S. support also enhances the domestic and the 
international prestige of the organization by giving it an 
official U.S. seal of approval.
    And, remember, the people we are trying to reach are not 
likely to have seen their organization's books. They don't know 
which activities are funded and from which spigot. So when the 
very same organizations offer U.S. family planning assistance 
with one hand and the killing of an unborn child by way of 
abortion with the other, the message is that the United States, 
its representatives and partners, are perfectly comfortable 
with abortion as a method of family planning.
    Finally, perhaps the most outrageous claim that has been 
made by opponents of the Mexico City Policy is that it will 
somehow interfere with efforts to address the HIV/AIDS 
epidemic. This claim is simply false. For one thing, the United 
States currently spends over a half a billion dollars per year 
on fighting AIDS, plus many millions that go to WHO and UNDP 
and many other NGOs and international organizations.
    This money, plus the new money promised by the Bush 
administration, and the significant increase today in the Hyde-
Lantos Global Access to HIV/AIDS Prevention and Treatment bill, 
which I am a very strong supporter of and actually offered a 
strengthening amendment in the area of hospice care, was 
recently approved by the House International Relations 
Committee. And I think that does demonstrate our real, tangible 
commitment to the victims of AIDS.
    To sum up, Madam Chairwoman, the Mexico City Policy is a 
reasonable exercise of the President's power to set terms and 
conditions on U.S. foreign aid projects. With or without the 
policy, the same amount of money will be available for family 
planning programs and the same number of people can be provided 
with these services. The only difference is whether our service 
providers will be abortionists or not abortionists.
    You may disagree, as I know you do so vigorously, with the 
Mexico City Policy because it is pro-life, but it is simply 
unfair and I would respectfully submit it is inaccurate to call 
it anti-family planning. Again, I thank you for this 
opportunity to be here.
    Senator Boxer. Thank you, Congressman, and I hope you will 
look at our position that we believe the imposition of this, in 
fact, leads to thousands and thousands of unsafe abortions. 
But, we respect our differences. Congresswoman Lowey, you are 
free to leave if you have to. If you would like to stay and 
hear your friend, you are welcome to do that.
    Ms. Lowey. Thank you. I keep hoping I'm going to convince 
my good friends in Congress.
    Senator Boxer. Well, we thank you for all your efforts on 
behalf of this. I also want to ask unanimous consent at this 
time that I place into the record a statement by Senator 
Olympia Snowe, who is the key Republican, along with Senator 
Chafee, on this particular piece of legislation.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine

    Madam Chairman, thank you for providing me with the opportunity to 
offer testimony to the committee today on international family 
planning. I appreciate the committee taking the time to address this 
important matter. This has, as you know, long been a concern of mine 
and an issue that I have continued to advocate for during my tenure in 
both the House and here in the Senate.
    There is no question that U.S. population assistance is of critical 
importance, as the primary deliverer of health education, health care 
and pre-natal care to millions of women in developing countries. 
According to USAID, studies in several countries have shown that for 
every dollar invested in family planning programs, governments save as 
much as $16 in reduced expenditures in health, education, and social 
services. It is not only an investment for the health of women, and 
their children, but for whole nations.
    There is also no question that U.S. population assistance in 
developing countries has been successful. The average family size in 
countries that have received U.S. population assistance has decreased 
from six children to four. AID assistance has increased the use of 
contraceptives in developing countries from 10 percent of married 
couples in the 1970s, to 50-60 percent today.
    I would also like to make it clear for the record that the issue 
before us today is not abortion, because current law already prohibits 
the use of any U.S. funds for abortion-related activities. That law, by 
the way, is the Helms Amendment of 1973, which I support as an 
important guarantee that our international family planning programs 
stay apart from domestic debates on the issue of abortion.
    The real issue before us today is often referred to as the ``Mexico 
City Policy'' because it was at the 1984 U.N. Population Conference in 
Mexico City that the Reagan Administration adopted this policy. Under 
the Mexico City Policy, the Reagan Administration withheld 
international family planning funds from all groups that had the 
slightest involvement in legal abortion-related services even though 
they were paid for with their own private funds. This was done despite 
the fact that similar restrictions were not placed on funding programs 
run by foreign governments that related to legal abortions. It is also 
often referred to as the international ``gag rule'' because it prevents 
organizations from even providing abortion counseling or referral 
services.
    The matter before us is in part about leadership. The United States 
has traditionally been the leader in international family planning 
assistance. This has been the case ever since this issue rose to 
international prominence with the 1974 U.N. Population Conference in 
Bucharest. At that time, a great number of the world's developing 
countries perceived family planning as a Western effort to reduce the 
power and influence of Third World countries. However, in the years 
since, the need and importance of family planning has been recognized 
and embraced by most developing nations.
    If, as a country, we believe in volunteerism in family planning--
and we do--then we should maintain our leadership. Because of our 
leading role in international family planning, we have unrivaled 
influence in setting standards for family planning programs. A great 
number of other donors and recipient countries adopt our models in 
their own efforts.
    According to the Center for Reproductive Law and Policy, the Mexico 
City Policy will penalize 59 countries whose non-governmental 
organizations--NGOs--receive family planning assistance funds from the 
U.S. NGOs will be prohibited not only from providing abortion-related 
services, but also counseling and referrals regarding abortions. And, 
the final piece of the Mexico City Policy, bars NGOs from even lobbying 
for abortion rights or on abortion related issues.
    That's the policy, let's consider the real effect on people. 
According to the Alan Guttmacher Institute, about four in every ten 
pregnancies worldwide are unplanned, and 40 percent of unintended 
pregnancies end in abortion. Knowing this, the net effect of the Mexico 
City Policy on these 59 nations is to limit or eliminate critical 
family planning work that has a very real impact on the quality of 
life. Moreover, the absence of family planning is likely to increase 
the instance of the one thing that the advocates of the Mexico City 
Policy are most opposed to--abortion.
    Family planning is also about health care. Too often, women in 
developing nations do not have access to the contraceptive or family 
planning services they need because contraceptives are expensive, 
supplies are erratic, services are difficult or impossible to obtain, 
or the quality of care is poor. In a March report by the Population 
Action Institute it was estimated that about 515,000 women die each 
year in pregnancy and childbirth, or almost one death every minute, and 
millions more women become ill or disabled. In addition, an estimated 
78,000 women die every year from illegal and unsafe abortion and 
thousands more are injured. How many more women would die if access to 
these services were even more limited?
    The bottom line is, the Mexico City Policy is bad public policy. It 
not only limits discussion, counseling, and referrals for abortion, but 
it also limits the ability of organizations, in at least 59 nations, to 
carry out needed family planning work. We must remember that family 
planning is about--just that--planning one's family. By spacing births 
at least two years apart, family planning can prevent an average of one 
in four infant deaths in developing countries. Family planning provides 
access to needed contraceptives and gives women worldwide the ability 
to properly space out their pregnancies so that they can have healthier 
babies, which will lead to healthier children and healthier nations.
    Again, I appreciate the opportunity to offer my comments today. I 
look forward to working with you, Madam Chairman, and the other members 
of the committee who believe, like I do, that the Mexico City Policy 
should be lifted for once and for all.
    Thank you.

    Senator Boxer. Congresswoman Lowey.

STATEMENT OF HON. NITA LOWEY, U.S. REPRESENTATIVE FROM NEW YORK

    Ms. Lowey. Thank you, Madam Chairwoman, Senator Chafee. I 
want to thank you and members of the committee for holding this 
hearing and for inviting me to testify on the effects of the 
global gag rule on the United States' support of international 
family planning. Senator Boxer, you have shown such 
extraordinary leadership and I am very pleased that we have the 
opportunity to examine this issue today. We are familiar with 
the global gag rule, and I know that we will hear from many 
experts during the hearing.
    I would like to focus today on just a few critical points. 
First of all, the most common misconception about the global 
gag rule is that it stops U.S. funds from going to perform 
abortions overseas. As you know, spending U.S. money on 
abortions overseas has been illegal since 1973 and spending 
U.S. money to conduct abortion-related lobbying is prohibited 
as well.
    When the President announced in January that he would 
reinstate this policy because, ``taxpayer funds should not be 
used to pay for abortions or advocate or actively promote 
abortions,'' we just respectfully disagree with him. These 
prohibitions are already well entrenched in U.S. law.
    I have other concerns as well. The policy ignores the laws 
of other sovereign countries. Under the global gag rule, an 
overseas NGO must promise not to use any money from any source 
to perform abortions regardless of the abortion laws in the 
NGO's home country. The options for counseling and referral are 
also severely limited. A health care provider may only discuss 
abortion as an available option or refer women for services 
elsewhere under the following unlikely scenario:
    A woman enters the clinic, announces that she is pregnant, 
declares that she has already decided to terminate the 
pregnancy, and specifically requests a referral. And in a 
further example of the sheer folly of the policy, an NGO will 
remain eligible for United States funding even if it uses non-
U.S. funds to advocate for tighter restrictions on abortions. 
Only pro-choice speech is prohibited. That's what's so 
interesting about this.
    The global gag rule undermines U.S. support, in my 
judgment, for basic human rights around the world, and it 
weakens our efforts to promote democracy abroad. Because U.S.-
based groups and their personnel are protected by the first 
amendment, they are not subject to these restrictions, so the 
practical effect is this: U.S.-based organizations using 
Americans to provide family planning services abroad are not 
restricted in what they can say or do with private funds, but 
indigenous NGOs working alongside them are. American 
organizations can come to Capitol Hill to advocate for a repeal 
of the global gag rule, but foreign NGOs risk losing their U.S. 
funds if they follow suit. The global gag rule says in no 
uncertain terms that only Americans should be entitled to the 
basic protections our Constitution provides.
    I believe this is a dangerous double standard. The global 
gag rule is clearly not about crafting rational foreign policy. 
If it were evaluated under this lens, the gag rule would be 
defeated soundly at every turn.
    There is no evidence that the global gag rule will decrease 
the number of abortions. It may, in fact, in my judgment, have 
the opposite effect. By forcing NGOs to choose between 
providing lifesaving health services and receiving U.S. funds 
we will decrease the resources certain groups have to provide 
contraceptives, counseling and advocacy services that reduce 
the incidence of abortion.
    Since the Mexico City Policy was initially reinstated last 
year I've been working with my colleagues to repeal it. I first 
introduced the Global Democracy Promotion Act during the last 
Congress, and I was honored to reintroduce the bill with 
Senator Boxer this year. I call the Global Democracy Promotion 
Act the ``golden rule'' bill. It will keep an overseas group 
from being denied U.S. funding solely on the basis of services 
it provides with non-U.S. funds as long as those services are 
legal in the United States and legal in the country where the 
group operates.
    And it would prohibit overseas NGOs from being subject to 
advocacy and lobbying restriction which cannot be applied to 
U.S.-based NGOs. It essentially says that we should treat 
people in other countries the way we ourselves would like to be 
treated. It's a principle we all learned as children and we 
should not forget it now.
    The votes in the House to repeal this misguided policy are 
bipartisan and very close, and I believe we will ultimately 
prevail. I hope this hearing and our combined efforts will 
convince people that the global gag rule is bad policy. It 
undermines U.S. efforts to promote democracy in the developing 
world. It thwarts USAID's global health initiatives. It sullies 
our country's global reputation, and it does nothing to reduce 
the incidence of abortion worldwide.
    Let me just say to Senator Boxer and Senator Chafee, and to 
my good friend, Congressman Smith, many of us have traveled to 
other parts of the world, and I know you, as a leader in human 
rights, have done so.
    I remember a trip to Egypt very recently where I visited a 
maternal-child clinic, and the nurse was telling me of stories 
where a woman was brought in bleeding to death because of a 
botched abortion, but they couldn't do anything. Because this 
has such a chilling effect, they were afraid to refer this 
woman to help save her life, to take care of her, because of 
the chilling effect.
    I also remember, when we talk of rights and protecting 
women and families, a recent trip to Cambodia. Only 40 percent 
of the people in that country currently receive family planning 
assistance, contraceptive assistance. Seventy percent want it. 
And when we look at these families and children who desperately 
need these services, I think it is the right thing for us to do 
to encourage family planning as much as we can, and it would be 
irresponsible for us to cause any kind of chilling effect.
    So let me close by again restating the golden rule. Let's 
not do unto others what we wouldn't impose on ourselves, and 
let's make sure that we do all we can to preserve human life 
around the world and protect these families, protect these 
children, provide these services. I'm very proud of the work 
that the United States is doing in providing family planning 
services and assisting these families in planning their lives. 
And I thank you again for your important leadership, Madam 
Chairwoman.
    Senator Boxer. Thank you very much. Thank you both. We'll 
call our second panel.
    Mr. Smith. Madam Chairwoman, may I respond?
    Senator Boxer. We're not going to have a response back and 
forth. I'm so sorry. The tradition of the committee is that our 
witnesses speak and we don't question Members of Congress, 
because we take your testimony for what it is worth, and it's 
worth a lot to us and we thank you for it.
    We will move on to the second panel. Mr. Alan Kreczko is 
Acting Assistant Secretary of the Bureau of Population, 
Refugees and Migration, Department of State. He is a 
representative of the Bush administration. He will speak in 
favor of their policy. He is accompanied by Barbara Turner, 
Acting Assistant Administrator for Global Programs, USAID. We 
welcome you, and we're going to ask that you try to limit your 
opening statements to--how much time do you think you need?
    Mr. Kreczko. Ten minutes, Madam Chairman.
    Senator Boxer. If you could try to keep it to 10 minutes, 
because we need to move ahead. Thank you. Please proceed.

   STATEMENT OF ALAN J. KRECZKO, ACTING ASSISTANT SECRETARY, 
  BUREAU OF POPULATION, REFUGEES AND MIGRATION, DEPARTMENT OF 
    STATE; ACCOMPANIED BY: BARBARA TURNER, ACTING ASSISTANT 
    ADMINISTRATOR FOR GLOBAL PROGRAMS, USAID, WASHINGTON, DC

    Mr. Kreczko. Thank you, Madam Chairman and members of the 
committee. I am pleased to be here today to represent the 
administration in discussing the Mexico City Policy and to 
reaffirm the administration's commitment to international 
family planning.
    Throughout the more than 30-year history the U.S. 
International Family Planning Program has had strong support 
from the American public as well as the Congress. This program 
is recognized worldwide as one of the most successful 
components of our foreign assistance. We remain the largest 
donor in the world with programs in more than 58 countries.
    More than 50 million couples in the developing world use 
voluntary family planning services as a result of programs 
supported by U.S. tax dollars. These programs enable couples to 
choose the number and spacing of births, promote enhancement of 
maternal and child health, reduce the incidence of abortion, 
and enable parents to better provide for their children. And we 
know that voluntary family planning saves lives by reducing up 
to a quarter of the 515,000 annual pregnancy-related deaths 
around the world.
    President Bush has reaffirmed the United States' commitment 
to a strong international family planning program. On January 
22 the White House indicated that the President was committed 
to maintaining the $425 million funding level provided for in 
fiscal year 2001 appropriations, noting that this support 
recognizes our country's long history of providing 
international health care services including voluntary family 
planning for couples around the world who want to make free and 
responsible decisions about the number and spacing of their 
children and also noting that providing quality family planning 
services is one of the best ways to prevent abortion.
    The administration's commitment to international family 
planning is further reflected in the President's fiscal year 
2002 budget request, which includes $425 million for USAID's 
population program with an additional $25 million for the U.N. 
population fund, UNFPA.
    One standard applied in making decisions about how limited 
U.S. international family planning assistance funds are 
allocated to potential foreign grantees or sub-grantees is 
whether their family planning programs are consistent with the 
values and principles the President decides to promote as part 
of his broader foreign policy. Congress recognized this when it 
stipulated that fiscal year 2001 population assistance funds 
would not be available for expenditure until February 15, 2001. 
The accompanying conference report noted that this restriction 
was designed to allow the new President to decide what terms 
and conditions to impose on such assistance.
    The programs of foreign NGOs that provide or actively 
promote abortion are not consistent with the family planning 
values President Bush wants to promote as part of his foreign 
policy agenda. Consequently, President Bush restored the Mexico 
City Policy. While USAID's population assistance program had 
been prohibited since 1973 from supporting abortion-related 
activities, the Mexico City Policy ensures that USAID's family 
planning assistance only goes to foreign organizations that do 
not perform or actively promote abortion with a clearly stated 
exception for post-abortion care. This policy had previously 
been in place from 1984 until 1993, during the Reagan and first 
Bush Presidencies, but was rescinded by President Clinton.
    The Department of State and USAID worked closely together 
in issuing the implemented clauses for the Mexico City Policy. 
They are nearly identical with the previous clauses. While few 
organizations have decided not to comply with these clauses, we 
expect more than 450 foreign, non-governmental organizations 
will ultimately elect to accept assistance subject to the 
clauses as they did when the policy was in place under 
Presidents Reagan and Bush and will therefore continue to 
receive USAID funding.
    USAID will do its very best to assure that any gaps in 
services created by organizations that are now under Mexico 
City Policy ineligible for USAID population assistance will be 
filled by other eligible organizations.
    Let me briefly express concerns raised regarding the 
limitations on abortion advocacy by NGOs operating abroad. In 
order to avoid any misperception of U.S. Government endorsement 
of what a government's foreign organization's message may be on 
abortion, foreign NGOs that engage in advocacy on abortion are 
prohibited under the Mexico City Policy from receiving USAID 
family planning assistance. Foreign NGOs that choose not to 
comply with the policy can, of course, seek funding from other 
donor governments, the private sector, or from their own 
governments.
    While family planning assistance has broad support in the 
United States, abortion is an issue on which Americans 
sincerely and deeply disagree. The Mexico City Policy seeks to 
clearly separate the U.S. Government's support of family 
planning assistance from abortion-related activities.
    I would also like to note that USAID's family planning 
program operates under a variety of restrictions. Its own 
monitoring and independent audits from the inspector general 
and GAO have routinely found their programs in compliance with 
these restrictions.
    In closing, Madam Chair, let me reiterate this 
administration's strong commitment to international family 
planning. As I said earlier, we are the largest bilateral 
provider of voluntary family planning and related health 
services. The President's fiscal year 2002 budget supports our 
position as the leading donor. With this committee's support 
and that of the entire Congress, we expect that to remain the 
case in the years to come.
    That concludes my remarks. As USAID is the responsible 
implementing agency for the Mexico City Policy, I have asked 
Barbara Turner, who is the Acting Assistant Administrator for 
Global Programs, USAID, to join me in answering any questions 
you may have. Thank you.
    [The prepared statement of Mr. Kreczko follows:]

                 Prepared Statement of Alan J. Kreczko

    Madam Chairman and members of the Committee, I am pleased to be 
here today to represent the Administration in discussing the Mexico 
City Policy and to reaffirm the Administration's commitment to 
international family planning.
    Throughout its more than 30-year history, the U.S. international 
family planning program has had strong support from the American public 
as well as Congress. This program is recognized worldwide as one of the 
most successful components of our foreign assistance. We remain the 
largest bilateral donor in the world, with programs in more than 58 
countries.
    More than 50 million couples in the developing world use voluntary 
family planning services as a result of programs supported by U.S. tax 
dollars. These programs enable couples to choose the number and spacing 
of births, enhance maternal and child health, reduce the incidence of 
abortion, and enable parents to better provide for their children. And 
we know that voluntary family planning saves lives by reducing up to a 
quarter of the 515,000 annual pregnancy-related deaths around the 
world.
    President Bush has reaffirmed the U.S. commitment to a strong 
international family planning program. On January 22, the White House 
indicated that the President was committed to maintaining the $425 
million funding level provided for in the FY 2001 appropriation, noting 
that this support recognizes our country's long history of providing 
international health care services, including voluntary family planning 
to couples around the world who want to make free and responsible 
decisions about the number and spacing of their children, and also 
noting that providing quality family planning services is one of the 
best ways to prevent abortion. The Administration's commitment to 
international family planning is further reflected in the President's 
FY 2002 budget request of $425 million for USAID's population program, 
with an additional $25 million for the UN Population Fund (UNFPA).
    One standard applied in making decisions about how limited U.S. 
international family planning assistance funds are allocated to 
potential foreign grantees or subgrantees is whether their family 
planning programs are consistent with the values and principles a 
President decides to promote as part of his broader foreign policy. 
Congress recognized this when it stipulated that FY 2001 population 
assistance funds would not be available for expenditure until February 
15, 2001. The accompanying conference report noted that this 
restriction was designed to allow the new President to decide what 
terms and conditions to impose on such assistance.
    The programs of foreign NGOs that provide or actively promote 
abortion are not consistent with the family planning values President 
Bush wants to promote as part of his foreign policy agenda. 
Consequently, President Bush restored the ``Mexico City Policy.'' While 
USAID's population assistance program has been prohibited since 1973 
from supporting abortion-related activities, the Mexico City Policy 
ensures that USAID's family planning assistance only goes to foreign 
organizations that do not perform or actively promote abortion, with 
the clearly stated exception of post-abortion care. This policy had 
previously been in place from 1984-1993 during the Reagan and first 
Bush presidencies, but was rescinded by President Clinton.
    The Department of State and USAID worked closely together in 
issuing the implementing clauses for the Mexico City Policy. They are 
nearly identical with the previous clauses. While a few organizations 
have decided not to comply with these clauses, we expect more than 450 
foreign non-governmental organizations (NGOs) will ultimately elect to 
accept assistance subject to the clauses, as they did when the policy 
was in place under President's Reagan and Bush, and will, therefore, 
continue to receive USAID funding. USAID will do its very best to 
assure that any gaps in services created by organizations that are now, 
under the Mexico City Policy, ineligible for USAID population 
assistance will be filled by other, eligible organizations.
    Let me address briefly concerns raised regarding the limitations on 
abortion advocacy by NGOs operating abroad. In order to avoid any 
misperception of U.S. government endorsement for what a foreign 
organization's message may be on abortion, foreign NGOs that engage in 
advocacy on abortion are prohibited under the Mexico City Policy from 
receiving USAID family planning assistance. Foreign NGOs that choose 
not to comply with the policy can of course seek funding from other 
donor governments, the private sector, or from their own governments. 
While family planning assistance has broad support in the United 
States, abortion is an issue on which Americans sincerely and deeply 
disagree. The Mexico City Policy seeks to clearly separate U.S. 
government support for family planning assistance from abortion-related 
activities.
    I would also like to note that USAID's family planning program 
operates under a variety of restrictions. Its own monitoring and 
independent audits from their Inspector General and GAO have routinely 
found their programs in compliance with these restrictions.
    In closing, let me reiterate this Administration's strong 
commitment to international family planning. As I said earlier, we are 
the largest bilateral provider of voluntary family planning and related 
health services. The President's FY 2002 budget supports our position 
as the leading donor. With this Committee's support--and that of the 
entire Congress--we expect that to remain the case in the years to 
come.
    That concludes my remarks. As USAID is the responsible implementing 
agency for the Mexico City Policy, I have asked Barbara Turner, USAID 
Acting Assistant Administrator for Global Programs to join me in 
answering any questions you may have.

    Senator Boxer. Thank you very much. I note the presence of 
two members of the committee and am honored that they took time 
out of their schedules to be here. Before I ask any questions 
and open it up for questions, I would ask Senator Feingold if 
he would like to make an opening statement.
    Senator Feingold. I would, and I want to thank the Chair, 
Senator Boxer, for chairing this very important hearing, and I 
want to thank the witnesses.
    I have consistently opposed the so-called Mexico City 
restrictions on U.S. assistance to these programs, which are 
also know as the gag rule restrictions. Current U.S. law 
already prohibits U.S. funds from being used to promote 
abortion-related activities overseas. The gag rule restrictions 
traditionally prohibit U.S. funds from going to any 
organization abroad that uses its own funds for the purposes of 
providing abortion services or counseling, or even speaking out 
about abortion laws in their own country.
    I find it difficult to believe that these restrictions 
really prevent abortions. More likely, I think they actually 
increase their likelihood by cutting off funds to reputable 
family planning organizations, which happen also to use their 
own money for abortion-related activities.
    All over the world these gag rule restrictions also bring 
U.S. Government into what should be private consultation 
between a woman and her health care provider, effectively 
somehow setting the parameters of these discussions from here 
in Washington. I think this is really beyond presumptuous. I 
believe that this policy actually directly conflicts with our 
national values. Gag rule restrictions basically demand the 
recipients of U.S. family planning to surrender their rights to 
free speech if they wish to receive U.S. family planning 
assistance, a policy that runs counter to cherished American 
principles.
    I strongly support voluntary international family planning 
programs which help to educate women about contraception, 
prenatal care, birth spacing, the prevention of sexually 
transmitted diseases and other important lifesaving issues. And 
I am greatly concerned that this misguided policy will 
undermine these programs and hinder global progress toward 
better maternal/child health.
    I look forward, of course, to reading over the witnesses' 
testimony. And, again, I just want to thank the Chair for her 
tremendous leadership on this issue. Thank you.
    Senator Boxer. Thank you so very much, and I appreciate 
your support.
    Senator Allen.
    Senator Allen. Thank you, Madam Chairman. It's good to be 
with you again. You have convened a hearing on issues, actually 
two issues, that understandably stir emotions----
    Senator Boxer. Actually, this was Senator Biden's----
    Senator Allen. So, Senator Biden pulled this off?
    Senator Boxer. This is actually a full committee hearing 
that he has given me the honor of chairing.
    Senator Allen. He ought to be here to handle this, but 
it's----
    Senator Boxer. He trusts me.
    Senator Allen. I think it's much more enjoyable to have you 
doing this, in essence, and for you to have this hearing on 
these very controversial issues, and those are the issues, 
really, of foreign aid and the issue of abortion, which are 
issues that clearly stir emotions and controversy in our 
country.
    I've read and listened to Mr. Kreczko's statement. 
Regardless of pronouncing his name incorrectly, I think it's a 
very articulate statement, but I also think it's a statement of 
the administration that shows a very reasonable, principled 
statement of policy, which I support. I would go on to say to 
the chairman on the issue of abortion I have a position of what 
I call one of reasonable moderation, and it's one which uses 
scientific ways of looking at when there is a quality of life 
or development of life, when there is a compelling state 
interest to protect the unborn child, fetus, product, whichever 
term one would want to use.
    But I've always taken the strong stand against taxpayer 
funding of elective abortions unless they are in the case of 
rape or incest or the physical health of the woman, the mother, 
being in danger. And if you look at the details of this so-
called Mexico City Policy, it actually fits in as far as the 
taxpayer funding issue: Abortions may be performed if the life 
of the mother would be in danger if her fetus were carried to 
term, or following rape or incest. And so funds can be used in 
that way.
    Health care facilities may treat injuries or illnesses 
caused by legal or illegal abortions, post-abortion care. As I 
understand it, that is covered by such funding. Passive 
responses by family planning counselors to questions about 
abortion from pregnant women who have already decided to have a 
legal abortion are not considered acts of promoting or 
advocating abortion, and referrals for abortion as a result of 
rape, incest, or where a mother's life would be in danger or 
support of post-abortion care are permitted. So this is 
generally my view of the way it ought to be, as everyone has 
their own views, have very strongly held views on this issue. 
But as far as I'm concerned, it's pretty close to my general 
view of taxpayer funding.
    I might have a different status or view as far as what goes 
on in the United States versus foreign aid, because, after all, 
this is the taxpayers' money that will be going to support 
foreign groups that support abortion, fund abortions, or 
encourage or advocate abortions.
    And I think we all want to help women. I support family 
planning. I support funding by the United States of programs 
that help women decide how many children they may want to have, 
or spacing of their children. Our Government, which means the 
taxpayers of the United States, spend over $400 million a year 
for family planning programs, and I just don't think we need to 
use this money to give it to groups that perform abortions or 
advocate abortions.
    The so-called Mexico City rule has been in effect in the 
past, and the international family planning groups have not run 
out of business. They've survived all those years just fine 
during the Reagan and first Bush administration. And there will 
always be funds from other countries. They can support it. 
There are private organizations. There are individuals that 
want to support these groups. So I don't see why the taxpayers 
ought to be compelled to do so.
    The reason I say the private groups can fund it is that it 
is the right of an individual to fund whatever they want, to 
fund as they see fit. The question here is what is the proper 
use of U.S. taxpayers' money.
    So, in summary, Madam Chairman, I pretty much agree with 
the statements made here on behalf of the Bush administration, 
and I would hope that policy stands because it's consistent 
with my views and principles, and I consider my stand to be one 
of a status of reasonable moderation on the issue of abortion.
    So thank you, Madam Chairman, and thank you all for bravely 
coming before this committee.
    Senator Boxer. Thank you, Senator.
    This is a good start. This is common ground. Let me say, 
Senator, how much I respect your being here this morning. So I 
guess where I disagree with you is you think this is a very 
controversial hearing and controversial subject. I think family 
planning is not.
    I also want to point out that you said a couple of things 
that I just want you to look at, because I know you are a very 
serious legislator, and that is you said very strongly that you 
don't believe public funding should be used for abortion, and 
that has been the law since 1973. When I got to the Congress in 
1983, that had been the law for 10 years. So the fact that it 
is written without the gag rule, U.S. funds may not be used. 
And what this gag rule says is, if they spend their own money 
on abortion, they cannot receive Federal funds. So I just urge 
you to look at that.
    You also said you support abortion in the case where the 
physical health of the mother is impaired. This gag rule makes 
no exception for the physical health of the mother. It does for 
life of the mother, not physical health. So I'd love to see 
that section added. We're with you on it if you would like to 
do that, because that might be an area we could work on 
together.
    Senator Allen. May I----
    Senator Boxer. Please, please. We're taking a little time 
out here. Maybe we can reach some----
    Senator Allen. The concern I would have for the chairman is 
that, if you give money to these organizations, these foreign 
organizations----
    Senator Boxer. Yes, nongovernmental.
    Senator Allen. All right, non-governmental organizations 
that perform abortions, obviously you can switch money around. 
It could supplant other funds. They'll say, ``Oh, yes, we are 
not using it for this,'' so they use the money for one way or 
the other. So money is fungible. That's a concern I have there.
    Senator Boxer. I would say in this country we do give tax 
dollars to organizations that use their own funds. They have to 
give very strict----
    Senator Allen. Such as Planned Parenthood?
    Senator Boxer. Well, several.
    Senator Allen. Correct.
    Senator Boxer. And we do have very strict laws. So this is 
a different set of rules for non-governmental entities abroad 
in developing countries. That's why we think, many of us, that 
this is just so unfair.
    Senator Allen. Let me ask you this. This so-called gag 
rule, which was an issue in the first Bush administration, 
which applied to the United States, that issue--maybe the Bush 
administration is going to bring it back, but as I understood 
during the Clinton administration, that's been settled and the 
policy as far as Federal funding for organizations on planning, 
while it doesn't fund abortions as far as abortion counseling, 
the gag rule, as I remembered it from 10 years ago, was one 
that even prohibited----
    Senator Boxer. That's correct.
    Senator Allen [continuing]. Discussion of abortion.
    Senator Boxer. And that's what this does, the Mexico City 
Policy. We had that, but it's unconstitutional and we can't 
have it here, so that's why we don't have it in this country 
but we have it in developing countries.
    Senator Allen. Just so you know, when I was for a short 
time a Member of Congress, my stand was opposed to that so-
called gag rule. I thought it went too far in prohibiting, and 
got some nice blasting letters and faxes from folks on it, but 
nevertheless that was the position I took during the campaign. 
This, though, is overseas.
    Senator Boxer. Yes.
    Senator Allen. These are foreign operations.
    Senator Boxer. And you're going to meet some of these good 
folks who are going to testify today.
    Senator Allen. It's important and the whole issue of 
foreign aid and how much foreign aid we ought to have is 
another issue, and what we should be funding and what sort of 
certainty is there that it won't be used--and especially if an 
organization does perform abortions. But I'm glad that the gag 
rule issue as far as domestic, here in this country, is 
settled. Who knows? Maybe it will come back again.
    Senator Boxer. I don't think so.
    Senator Allen. Good. I hope it doesn't.
    Senator Boxer. We have a good Constitution.
    Senator Allen. Well, I didn't know it was a 
constitutional----
    Senator Boxer. Well, free speech is the basis of our----
    Senator Allen. Yes, but you don't have the right to have 
our taxpayers pay for your speech. I just thought it was a bad 
medical policy to not allow medical professionals to even 
discuss the option of abortion. I didn't think they should----
    Senator Boxer. Senator?
    Senator Allen. Just let me say one thing.
    Senator Boxer. Yes.
    Senator Allen. The reason I used the words ``physical 
health'' as far as exceptions, which are in this policy, for 
rape and incest and----
    Senator Boxer. Life of the mother.
    Senator Allen. You used life of the mother. The reason I 
used the words ``physical health,'' is simply an adjective to 
make sure that we are thinking of physical health as opposed 
to----
    Senator Boxer. Mental health.
    Senator Allen. Because some people can use that as a way--
without the proper adjectives it's too big of a loophole.
    Senator Boxer. I agree.
    Senator Allen. Maybe I should use the word ``life,'' but 
I'm just always--there could be a situation detrimental to a 
woman's physical health.
    Senator Boxer. Yes.
    Senator Allen. An impairment disabling----
    Senator Boxer. Exactly, and that's a very big issues 
surrounding the whole debate. Thank you, Senator. We did this 
little, mini debate, because I think it's helpful to see 
different views, but the point, I hope, Senator Allen, you will 
keep in mind, and if you do I have some confidence, maybe, that 
you will rethink your position on this, that this global gag 
rule is the same thing as that domestic gag rule we had, same 
thing.
    Doctors, or nurses, in foreign countries cannot tell a 
patient their options. It has to be a passive question. But no 
one can come in and say, ``What are my choices? What can I do? 
I'm in trouble here.'' Doctors may not speak if they receive 
Federal funds. So I think this is crucial.
    Well, Mr. Kreczko, I'm sure you were thrilled that you 
didn't get on the hook for a couple of these questions, so I'm 
going to return to you. And I would like to go to the 5-minute 
rule for us as well. So let me say, I was stunned when George 
Bush did this, frankly, 2 days after he was elected, and I have 
his statement here. He said, ``It is my conviction that 
taxpayer funds should not be used to pay for abortions or 
advocate or actively promote abortion, either here or abroad.''
    So I just want to make sure you know, and I know you know 
this, but just for the record, do you not agree that since 
1973, taxpayer funds have not been able to be used to provide 
abortion, to promote abortion, in this country or abroad?
    Mr. Kreczko. Senator, you are correct. Since 1973 U.S. 
taxpayer funds cannot go directly to support abortion 
activities.
    Senator Boxer. You agree with that?
    Mr. Kreczko. Yes.
    Senator Boxer. So I just might say for the record then, and 
I don't ask you to comment at all, that in my opinion this 
statement is incorrect, because he said, ``The Mexico City 
Policy must be restored because taxpayer funds should not be 
used to pay for abortions.'' That's why so many of us were 
stunned. He didn't say ``fungible'' or any of these things that 
others have said. So I think that this statement is incorrect 
on its face, and I would put it in the record and make the 
point that the Bush administration has now stated that. It is 
an accurate statement that since 1973 taxpayer funds have not 
been able to be used for abortion or promote abortion here or 
abroad.
    Mr. Kreczko, you pointed out some of the exceptions, and 
Senator Allen also did, of this global gag rule I call it. 
Others call it the Mexico City Policy. But we agree that the 
life of the mother, rape, incest--and I believe you said you 
didn't say medical emergency. What is the exact----
    Mr. Kreczko. Care for the consequence of abortion.
    Senator Boxer. Right. So that in your opinion if a woman 
walked into one of these USAID clinics that was living under 
the global gag rule and she was bleeding from a botched 
abortion or an incomplete abortion, and they helped her get 
through the rest of this operation, they would not lose their 
funding?
    Mr. Kreczko. Correct. The President made that explicitly 
clear when he enacted the Mexico City Policy.
    Senator Boxer. Well, let me----
    Ms. Lowey. I would just like to comment that under the 
original Mexico City Policy in the 1980's and 1990's, that was 
not correct. President Bush changed that in the new policy. 
It's the one thing he specifically asked that we adjust because 
we felt that was something groups had brought to us as a 
concern.
    Senator Boxer. OK, well, I would recommend that you might 
consider discussing this with Secretary Powell or people from 
the State Department or USAID. I think we really need to 
clarify that because Congresswoman Lowey says that the groups 
are fearful of the chilling effect of this policy where when a 
woman comes in in that circumstance they are afraid or fearful, 
or even if she asks a passive question.
    I want to ask you, do we have this gag rule in any other 
USAID activity?
    Mr. Kreczko. I don't know the answer to that.
    Ms. Lowey. Not to my knowledge.
    Senator Boxer. We don't. And it seems to be amazing that we 
have a gag rule--on no other USAID program, but we have this 
gag rule on family planning. I think that says volumes. If 
we're so worried about it--I mean, theoretically, if somebody 
goes in to get treatment because they're afraid that they have 
AIDS, let's say, the people there in those non-governmental 
organizations aren't gagged from talking about abortion or 
anything else. So I'm saying this not to give you an idea to 
now go out and gag those people, but I'm saying the fact that a 
gag rule applies strictly to family planning is very hostile. 
It is very hostile to women. It's very hostile to the notion of 
freedom of speech when it comes to a woman's reproductive 
rights.
    Mr. Kreczko. Senator Boxer, can I comment on this?
    Senator Boxer. Yes, go ahead.
    Mr. Kreczko. I actually think that the narrowness of the 
Mexico City Policy demonstrates exactly the opposite. The 
Mexico City Policy only applies to the family planning money. 
It does not apply to any other source of U.S. Government 
funding, so clearly the intent is not simply to go out and 
target any foreign NGO because of its advocacy. If so, it would 
apply no matter what the source of funding. Instead, it applies 
to family planning because of the President's desire to draw a 
clear line of separation between family planning and abortion.
    Now you mentioned in your comments that family planning is 
not controversial. There is a strong consensus in the United 
States that we ought to be doing family planning, but there is 
not a consensus on the abortion issue in the United States, and 
we actually can encourage and promote and secure support for 
family planning by keeping a clear separation between family 
planning and abortion. And that's what the Mexico City Policy 
does. We choose our partners for the implementation of family 
planning on the basis of what their views are.
    Senator Boxer. Well, that's a good try, but we don't do 
that at home. We don't do these things to our family planning 
people at home. We don't gag them. We permit doctors to tell 
them their options. We don't stop them from being able to 
advocate.
    Do you know that we have a witness on the next panel that 
had to go to court because she was fearful of speaking out here 
and the Bush administration showed up in court and very wisely 
said, ``Oh, we won't contest this. We'll let her talk.'' Thank 
you. Thank you, for allowing someone to speak.
    I would say to you that, because this is just attached to 
family planning organizations and no one else, it is hostile to 
family planning. It is hostile to those groups. I hope you can 
stay and hear those groups and what it is like for them because 
they are so fearful. They see 78,000 women dying of illegal, 
botched abortions. They believe that your policy, which you are 
defending here today, is going to lead and is leading to more 
illegal abortions.
    So I respect your view. I think you made a good try to show 
how friendly this administration is to family planning, but you 
are putting a gag on groups outside of America. You can't do it 
here. The administration would love to do it here, but it 
can't, because we're protected here by our Constitution. And I 
think that is a shameful situation, but I appreciate--I have a 
sense that in your heart you don't see it this way. And so, 
good, I'm glad, you sleep at night much better. But I see it a 
completely different way.
    Senator Chafee.
    Senator Chafee. Thank you, Senator Boxer. I think you are 
making the key point here, and that's the hypocritical aspect 
of this law. Senator Boxer's bill, S. 367, declares that 
``ineligibility to termination for certain assistance under the 
Foreign Assistance Act of 1961: Foreign NGOs shall not be 
ineligible for assistance solely based on the health and 
medical services, including counseling and referral services, 
provided by them with non-U.S. Government funds if such 
services do not violate the laws of the country in which they 
are being provided and would not violate U.S. Federal law if 
provided in the United States.'' These are the key points here. 
How can the administration not support S. 367 under those 
circumstances?
    Mr. Kreczko. If I can try to respond to that, Senator. The 
issue is what organizations we want to choose as our partners. 
There's no obligation to fund everyone regardless of their 
views, and I think that would be uncontested if there were a 
group that was arguing that abortion ought to be coerced or 
that abortion ought to be used in order to choose the sex of 
the child that was going to be delivered. We have no obligation 
to fund any organization because of the views that it advances.
    You have to bear in mind that we are associated with the 
groups that we fund. We do not fund anonymously. In fact, we go 
out of our way overseas to take credit for the family planning 
services that we provide. So when we provide financial support 
to a foreign, non-governmental organization, organization x, we 
go out of our way to make it clear and visible and public that 
the U.S. Government is supporting that organization's 
activities. Now we don't want to create any confusion about 
what this administration's view is on appropriate family 
planning, and therefore we do not fund those groups which 
support abortion activities.
    So I think that is the explanation. And again, as I say, 
the intent is to keep a clear line between family planning, 
which everyone supports, and abortion, which is divisive.
    Senator Chafee. I just add that we have to be careful about 
blurring the line between the 1973 law, as has been pointed 
out, and how that exists and the laws that--what is 
constitutional here in the United States and how can we have 
different standards for foreign countries.
    Mr. Kreczko. Senator, I understand the difference between 
the 1973 law. The 1973 law only applies to what happens 
directly with our funding. But it is a fact that we perpetuate 
intentionally that when we fund an organization, that 
organization becomes associated with us overseas, and it is 
known that we fund them.
    Senator Chafee. Thank you, sir.
    Senator Boxer. Senator Allen.
    Senator Allen. Thank you, Madam Chairman.
    I do think that the issue is which hearings on 
appropriation policies, so to speak, as to which foreign 
organizations the taxpayers of this country ought to fund. We 
make all sorts of decisions on appropriations and have 
conditions on appropriations. To me, this seems very 
reasonable.
    Again, you know, this was not anything that was all that 
hard, prior to the Clinton administration--they came in after 2 
days in office and they changed the rules that were in the 
first Bush administration, so Presidents use their Executive 
powers quite quickly, and that's within the prerogatives in 
changing it.
    But I do think it's important to note a new aspect of this 
law, and I assume this was along and blurred from this hearing, 
that if someone has complications from an abortion, some 
physical problems, whatever the problems may be, that these 
organizations are perfectly--that there is no prohibition and, 
in fact, probably what needs to be done in this is one thing 
that I think everyone can agree on out of this hearing that 
could be very beneficial if there is a chilling effect somehow 
on this Mexico City problem. But those who do have medical 
problems after an abortion, not performed, obviously, in that 
particular facility, but they want to go to the other 
organization, that that certainly would be allowed.
    And probably you need to work with whatever these non-
governmental organizations are, and there may be some of these 
non-governmental organizations that may not have applied 
previously for these funds that do perform that very important 
service that need to know that. Because I think it's a good 
change. I think it should have been there before. It just never 
arose or came to my attention, nor was I here to worry about 
such matters when one is worrying simply about the Commonwealth 
of Virginia.
    The chairman had some questions about your heart there, Mr. 
Kreczko, and I'm going to allow my final time for you to--the 
chairman is very persuasive, as you can see, and she's very, 
very sharp and smart. Is there anything that you would want to 
add? I can tell that you want to respond, but the time has 
expired so I'll give you whatever moments I have left on my 
time.
    Mr. Kreczko. Thank you, Senator.
    I would like to make two comments. No. 1, the actual White 
House statement that indicated the restoration of Mexico City 
Policy included in it a statement about being able to provide 
care for people who went through botched abortions, so 
attaching visibility to that is something that we have tried to 
do to remove any questions that might have existed under the 
former policy on that.
    The other point that I welcome an opportunity to make is 
this question about impact on family planning, because there is 
a consensus around the room that we all support family 
planning. The fact is that we are given by Congress $425 
million for a family planning program, and we will program that 
$425 million with or without Mexico City Policy. We can and 
will program effectively the $425 million of funding we are 
provided, so there is not going to be a significant adverse 
impact on family planning programs as has been argued. Thank 
you, Senator.
    Senator Allen. Thank you. Thank you, Madam Chairman.
    Senator Boxer. Thank you so much. Maybe there is room for 
us to work on a way together to the Bush administration asking 
them to send out a clarification of their rule, because we did 
get testimony from Nita Lowey that--I don't know if you were 
here at that point.
    Senator Allen. I was not.
    Senator Boxer. That in Egypt a woman desperately seeking 
help after a botched abortion came into one of these 
organizations that was a very good organization, and they were 
afraid to treat her because it had that chilling effect.
    Senator Allen. Let's do that.
    Senator Boxer. I would love to. And so that's a place that 
we could work together on and hopefully get your support on 
that, and that we could work together on something would be 
very good.
    Mr. Kreczko. I can say that it's there in the amended 
policy guidelines that were issued after the Mexico City Policy 
was restored by the President, so it is there.
    Senator Allen. It seems like a notification needs to--at 
least in Egypt, and who knows where else in the world, that 
needs to be clarified. Not everyone reads all these missives. 
Most people do, but not everyone all over the world.
    Senator Boxer. That's true. People in Nepal may not read 
the Federal Register. This is true. So if we want to get 
something out there, it seems to me we might send a letter--
and, Senator Allen, maybe or maybe not we could hope to agree 
on something.
    Let me thank you. I would want to say, however, sort of the 
irony of this in my mind, not in yours and not in Senator 
Allen's, but I think in Senator Chafee's and mine, I think I 
would speak for the both of us in saying this, as we seek to 
make the best of the circumstance by clarification of what we 
have in place, it seems to me, it is a separation where, 
because we have these different rules for the international 
organizations who are doing this, we have this chilling effect 
and we certainly know they cannot let people know what their 
rights are unless it's the answer to a passive question. They 
cannot. We all admit that.
    That's what this global gag rule is. A doctor can't say to 
you, if he sees you, what he or she might not want to be 
fearful of doing, but they can't do that or they will lose 
their funds.
    So what we have set up then is perhaps some of the base 
organizations that you fund, that we all fund as Americans. 
We're picking out the best. You're absolutely right, the best 
of the best family planning organizations are getting our 
funding. And they are the very same ones that are gagged. They 
are the very same ones that cannot use their own funds to 
provide safe abortions. Now a woman doesn't go there. She goes 
to some back alley. Then she comes bleeding into one of the 
organizations we fund, and, with your magnanimous exception, if 
she arrives bleeding on the floor, they have the help for her. 
Well, good for you. I'm glad you have that exception, but how 
much better it would be if that woman could go to that fine 
organization and not to the back alley.
    That's why many of us are upset about this. I respect that 
we see it differently. Believe me, I do respect that 
difference. And I think we have to be real honest about what 
this is about. From my perspective, it is about family planning 
and avoiding abortion. It's what I believe. But sometimes life 
doesn't go exactly right and a woman is forced into a terrible 
circumstance and she makes this difficult personal choice with 
herself, her doctor, her family, and her God.
    Now in this country it's a legal choice. In other countries 
it's a legal choice. But because of this gag rule she can't get 
all the options. She can't choose what's best, really, for her. 
I think this is backward. I don't feel good that the only time 
she could get the help from these good organizations that you 
fund, and we agree with you that we should fund, she can only 
get it in a desperate type of situation and we can't do it in 
this country.
    So that's why we have so many people who consider 
themselves anti-choice, if you will, or pro-life, whatever way 
they phrase it, on our bill as co-sponsors. We have Harry Reid 
as one of our leading supporters. He testified here today, 
Senator Allen. He has got a pro-life record. We don't agree on 
the issue of choice, but we agree on this one.
    In any event, I think you get my point, and I thank you 
both very, very much for coming. And I hope we can find common 
ground on some of these issues that Senator Allen and I have 
discussed. And we dismiss you and we hope you have a good day. 
Thank you very much.
    Senator Allen. Madam Chairman, may I--I don't know 
protocol. If it's out of order, fine.
    Senator Boxer. Anything you want. What do you need?
    Senator Allen. You're wonderful. I think we can agree----
    Senator Boxer. I knew he wouldn't give me the last word.
    Senator Allen. No, you'll always get the last word. And I 
was listening very closely to everything you were saying, and I 
think we should work together in making sure that these foreign 
operations, foreign, non-governmental organizations know the 
change. I think it's very, very important.
    None of us, none of us want back--well, I'm going to speak 
only for myself. I don't want people having back alley 
abortions or unsafe abortions. And you're saying, oh, gosh, if 
the United States--here's the import of all of this, is if the 
United States, out of $427 million--when you start allocating 
that around the world, that really doesn't come out to very 
much money. I'm not advocating any big increases.
    Senator Boxer. Well, we almost had a----
    Senator Allen. No, national defense, education and basic 
scientific research, take care of those.
    Senator Boxer. Well, wait a minute. Are we getting our 
campaign platform in here?
    Senator Allen. No.
    Senator Boxer. I'm just kidding.
    Senator Allen. But the point is I don't want anyone--
advocating anyone having a back alley abortion or an unsafe 
abortion. This amount of money, even if it was going to these 
organizations, would not necessarily prevent that. There is a 
responsibility, by the way, for those who care about this, if 
they so desire, to fund the organizations so that they can 
provide safe abortions. But beyond all that, what about the 
countries in which these people reside? You know, it's nice if 
there's no governments around or in those countries they can 
advocate better hospitals, better medical care and so forth. So 
the question is not whether or not, gosh, if we change this, if 
we delineate or delete this Mexico City Policy that all of a 
sudden health care and safe abortions will occur. That's really 
not--I don't think it's going to make much of a difference 
whatsoever as a practical matter, because not everyone is going 
to be able to go to these very few facilities that $400 million 
would cover around the whole world.
    So I do think there is an obligation and the primary 
responsibility on the part of the governments of those 
countries to make sure there is good quality health care. This 
is just the United States and our charitable way of trying to 
help out with family planning, which we understand is important 
as a world issue, and a hunger issue, and a quality of life 
issue.
    Senator Boxer. Well, Senator, I agree with you that the 
countries have to do more. Sadly, in the developing world we 
have countries that are just so poor and they just don't have 
the funding. They barely can feed their own people. We're 
talking about the developing world. We're not talking about--we 
don't help France with this. You know, we're helping the 
roughest and the toughest, and the most undeveloped nations. 
But we would certainly hope that they would, with whatever 
resources they could, deliver this health care.
    But the reason that you're needed and the reason we do 
these programs is we do try to stretch our dollars. And I 
personally would like to see us do a little more, because I 
think when we really get into the analysis--you talk about a 
priority of defense, which we all share, you're going to have 
to do a lot less of that if people are fed and people have good 
health care. So I think helping with these kinds of programs 
abroad does help us. And I'm sure that if we were to have the 
Secretary of Health he would agree that helping these people 
does help bring people to our side. It does help bring 
democracy.
    So in any event, I greatly appreciate the panel and my 
colleagues in Congress. If you'd like to stay you are welcome 
to stay. I think what is extremely interesting is that we do 
have a person here who felt she had to go to court to get the 
gag rule lifted. And I hope from what happened--this is a news 
release from this morning, ``U.S. Government Backs Away From 
Gag Rule Limitation on Abortion Right Advocacy.'' It's a 
headline, New York. ``Today the Bush administration, faced with 
the embarrassing possibility that its abortion gag would censor 
the testimony of a witness before Congress, backed away from 
the global rules limitation on abortion rights advocacy. As a 
result, Susana Silva Galdos, a Peruvian reproductive rights 
advocate, is free to speak before a hearing at the U.S. Senate 
on Thursday about the gag rules limitations on abortion in her 
formative nation without jeopardizing her organization's 
funding.''
    Mr. Kreczko. If I can comment on that, Senator.
    Senator Boxer. Yes.
    Mr. Kreczko. I want to comment on the characterization that 
the Bush administration was forced to back away. The Bush 
administration never believed that the Mexico City Policy would 
interfere with an individual's ability to testify before 
Congress. We made that clear to the judge and the judge agreed 
with that and, therefore, no restraining order was issued.
    Senator Boxer. I understand.
    Mr. Kreczko. So the suggestion that the Mexico City Policy 
would preclude an individual from testifying before Congress is 
inaccurate and the individual was informed of that so that 
there wouldn't be any question about that.
    Senator Boxer. And I'll finish, ``although free to testify 
before the Senate on one occasion, Ms. Galdos remains censored 
by the gag rule's restrictions against discussing abortion law 
or in any other circumstance on any other day.'' This means she 
was censored from speaking before Peru's legislature, the U.N. 
or to members of the press. Now I'm embarrassed about this. I 
mean, I am.
    Anyway, we're going to call on our next panel, and we thank 
you very, very much. May I ask that both panels, because of the 
time situation, come up together, and I would ask our wonderful 
staff to accommodate that. We want to put our ``now free to 
speak'' witness Susana Silva Galdos and Dr. Nirmal Bista right 
in the center if we can. They came a very long way to be here 
today.
    We would like to have the other panel as well. Dr. 
Pellegrom, Dr. Eberstadt, Mr. Neier, Ms. Cleaver, Professor 
Aguirre. We welcome all of you.
    I'm going to ask Ms. Galdos, since you had to go through a 
lot to get to speak here today, you are ungagged and you are 
here in the U.S. Senate, and you may take that gag off, and we 
hope that you will speak to us about the impact of the Mexico 
City rule on your ability to deliver care to people in Peru.
    And we would ask that--we're going to keep the 5-minute 
light on, and, if each of you needs to have another minute or 
two, we'll do that, but we can't go much over that or we'll run 
into votes and other things.
    So, Ms. Galdos, we welcome you.

STATEMENT OF SUSANA SILVA GALDOS, PRESIDENT, MOVIMIENTO MANUELA 
                       RAMOS, LIMA, PERU

    Ms. Galdos. Senator Boxer and members of the committee, 
good morning.
    Senator Boxer. Ma'am, move the mike closer and please speak 
a little louder. Now that you are ungagged we all want to hear 
you.
    Ms. Galdos. Thank you very much for inviting me. Thank you 
for this opportunity to testify before the committee today. I 
am here today in the United States to testify about the impact 
of the global gag rule. I come from Peru, a developing country 
with the second highest maternal mortality rate in South 
America. I belong to Movimiento Manuela Ramos, a Peruvian non-
governmental organization with more than 20 years of experience 
in focusing for women's rights and well-being.
    We are partners with USAID on two projects, one of which is 
the Reproductive Health in the Community Project known as 
ReproSalud. This project is our passion because it is a big 
project to reach the poorest women in my country in the area of 
family planning and other essential health services.
    I would like to discuss two things. First, I would like to 
discuss about unsafe abortion and, second, I would like to 
discuss the impact that the gag rule has on free speech and 
democracy.
    This first issue is one that I have not been allowed to 
speak about under the global gag rule. Yesterday, your 
government gave me some assurances in court that I could speak 
freely about it, but only in this hearing. And because a judge 
has affirmed this understanding, I feel comfortable speaking 
out, but as soon as this hearing is over, I cannot speak on 
this issue. I will return to my country tomorrow; I will again 
be silenced. But now, at least for today, I can speak freely 
here in the United States, not my country. I cannot speak in my 
own country about my own problems because they are off limit.
    I have worked on reproductive rights issues for many years, 
which has included advocacy to decriminalize abortion, because 
in my institution we believe that it is important to work on an 
issue that has a big impact on women's reproductive lives. 
Research shows that unsafe abortion is one of the most 
widespread causes of death of low-income women around the 
world. Recently, United Nations conferences have recognized 
that unsafe abortion is one of the most significant public 
health problems. Abortion is illegal in Peru. It is considered 
a crime against life, the body, and health, with the exception 
of therapeutic abortion to save the pregnant woman's life or to 
protect her from serious and permanent harm.
    History has taught us that throughout the world desperate 
women will seek abortion regardless of its legal status. It is 
estimated that each year 60 percent of pregnancies in Peru are 
unwanted and 30 percent of all the pregnancies end in abortion 
despite Peru's existing law.
    Senator Boxer. Could you repeat that again.
    Ms. Galdos. Yes. It is estimated that each year 60 percent 
of pregnancies, more than 50, more than a half are unwanted 
pregnancies and 30 percent----
    Senator Boxer. Do you ban contraceptives?
    Ms. Galdos. Well, I think we should--I've told you about 
the contraceptive.
    Senator Boxer. Just go ahead. Just do your thing and then--
--
    Ms. Galdos. Thirty percent of all the pregnancies end in 
abortion despite Peru's existing law Peru is no different. 
Because abortion is a crime in Peru, most women unfortunately 
undergo clandestine abortions, performed in unsafe conditions. 
I don't want to make you a picture like one of the persons did 
about the waste, what terrible waste. It is really sad to see a 
woman in that condition after an unsafe abortion. While the 
clandestine nature of such procedures makes it difficult to 
know the prevalence of dangerous abortions, it is estimated 
that 69 percent of poor rural women who undergo abortions 
suffer from complications, as do 44 percent of women living in 
poor urban areas.
    Unsafe abortion has serious consequences. It is estimated 
that every year 65,000 Peruvian women are harmed to the point 
of needing hospitalization due to complications of unsafe 
abortion. The Ministry of Health reports that in 1997 15 
percent of all obstetrical and gynecological admissions were 
due to abortion complications. And adding to the problem, most 
of those women do not receive adequate health care once 
admitted. Tragically, unsafe abortion is a significant cause of 
morbidity and mortality among low-income Peruvian women. Simply 
put, women are dying.
    In my country, unsafe abortion causes 22 percent of 
maternal deaths in Peru. It's a high risk there. Peru has the 
second highest rate of maternal mortality in South America.
    Unintended pregnancy and unsafe abortion has a dramatic 
impact on the lives of adolescents in Peru as well. Three-
quarters of sexually active young women in Peru are not using a 
modern contraceptive method, and one-half are using no 
contraception at all. In fact, 13.4 percent of adolescents 
between the ages of 15 and 19 are mothers or are pregnant for 
the first time. Poverty compounds the problem. The number of 
births is greater among the young women in this age group who 
live in areas with higher levels of poverty.
    I am saddened to report that a recent survey indicates that 
90 percent of pregnant adolescent patients between the ages of 
12 and 16 in the Lima Maternity Hospital were pregnant as a 
result of sexual abuse. These statistics indicate that 
desperate young women are too often forced to make difficult 
choices in a country where abortion is illegal. As a result, 
one-third of those who are hospitalized for abortion 
complications are young women between the ages of 15 and 24 
years old.
    Manuela Ramos would like to contribute to efforts to 
decriminalize abortion. Abortion is a difficult issue in Peru, 
but we need to work gradually to legalize abortion and make it 
safe and available to all Peruvian women, rich and poor, rural 
or urban. Now it is safe for the rich only. If you have money, 
you don't have risks.
    Senator Boxer. You have another 2 minutes.
    Ms. Galdos. Thank you.
    Our first step would be to decriminalize in cases of rape 
and incest. In the face of these serious problems such as 
sexual abuse, dangerous abortion practices, and alarming rates 
of maternal mortality, how can the United States tell us that 
we must be silent?
    This brings me to my second concern that I would like to 
discuss. The gag rule is against very important values: freedom 
and democracy. The gag rule has taken away my freedom to speak 
about an important issue in my country, a serious issue that is 
about the life and death of women in Peru. A freedom that I had 
to ask a judge to give me back, temporarily, so that I could 
speak to you today. In particular, this policy gags the very 
individuals who, like me, are directly affected by this policy. 
It is as though the global gag rule has a built-in ban on 
speaking out against it.
    I have traveled to the United States on two previous 
occasions to share my views on the global gag rule. I was 
invited to participate in meetings with USAID and State 
Department officials. I was asked to speak at a congressional 
briefing, and I was invited to share my views at two press 
conferences. At each of these events I have been gagged from 
discussing abortion, even when U.S. officials asked me 
questions directly. Until today, I have been unable to stand 
here in your country--where you so value free speech--and 
discuss openly the impact of unsafe abortion on the lives of so 
many Peruvian women and they need a lot of reform.
    We in Peru believe in democracy, as do you, citizens of the 
United States. But democracy is not only for one country. The 
global gag rule, we feel, is against democracy because it makes 
a distinction between the United States and the rest of the 
world. It is very discriminatory.
    We at Manuela Ramos want to think of ourselves as partners 
with the U.S. Government and other funders, and we are working 
on these issues as partners, but the global gag rule changed 
our relationship from partnerships to ``father-ship.'' It 
implies that in the world we are like children, that we in poor 
and low-income countries cannot be trusted to make and 
implement our own rules.
    Historically, we women have had to fight for things like 
family planning, for ending violence against women. The only 
way to do this is through talking, lobbying, advocacy, and open 
debate. We have a right to find our own way to deal with these 
problems. As the United States should know, democracy is 
nourished and strengthened with free speech.
    Senator Boxer. Ms. Galdos, finish in one sentence, please.
    Ms. Galdos. I would like to say that when I was here, many 
citizens apologized to me for this global gag rule. It made us 
hope.
    I would like to finish to beg you to please let us be the 
masters of our destiny. Please, we don't want to choose between 
health services for poor women or free speech. We need both.
    [The prepared statement of Ms. Galdos follows:]

               Prepared Statement of Susana Silva Galdos

    Senator Boxer, Senator Helms, Members of the Committee, good 
morning. Thank you for this opportunity to testify before the Committee 
today.
    I am here today in the United States to testify about the impact of 
the global gag rule. I come from Peru, a developing country, with the 
second highest maternal mortality rate in South America. I belong to 
Movimiento Manuela Ramos, a Peruvian non-governmental organization with 
more than twenty years of experience in advocating for women's rights 
and well being.
    We are partners with USAID on two projects, one of which is the 
Reproductive Health in the Community Project. Known as ReproSalud, it 
is an innovative reproductive health project that seeks to empower 
women to exercise their right to family planning and other essential 
reproductive health services.
    Our history as women has always been to fight for our rights, such 
as family planning or to live without violence. My personal history has 
been one of advocating for women's rights in Peru.
    I would like to discuss two things today. First, I would like to 
discuss the impact of the gag rule on abortion, and the terrible 
consequences in illness and deaths for poor women when abortion is 
criminalized, as it is in my country. And second, I would like to 
discuss the impact that the global gag rule has on free speech and 
democracy.
    This first issue is one that I have not been allowed to speak about 
under the gag rule. Yesterday your government gave assurances in court 
that I could speak freely about abortion. And because a judge has 
affirmed this understanding, I feel comfortable speaking out. When I 
return to my country tomorrow, I will again be silenced.
    But now, at least for today, I can speak freely.
    I have worked on reproductive rights issues for many years, which 
has included advocacy to decriminalize abortion, because in my 
institution we believe that it is important to work on an issue that 
has a big impact on women's reproductive lives.
    Research shows that unsafe abortion is one of the most widespread 
causes of death of low-income women around the world. Recently, United 
Nations conferences have recognized that unsafe abortion is one of the 
most significant public health problems.
    Abortion is illegal in Peru. It is considered a crime against life, 
the body, and health, with the exception of therapeutic abortion to 
save the pregnant woman's life or to protect her from serious and 
permanent harm.
    It is estimated that each year 60% of all pregnancies in Peru are 
unwanted. And, 30% of all pregnancies end in abortion despite Peru's 
restrictive law.
    History has taught us that, throughout the world, desperate women 
will seek abortion regardless of its legal status. Peru is no 
different. Because abortion is a crime in Peru, most women 
unfortunately undergo clandestine abortions, performed in unsafe 
conditions.
    While the clandestine nature of such procedures makes it difficult 
to know the prevalence of dangerous abortions, it is estimated that 69% 
of poor rural women who undergo abortions suffer from complications, as 
do 44% of women living in poor urban areas.
    Unsafe abortion has serious consequences. It is estimated that 
every year 65,000 Peruvian women are harmed to the point of needing 
hospitalization due to complications of unsafe abortion. The Ministry 
of Health reports that, in 1997, 15% of all obstetrical and 
gynecological admissions were due to abortion complications. And adding 
to the problem, most of these women do not receive adequate health care 
once admitted.
    Tragically, unsafe abortion is a significant cause of morbidity and 
mortality among low-income Peruvian women. Simply put, women are dying. 
Unsafe abortion causes 22% of maternal deaths in Peru. Peru has the 
second highest rate of maternal mortality in South America.
    Unintended pregnancy and unsafe abortion has a dramatic impact on 
the lives of adolescents in Peru as well. Three quarters of sexually 
active young women in Peru are not using a modern contraceptive method, 
and one-half are using no contraception at all.
    In fact, 13.4% of adolescents between the ages of 15 and 19 are 
mothers or are pregnant for the first time. Poverty compounds the 
problem. The number of births is greater among the young women in this 
age group who live in areas with higher levels of poverty.
    I am saddened to report that a recent survey indicates that 90% of 
pregnant adolescent patients between the ages of 12 and 16 in the Lima 
Maternity Hospital were pregnant as a result of sexual abuse.
    These statistics indicate that desperate young women are too often 
forced to make difficult choices in a country where abortion is 
illegal. As a result, one-third of those who are hospitalized for 
abortion complications are young women between the ages of 15 and 24 
years old.
    Manuela Ramos would like to contribute to efforts to decriminalize 
abortion--neither women who seek abortions nor trained providers who 
perform them should be subject to prosecution and imprisonment. 
Abortion is a difficult issue in Peru, but we need to work gradually to 
legalize abortion and make it safe and available to all Peruvian 
women--rich and poor.
    Our first step would be to legalize it in cases of rape and incest. 
Although our current law provides that a therapeutic abortion may be 
performed, it is almost impossible for a low- or middle-income woman to 
access a safe, legal procedure even when she has a severe threat to her 
life or health. We need to broaden the interpretation and work for a 
broader health exception in our law. Manuela Ramos would like to do 
something to help the thousands of women and girls who die or are 
injured by unsafe abortion procedures--one important step would be to 
reform our abortion law. Eventually, we would like Peru to have a 
liberal law like those in so many countries in the world, including the 
U.S., that protects abortion as a basic right. In short, we support 
reform of Peru's abortion laws so that women need not fear for their 
lives when they face an unwanted pregnancy. But because of the global 
gag rule, this work is forbidden to us.
    In the face of serious problems such as these--sexual abuse, 
dangerous abortion practices, and alarming rates of maternal 
mortality--how can the U.S. tell us that we must be silent?
    And yet, we must promise to be silent--even with our own, non-U.S. 
funds--if we are to save the programs that thousands of women depend 
upon.
    Which brings me to my second concern that I would like to discuss. 
The gag rule is against very important values: freedom and democracy.
    The gag rule has taken away my freedom to speak about an important 
issue in my country--a serious issue that is about the life and death 
of women in Peru. A freedom that I had to ask a judge to give me back, 
temporarily, so that I could speak to you today.
    In particular, this policy gags the very individuals who, like me, 
are directly affected by this policy. It is as though the global gag 
rule has a built-in ban on speaking out against it.
    I have traveled to the U.S. on two previous occasions to share my 
views on the global gag rule. I was invited to participate in meetings 
with USAID and State Department officials, I was asked to speak at a 
congressional briefing, and I was invited to share my views at two 
press conferences. At each of these events I have been gagged from 
discussing abortion, even when U.S. officials asked me questions 
directly.
    Until today, I have been unable to stand here in your country--
where you so value free speech--and discuss openly the impact of unsafe 
abortion rates on the lives of so many Peruvian women.
    In Peru, Manuela Ramos has worked with elected officials and 
policy-makers in drafting laws and policies to address those issues 
that are critical for women's health. But if members of congress or 
other Peruvian officials ask our advice about reforming the punitive 
abortion laws, we must refuse to help them.
    Previously, Manuela Ramos has participated freely in regional 
networks that promote women's reproductive rights in Latin America and 
the Caribbean. But now we must be silent about abortion in our work 
with our partners throughout the region.
    Manuela Ramos has also participated in United Nations conferences 
that have addressed women's reproductive health issues, including 
abortion. But now, we cannot tell the world community about how 
abortion affects the lives of women in Peru.
    We in Peru believe in democracy, as do you, citizens of the United 
States. But democracy is not only for one country.
    The global gag rule, we feel, is against democracy because it makes 
a distinction between the U.S. and the rest of the world. It is very 
discriminatory--it tells us that we in low-income countries cannot seek 
to make and implement our own laws, nor make changes to them.
    We at Manuela Ramos want to think of ourselves as partners with the 
U.S. government and other funders, and that we are working together on 
these development issues. But the global gag rule changed our 
relationship from partnership to ``father-ship.'' It implies that 
except for institutions in the U.S., all the rest of the institutions 
in the world are like children, so the U.S. can tell us what we can do 
with our money.
    Historically, we have had to fight for things like family planning 
and ending violence against women, among other things. The only way to 
do this is through talking, lobbying, advocacy, and open debate.
    This kind of debate, and the internal political process in our 
country, should not be subjected to restrictions about what we can say. 
The global gag rule limits our ability to talk about a severe public 
health problem. We have a right to find our own way to deal with these 
problems.
    As the U.S. should know, democracy is nourished and strengthened 
with free speech.
    Since the global gag rule was passed, when I talk with U.S. 
citizens, they have apologized to me. They feel that it is 
imperialistic, and apologize for having this regressive policy in the 
year 2001. Even they cannot understand. It really made an impression on 
me when I heard this from them. It has given me hope.
    Please let us be the masters of our destiny. Please, we don't want 
to choose between health services for poor women or free speech. We 
need both.
    I hope your Committee and the United States Congress will pass a 
law very soon to end this terrible global gag rule. I appreciate the 
invitation to testify and I thank you very much.

    Senator Boxer. Thank you so much. We appreciate your very 
moving testimony.
    We are going to go back and forth so we have different 
views instead of just taking all the pros and all the cons, so, 
Dr. Nicholas Eberstadt, a scholar at the American Enterprise 
Institute, where he holds the Henry Wendt Chair of Political 
Economy, testifying in support of the gag rule, we welcome you. 
We'll set the clock for 5 minutes, and we'll give you an extra 
couple of minutes to finish.

   STATEMENT OF DR. NICHOLAS N. EBERSTADT, SCHOLAR, AMERICAN 
              ENTERPRISE INSTITUTE, WASHINGTON, DC

    Dr. Eberstadt. Madame Chairman, I am always honored to 
testify before the Senate Foreign Relations Committee, but I'm 
not testifying in favor of the gag rule.
    I was asked to give the demographic assessment of the 
impact----
    Senator Boxer. Oh, I'm sorry. I had that in an incorrect 
order. I apologize.
    Dr. Eberstadt. My remarks today actually address a somewhat 
technical, but I think important question which has to do with 
the health and mortality impact of the restrictions on U.S. 
international population assistance called by its critics the 
gag rule and by its proponents, the Mexico City Policy.
    There is considerable apprehension among many critics of 
this policy that the new restrictions would have direct and 
perhaps severely adverse consequences: higher rates of maternal 
mortality, higher rates of infant mortality, higher rates of 
unwanted pregnancy and perhaps even higher ultimate levels of 
abortion.
    Because vital registration systems in the developing world 
are often rudimentary and technically cannot provide complete 
registration of births and deaths or medical events, the 
concrete data that we would need to evaluate these concerns 
are, sad to say, simply not available to us at this moment.
    However, as I will try to explain, the expectation that the 
new Bush administration's restrictions on U.S. international 
population assistance would significantly set back child/
maternal health in the Third World seems to me misplaced.
    The ultimate effect of these restrictions may be slightly 
to increase maternal and infant deaths or to slightly decrease 
the number of deaths--or it may have no impact whatever. But 
whatever its ultimate impact, that impact is unlikely to be 
large enough to quantify. It is unlikely to be dramatic in 
magnitude.
    Now this assessment of mine will surely seem quite counter-
intuitive to many listeners. So why do I draw this conclusion? 
I will try to explain by way of analogy.
    Over the past 20 years we have had in place something like 
a controlled experiment regarding restrictions on U.S. 
international population assistance.
    We've had the Mexico City Policy in place from 1984 to 
1993. Then we overturned it from 1993 through early 2001. By 
the same token, we have seen significant increases and 
decreases in the U.S. international population funding. Between 
fiscal year 1992 and fiscal year 1995, U.S. population funding 
increased from $322 million to $576 million, and then after 
fiscal year 1995 it fell very sharply. It was down to $384 
million in fiscal year 2000.
    Now at the time some critics claimed these past changes in 
U.S. population assistance would have dramatic and devastating 
repercussions on the health and well-being of vulnerable, Third 
World populations. In 1996 for example, Dr. Nafis Sadik, then 
Executive Director of the U.N. Population Fund, UNFPA, had this 
to say about the cuts or the pending cuts in U.S. population 
funding: ``The way U.S. funding is going, 17 to 18 million 
unwanted pregnancies are going to take place, a couple million 
abortions will take place, and I'm sure that 60,000 to 80,000 
women are going to die because of those abortions.''
    By the same token, the Planned Parenthood Federation warned 
that maintaining that 35 percent cut would result in four 
million women experiencing unintended pregnancies, 1.6 million 
more abortions, and 134,000 more infant deaths.
    But as we now know, those dire forecasts were bad 
forecasts, although, as I have already noted, vital statistics 
in low-income countries are highly incomplete. International 
demographic and health experts did not detect any measurable 
upsurge in global birthrates, abortion rates, maternal 
mortality rates or infant mortality rates after the 1996 cuts 
in U.S. international population funding.
    And conversely, the significant increase in U.S. population 
funding in the early 1990's did not result in any noticeable 
decrease in birthrates, abortion rates, child or infant 
mortality rates. Why not? Because the world is a more 
complicated place than we may sometimes assume.
    There are three reasons to expect that the new restrictions 
on U.S. population systems will have a limited demographic and 
health impact. First, the restrictions themselves are not, in 
fact, quite as Draconian as some seem to imagine. We've had 
some discussion about that already this morning.
    According to a March 2001 report by the Congressional 
Research Service, the new regulations contain the following 
exceptions--we've gone through many of those already. Abortions 
may be performed if the life of the mother would be endangered. 
Health care facilities may treat injuries and illnesses 
resulting from abortion. Passive responses about abortion 
counseling may be given. Referrals for abortion as a result of 
rape, incest or where a mother's life could be endangered are 
all permitted. And the United States will further continue to 
support either directly or through a grantee to foreign 
governments even in cases where the governments include 
abortion in their family planning programs.
    Given the rather broad leeway that can be read into those 
regulations and the fact that the administration is committing 
itself to maintaining and even increasing the overall level of 
U.S. population funding, the restrictive impact would seem to 
be less severe than impacts that we have already seen and 
experienced in the past.
    Second, U.S. population assistance is only one component of 
the total resources----
    Senator Boxer. We'll give you another couple of minutes.
    Dr. Eberstadt [continuing]. Is only one component of the 
total resources used in family planning in low-income regions, 
and, while the United States is a very major funder, it is by 
no means the dominant funder. U.S. funding today accounts for 
about 20 percent of Western population aid, meaning about four-
fifths of international population aid comes from other 
sources. A still greater portion of family planning funding can 
be raised in low-income governments by low-income governments 
themselves.
    Restrictions or shortfalls in U.S. funding may be overcome 
through applications of additional funds from these other 
sources. The European Union, for example, has indicated that it 
may increase its international population funding as a result 
of the new U.S. policies.
    If current events follow the course we have seen in the 
past with U.S. restrictions on funding for UNFPA, other 
governments will end up not only making up the U.S. shortfall 
but actually augmenting overall resources.
    And third and finally, the correspondence between public 
health spending and personal health outcomes, far from being 
very precise and mechanistic, is infact very broad and diffuse. 
This is because the parents in question are independent actors 
in this drama and act in order to safeguard and improve the 
health of their families irrespective of government programs 
and resources. Third World women, Third World adults are not 
passive, helpless victims in this drama, nor do they believe 
that babies are born under cabbages. Through their own 
independent decisions, they do much to control very important 
outcomes in family life.
    Finally, Madame Chairman, I would say that there is perhaps 
good news and bad news for the contestants in this debate. One 
piece of bad news for proponents of the gag rule or Mexico City 
Policy is that, in my estimate, the new restrictions are 
decidedly unlikely to have any significant impact on global 
levels of abortion. It is most unlikely that these restrictions 
will tangibly reduce the rate of abortions in regions affected.
    At the same time, however, as I've indicated, the fear that 
the restrictions will lead to higher levels of maternal 
mortality and infant mortality can be assuaged. There is no 
reliable evidence that this is about to take place, reasonable 
as that apprehension may seem. Claims of dramatic, adverse 
consequences are undocumentable and, at least for now, should 
be treated as political theater.
    Senator Boxer. Thank you very much for your testimony, Dr. 
Eberstadt, which I guess is ``What's the difference?'' That's 
what I get out of it. It doesn't seem to take either side, so 
thank you for laying that all out.
    I think we're going to go to Dr. Bista, who will tell us if 
it makes a difference. You're in your office saying it doesn't 
make a difference. Let's hear what someone on the ground has to 
say about the rule. We already heard one such witness, and now 
we have Dr. Bista, who is, and let me say, he serves as the 
director general of the Family Planning Association of Napal, 
an organization that recently made the decision to refuse U.S. 
family planning funding because of the gag rule.
    Dr. Bista. Thank you, Madame Chairman.
    Senator Boxer. And pull the mike really close, and we want 
you to speak because--well, you're not gagged because you don't 
take USAID funding, but we think your message is very 
important, Dr. Bista.

  STATEMENT OF DR. NIRMAL K. BISTA, DIRECTOR GENERAL, FAMILY 
        PLANNING ASSOCIATION OF NEPAL, KATHMANDU, NEPAL

    Dr. Bista. Senator Boxer and distinguished members of the 
Senate Foreign Relations Committee, it is a great honor and 
privilege to speak before you this morning about the impact the 
Bush administration's global gag rule is having on the women of 
my country, Nepal. I would like to ask to have my extended 
remarks entered for the record.
    I am the director general of the Family Planning 
Association of Nepal, the FPAN, the oldest and the largest 
reproductive health and family planning non-governmental 
organization in Nepal. FPAN provides comprehensive reproductive 
health care services, education and counseling to the needy in 
clinics throughout the country. The FPAN is a member of the 
International Planned Parenthood Federation [IPPF] and is known 
for its strong commitment to the Nepal national family planning 
program--and for its role to protect the health and rights of 
women in Nepal.
    For nearly 30 years the FPAN has received generous support 
from the U.S. Government to help provide vital reproductive 
health care services. We are tremendously grateful for this 
support. We have enjoyed a long and productive friendship and 
working relationship with USAID as we all work toward a common 
cause, to improve the health and lives of women in my country.
    I am testifying before you today because the FPAN has 
recently made the difficult and painful decision to refuse 
USAID family planning funds because of the global gag rule 
restrictions. This was by no means an easy decision. It will 
lead to the loss of almost $250,000 in U.S. funds and it will 
have a major impact on our ability to continue to operate 
reproductive health clinics in Nepal's three most densely 
populated areas, Kathmandu, Chitwan, and Sunsari. This may not 
sound like a lot of money in U.S. terms, but in Nepal it means 
we will likely have to close one or all of these clinics, 
discontinuing critical services to thousands of needy women.
    Why did we make this decision? Because, as a health care 
provider, the FPAN is part of a growing movement in Nepal, led 
by our own government and overwhelmingly supported by 
physicians, to begin to address the shockingly high maternal 
mortality rate in Nepal. Nepal has one of the highest maternal 
mortality rates in the world and much of it is due to unsafe 
abortion.
    It is estimated that six women die every day in Nepal due 
to unsafe abortions performed by unskilled providers. Many, 
many more women suffer serious physical injury and chronic 
disability. In addition, Nepal has one of the most punitive 
abortion laws in the world. Women are imprisoned for having 
abortions and there is no exception, not even for rape, incest 
or life of the woman.
    Government officials at the Nepalese Ministry of Health 
have themselves concluded that liberalizing abortion should be 
the first step toward preventing the existing high level of 
maternal mortality and morbidity in my country. The Ministry's 
advocacy plan to decriminalize abortion called for the 
formation of a network of non-governmental organizations to 
address the problem.
    In response, the Family Planning Association of Nepal 
spearheaded an advocacy effort joined by a coalition of medical 
professionals, health non-governmental organizations, human 
rights advocates, women's groups and journalists to raise 
awareness and introduce legislation on this issue. The campaign 
favors legalizing abortion under certain conditions and 
improved access to safer services.
    Yet, the global gag rule policy would disqualify us from 
participating in this public awareness campaign if we continued 
to receive U.S. family planning assistance. Under the 
conditions of the policy, we cannot engage in any advocacy 
effort to legalize abortion, even if it is with our non-U.S. 
money and at the behest of our own government.
    This is the challenge: Do I listen to my own government 
that has asked FPAN to help save women's lives or do I listen 
to the U.S. Government? Were we to accept the restricted U.S. 
funds, I would be prevented from speaking in my own country to 
my own government about a health care crisis I know firsthand, 
but, by rejecting U.S. funds, I put our clinics, clinics 
addressing that same health care crisis, in very real jeopardy.
    It is an untenable situation. But, we simply could not 
stand by and watch countless women suffer and die without doing 
everything we could to prevent this misery. There is agreement 
in Nepal that women need access to safer abortion services and 
laws that don't incarcerate women for having an abortion. We 
must work to make that happen.
    On Tuesday I left my home to travel 36 hours to arrive in 
your beautiful city, and I left a very different world behind 
to get here. Where I come from, the per capita annual income is 
$220, compared to over $21,000 in the United States. Only 30 
percent of women can read. They are generally married by the 
time they turn 18, and few will have their childbirth attended 
by trained health professional.
    It is hard, then, to understand how U.S. lawmakers are so 
easily able to implement such a far-reaching and damaging 
policy when the differences between our countries are so vast 
and the realities that women in Nepal face are so unimaginable.
    Perhaps the example of one young girl in my country can 
help illustrate the situation in Nepal and explain to you why 
our advocacy efforts are so important to us that we have given 
up our U.S. funding. Four years ago Min Min Lama was living 
peacefully in her home in the mountains of Nepal. Like many 
other teenage girls of 13 in Nepal, Min Min didn't go to 
school. She stayed at home helping her stepmother with 
household chores.
    But early in 1997 when nobody was home a relative raped 
her. Terrified and ashamed, Min Min tried to hide her torment 
from her strict Hindu family. She tried to forget the trauma, 
but it wasn't long before another relative realized she was 
pregnant. Min Min's relatives arranged for an illegal abortion, 
despite the fact that abortion is illegal in Nepal and that the 
illegal abortion could have killed Min Min.
    She survived, but her trauma was only beginning. After the 
abortion her sister-in-law reported the abortion to the police 
and Min Min was arrested. She was taken to the central jail in 
Nepal's capital, Kathmandu. Her crime? Abortion.
    Min Min's relatives were not punished for the rape or the 
abortion. Instead, at the age of 13 Min Min was sentenced to 20 
years in jail. Her family abandoned her and the only visitors 
she had were charity workers, one of whom contacted FPAN. The 
FPAN started a campaign to help Min Min and to begin to change 
the laws regarding abortion. As a result, Min Min's sentence 
was reduced to 12 years.
    But the FPAN and others kept on fighting for her cause, 
telling people across the world about her plight. Finally, on 
21 September 1999, Min Min was released after 2 years in 
prison. She is now working at FPAN and living in Kathmandu.
    Min Min was one of the lucky girls in Nepal and, although 
her ending is happy, there are a lot of girls and women with 
sadder tales to tell. One in five women are currently 
imprisoned in Nepal for the same reason. Is there any 
justification for stalling even one more day? How can the FPAN, 
which fought so hard for Min Min, turn its back on these other 
women and all of the women who die or are injured daily due to 
unsafe abortion?
    As I have stated, the decision to reject the USAID funding 
was a difficult one, and I fear for the future of our clinics, 
but, as you can see, ours was an impossible decision. Whatever 
we decide, the women of Nepal suffer. And we are by no means 
the only ones forced to make this decision. Our colleagues all 
over the world face this same agonizing decision.
    I would like to thank the Senate Foreign Relations 
Committee for allowing me this opportunity to speak out on 
behalf of Min Min Lama, the women of Nepal, the 78,000 women 
who die from unsafe abortions every year, and the countless 
women around the world who lack access to desperately needed 
reproductive health care services. I urge you to do whatever 
you can to make sure this destructive policy does not continue 
to harm the women of Nepal and other women around the world. 
Thank you.
    [The prepared statement of Dr. Bista follows:]

               Prepared Statement of Dr. Nirmal K. Bista

    Senator Boxer and distinguished members of the Senate Foreign 
Relations Committee, it is a great honor and privilege to speak before 
you this morning about the impact the Bush Administration's ``global 
gag rule'' is having on the women of my country, Nepal. I'd like to ask 
to have my extended remarks entered for the record.
    I am the Director General of the Family Planning Association of 
Nepal (FPAN), the oldest and the largest reproductive health and family 
planning non-governmental organization (NGO) in Nepal. FPAN provides 
comprehensive reproductive health care services, education and 
counseling to the needy in 34 districts of Nepal. FPAN is highly 
regarded by donors and the government for its significant contribution 
to the Nepal national family planning program. FPAN's contribution is 
between 25-30 percent of the total national program each year.
    FPAN is an innovative NGO that has been instrumental in introducing 
new reproductive health technology and practices in the country, 
including: DepoProvera, Norplant, Minilaparotomy, the 
institutionalization of static service sites, counseling and improved 
quality of care.
    FPAN is a member of the International Planned Parenthood Federation 
(IPPF) and is known for its strong commitment to protecting the heath 
and rights of women in Nepal.
    For nearly 30 years, FPAN has received generous support from the 
U.S. government to help provide vital reproductive heath care services. 
We are tremendously grateful for this support. We have enjoyed a long 
and productive friendship and working relationship with USAID as we all 
work toward a common cause--to improve the heath and lives of the women 
in my country.
    I am testifying before you today because FPAN has recently made the 
difficult and painful decision to refuse USAID family planning funds 
because of the global gag rule restrictions. This was by no means an 
easy decision. It will lead to the loss of almost $250,000 in U.S. 
funds and it will have a major impact on our ability to continue to 
operate reproductive health clinics in Nepal's three most densely 
populated areas--Kathmandu, Chitwan and Sunsari.
    This may not sound like a lot of money in U.S terms--but in Nepal 
it means we will likely have to close one or all of these clinics, 
discontinuing critical services to thousands of needy women.
    Why did we make this decision? Because, as a health care provider, 
FPAN is part of a growing movement in Nepal--led by our own government 
and overwhelmingly supported by physicians--to begin to address the 
shockingly high maternal mortality rate in Nepal.
    Nepal has one of the highest maternal mortality rates in the world 
and much of it is due to unsafe abortion. Nepal's maternal mortality 
rate is 1,500 deaths per 100,000 live births (compared to 7 in 100,000 
in the United States). Worldwide, the percentage of maternal deaths due 
to unsafe abortion is 13 percent. In Nepal, this figure rises to 50 
percent. As a result of this high maternal mortality rate, Nepal is one 
of the few countries where a woman's life expectancy is lower than that 
of a man.
    It is estimated that six women die every day in Nepal due to unsafe 
abortion performed by unskilled providers. Many, many more women suffer 
serious physical injury and chronic disability. In addition, Nepal has 
one of the most punitive abortion laws in the world. Women are 
imprisoned for having abortions and there is no exception--not even for 
rape, incest or life of the woman.
    The women who suffer the consequences of unsafe abortion--including 
imprisonment--are most likely to be poor rural women who cannot afford 
to pay for a safe abortion, available only to those who can pay to 
travel to India, where abortion is legal, or go to a discreet private 
physician. Safe, hygienic abortion services do exist in some urban 
centers, but are relatively expensive--from $60-$100 for married women, 
and four times that for unmarried--in a country with a per capita 
annual income of only $220. Consequently, the rural and urban poor 
mainly rely on the crude and dangerous methods of traditional birth 
attendants or self-induced abortion.
    Government officials at the Nepalese Ministry of Health have 
themselves concluded that liberalizing abortion should be the first 
step towards preventing the existing high level of maternal mortality 
and morbidity in my country. The Ministry's advocacy plan to 
decriminalize abortion called for the formation of a network of non-
governmental organizations (NGOs) to address the problem.
    In response, the Family Planning Association of Nepal spearheaded 
an advocacy effort joined by a coalition of medical professionals, 
health non-governmental organizations (NGOs), human rights advocates, 
women's groups and journalists to raise awareness and introduce 
legislation on this issue. The campaign favors legalizing abortion 
under certain conditions and improved access to safer services.
    Yet the global gag rule policy would disqualify us from 
participating in this public awareness campaign if we continued to 
receive U.S. family planning assistance. Under the conditions of the 
policy we cannot engage in any advocacy effort to legalize abortion--
even if it is with our non-U.S. money and at the behest of our own 
government.
    This is the challenge: do I listen to my own government that has 
asked FPAN to help save women's lives or do I listen to the U.S. 
government? Were we to accept the restricted U.S. funds, I would be 
prevented from speaking in my own country to my own government about a 
health care crisis I know first hand. But by rejecting U.S. funds, I 
put our clinics--clinics addressing that same health care crisis--in 
very real jeopardy.
    It is an untenable situation. But, we simply could not stand by and 
watch countless women suffer and die without doing everything we could 
to prevent this misery. There is agreement in Nepal that women need 
access to safer abortion services and laws that don't incarcerate women 
for having an abortion. We must work to make that happen.
    On Tuesday I left my home to travel 36 hours to arrive in your 
beautiful city, and I left a very different world behind to get here. 
Where I come from, the per capita annual income is $220, compared to 
over $21,000 in the United States; only 30 percent of women can read, 
they are generally married by the time they turn 18, and few will have 
their childbirths attended by trained health professional.
    It is hard, then, to understand how U.S. lawmakers are so easily 
able to implement such a far-reaching and damaging policy when the 
differences between our countries are so vast and the realities women 
in Nepal face must seem so unimaginable.
    Perhaps the example of one young girl in my country can help 
illustrate the situation in Nepal and explain to you why our advocacy 
efforts are so important to us that we have given up our U.S. funding.
    Four years ago Min Min Lama was living peacefully in her home in 
the mountains of Nepal. Like many other teenage girls of 13 in Nepal, 
Min Min didn't go to school; she stayed at home helping her stepmother 
with household chores.
    But early in 1997 when nobody was at home, a relative raped her.
    Terrified and ashamed, Min Min tried to hide her torment from her 
strict Hindi family. She tried to forget the trauma, but it wasn't long 
before another relative realized she was pregnant.
    Min Min's relatives arranged for an illegal abortion--despite the 
fact that abortion is illegal in Nepal and that the illegal abortion 
could have killed Min Min.
    She survived, but her trauma was only beginning. After the 
abortion, her sister-in-law reported the abortion to the police and Min 
Min was arrested. She was taken to the central jail in Nepal's capital, 
Kathmandu. Her crime? Abortion.
    Min Min's relatives were not punished for the rape or the abortion. 
Instead, at the age of 13, Min Min was sentenced to 20 years in jail.
    Her family abandoned her and the only visitors she had were charity 
workers, one of whom contacted FPAN. FPAN started a campaign to help 
Min Min and to begin to change the laws regarding abortion.
    As a result, Min Min's sentence was reduced to 12 years. But FPAN 
and others kept on fighting for her cause, telling people across the 
world about her plight.
    Finally, on 21 September 1999, Min Min was released after two years 
in prison. She is now working at FPAN and living in Kathmandu.
    Min Min was one of the lucky girls in Nepal and although her ending 
is happy, there are a lot of girls and women with sadder tales to tell. 
One in five women are currently imprisoned in Nepal for the same 
reason.
    Is there any justification for stalling even one more day? How can 
FPAN, which fought so hard for Min Min, turn its back on these other 
women and all of the women who die or are injured daily due to unsafe 
abortion?
    As I have stated, the decision to reject the USAID funding was a 
difficult one and I fear for the future of our clinics. But as you can 
see, ours was an impossible decision. Whatever we decide, the women of 
Nepal suffer.
    And we are by no means the only ones forced to make this decision. 
Our colleagues all over the world face this same agonizing decision.
    I would like to thank the Senate Foreign Relations Committee for 
allowing me this opportunity to speak out on behalf of Min Min Lama, 
the women of Nepal, the 78,000 women who die from unsafe abortion every 
year, and the countless women around the world who lack access to 
desperately needed reproductive health care services. I urge you to do 
whatever you can to make sure this destructive policy does not continue 
to harm the women of Nepal and other women around the world.
    Thank you.

    Senator Boxer. Thank you so much. Senator Chafee, I know 
you need to leave. Do you have any questions for the three 
witnesses that spoke so far?
    Senator Chafee. No, I'm here to listen.
    Senator Boxer. OK. I just wanted to take a few moments, 
because the panel had so much to say, and I want to make sure 
the people listening got the gist of it so after, I guess, Dr. 
Eberstadt said it's political theater, which I respect your 
decision. I disagree with it, but we'll get into that later.
    I want to make sure people understand this. This is a 13-
year-old girl who was raped. According to his article, her 
rapist went unpunished, but she received a 20-year prison 
sentence that was later reduced because of help that was given 
to her.
    So here is a child who was raped. She's sent to jail 
because in your country abortion is illegal, it is a crime, and 
there is no exception for rape; is that correct?
    Dr. Bista. Yes.
    Senator Boxer. There is effectively no exception for 
incest; is that correct?
    Dr. Bista. Yes.
    Senator Boxer. There is no exception for life of the 
mother; is that correct?
    Dr. Bista. Yes.
    Senator Boxer. So you want to argue with your government 
and lobby to change these laws, and, because of the USAID rule 
that you cannot do that, you decided, because of cases like 
this, that, even though it might mean that you have to close 
down your clinic, to turn away the approximately $250,000 of 
funding and not take the funding so that you would be ungagged 
and be able to work to at least get some exceptions to these 
types of abortion rules. Am I summarizing your testimony 
correctly?
    Dr. Bista. Yes, very correctly, Madam Chairman.
    Senator Boxer. I just want to make sure that everyone got 
that point.
    Now it is my pleasure to call on Professor Maria Sophia 
Aguirre, and we welcome you. And we will hear some opposing 
views at this time.
    Dr. Aguirre is an associate professor in the Department of 
Economics and Business at the Catholic University of America 
here in Washington, DC. She is a native of Argentina.
    Please proceed.

  STATEMENT OF DR. MARIA SOPHIA AGUIRRE, ASSOCIATE PROFESSOR, 
 DEPARTMENT OF ECONOMICS AND BUSINESS, CATHOLIC UNIVERSITY OF 
                    AMERICA, WASHINGTON, DC

    Dr. Aguirre. Madam Chairman and members of the committee, I 
am honored to appear before this committee to address the issue 
of the restoration of the Mexico City Policy. It is my hope 
that the information that I will provide in this short 
statement may assist the members of this committee in 
understanding why the challenge that has been posted to the 
referred policy, called Mexico City Policy, has no grounds.
    First let me clarify that I'm not going to use the standard 
numbers that have been quoted without any references. I am just 
going to refer to World Health Organization official documents 
and official statements and statistics.
    Nearly 493,000 women died in 1998 in pregnancy and 
childbirth because of early and frequent childbearing and poor 
access to health care. Most of these maternal deaths occurred 
in developing countries like my own and account for one-third--
not one-fourth, not one-fifth, not 50 percent but one-third, 
according to the WHO numbers--of all death to women of 
childbearing age in these countries. Included in that total are 
estimated 66,000 deaths from unsafe abortions.
    Now, some people have argued that the policy undermines the 
principle of free speech in developing countries, signals a 
reduction in the U.S. commitment to global family planning 
efforts, is likely to increase, rather than decrease the number 
of abortions, especially illegal abortions in poor countries, 
and exclude some of the most competent, international family 
planning services providers. Against these allegations, I would 
like to present the following information.
    First, about 71 percent of the population assistance all 
over the world, as reported by the United Nations, is directed 
toward countries in Asia and the Pacific, 25 percent; Latin 
America, 13 percent; sub-Saharan Africa, 26 percent; Western 
Asia and North Africa, 7 percent. The rest is going to research 
on contraception in Europe. Very few countries where USAID 
provides population assistance permit abortion under 
circumstances broader than those allowed under the Mexico City 
Policy. And just a point of correction, Nepal, in fact, allows 
abortion to save the woman's life.
    Senator Boxer. What about cases of rape and incest?
    Dr. Aguirre. In cases of rape and incest, no, but, yes, to 
save the woman's life.
    Senator Boxer. So in the case of the girl that I----
    Dr. Aguirre. Yes, abortion is not allowed under any 
condition or no circumstances as we've mentioned before.
    Senator Boxer. I agree with you. Is that correct? Dr. 
Bista, do you agree with that correction? We will not take time 
out of your testimony, we just need a clarification.
    Dr. Bista. Actually, no, the people who are affected the 
most in this case are the people from the rural areas where the 
knowledge level is very low and the economic status there is 
also very low, but we all know that the practices----
    Senator Boxer. No, no, I was just asking, is there an 
exception for life and not rape or incest? I just want to get 
it straight.
    Dr. Bista. Yes, there is provision, exception for life, but 
it has to be looked at by a panel of doctors which means it is 
ineffective in rural areas. But in the case of rape and incest 
there is no exception.
    Senator Boxer. I want to make sure the record is correct. 
In your country, is there an exception for life of the mother? 
So there's an exception for life, not health, not rape, not 
incest; is that correct?
    Dr. Bista. That's correct Madam Chair, because anybody, if 
they just report the case to the police they are in trouble.
    Senator Boxer. I understand. In other words, because it is 
a crime in those other cases, it is very difficult to stand 
behind it.
    OK, go ahead, Ms. Aguirre.
    Dr. Aguirre. In addition, abortion is not only illegal in 
these last countries, but also unconstitutional because the 
constitution in many of these countries upholds the protection 
of life since the moment of conception. Therefore the Mexico 
City Policy then is consistent with the desire of most of these 
countries and with the effort that many countries around the 
world are making to decrease the number of abortions. 
Furthermore, it is consistent with the desire of the majority 
of the population of these countries who in recent years have 
overwhelmingly opposed any intent--and I speak especially about 
women in the South American countries, by a minority within 
those countries, to legalize abortion. The Mexico City Policy 
imposes a reasonable restriction because it is a job 
restriction rather than a violation of the freedom of speech, 
and it is respectful of it as it is consistent with the 
decision of the population of these countries to uphold the 
right to life of the unborn child. Beside, the fact that some 
groups in these countries want abortion, it doesn't mean that 
we have some obligation to fund it as the previous 
representation have claimed. Nothing in the MCP forbids these 
groups from advocacy. It simply does not fund them
    In addition to that, we have to keep in mind that article 
8.25 says clearly, and I am quoting, ``In no case should 
abortion be promoted as a method of family planning.'' So when 
we talk about family planning, keep that in mind.
    The second point is regarding the concern that this might 
signal a decrease in the U.S. commitment to global family 
planning efforts. I would like to point out that while the 
overall funding of USAID to family planning increased steadily 
between 1987 to 1995--and during that time, the Mexico City 
Policy was interrupted--the funding allocated to this activity 
started to decline from 1996 to 2000, before the Mexico City 
Policy was re-enacted. Reasons, other than this policy should 
explain the decline in funding then. Spending goes up when 
there is a broader consensus and where population assistance is 
funding abortionist there is no consensus.
    It is to be borne in mind, however, and it's something that 
again it has been mentioned in the different testimonies, that 
the United States remains the principal contributor to 
population assistance by a significant amount. And for that 
information. We are saying that over 60 percent of the world 
total funding for population assistance and family planning as 
reported by the U.N. comes from the United States. It needs to 
be borne in mind, therefore, that the United States remains a 
big contributor and that the total funds toward population 
assistance, again as it is reported by the United Nations, has 
not decreased but rather has been channeled through other 
avenues such as NGOs.
    The third point is that the legalization of abortion across 
the world, rather than decreasing, has increased the number of 
abortions and this has happened in spite of a significant 
increase in the use of contraceptives, developing countries 
included. And this again is data. I understand this has been 
mentioned several times, but the data is on the contrary.
    According to a 1997 study of the World Health Organization, 
mortality risk for abortion varies in developing countries 
between 100 and 1,000 deaths per 100,000 cases while in the 
United States the same measure is 50. There are other equally 
high serious causes of death for women, however, such as 
delivery of a live birth. We are talking in all between 250 and 
800 deaths per 100,000 cases. That's very close to legal 
abortions if you look at the numbers, and that can be easily 
solved by the presence of a delivery kit, which costs $1.50, 
and skilled personnel.
    Let's keep in mind that this last case is considered legal 
in those countries. To this must be added that in the history 
of the organizations that participated in USAID-supported 
family planning activities, that is over 450 foreign NGOs--and 
I believe this morning it was said, in fact, 63 or something 
along those lines of these 450 organizations--few organizations 
have a history of lobbying for change in the legal status of 
abortion. Therefore, the restoration of the Mexico City Policy 
neither increases the number of abortions nor decreases 
significantly the number of qualified family planning providers 
as it has been stated.
    And the last point. Finally, I would like to bring to the 
attention of the committee the leading causes of death for 
women, because obviously this is the concern. In developing 
countries as reported in the 1999 World Health Report published 
by the World Health Organization. In the table \1\ that I 
provided, it is very clear the leading causes of death are 
infectious disease, which involves 4,649,000 women; not 66,000, 
4,649,000 who died because of these causes. Respiratory 
infections, 1,726,000, and that could be solved by 5 cents a 
pill per capita cost as again reported by the World Health 
Organization; perinatal conditions, 1,034,000 are killed every 
year; and----
---------------------------------------------------------------------------
    \1\ The table referred to is in Dr. Aguirre's prepared statement 
that begins on page 45.
---------------------------------------------------------------------------
    Senator Boxer. Please conclude now----
    Dr. Aguirre. I'm sorry.
    And again, the major causes in illegal abortion is 
hemorrhage and other diseases, again, that can be solved if 
they are going to have the right means; and finally, nutrition 
deficiencies, 210,000. So all these diseases are easily 
treatable and are the leading causes of death for women.
    With the exception of AIDS, these diseases are rare. 
Treatment is accessible in developed countries. And their cost 
is remarkably low. Furthermore, all the diseases mentioned are 
significantly larger than the----
    Senator Boxer. I must ask you to just finish because I gave 
you an additional two minutes and then an additional two to 
complete.
    Dr. Aguirre. OK, I just will conclude saying that several 
arguments have been put forward against the restoration of the 
Mexico City Policy. The data presented to the committee in this 
short response suggests that this is evidence to the contrary. 
If anything, the enactment of this policy increases the 
protection of freedom of choice of developing countries and 
allows for a more needed and efficient allocation of funds.
    Madam Chairman, this concludes my statement.
    [The prepared statement of Dr. Aguirre follows:]

             Prepared Statement of Dr. Maria Sophia Aguirre

                 the restoration of mexico city policy
    Mr. Chairman and Members of the Committee:
    My name is Maria Sophia Aguirre and I am a professor of Economics 
at the Catholic University of America. I am honored to appear before 
this Committee to address the issue of the restoration of the Mexico 
City Policy. It is my hope that the information that I will provide in 
this short statement may assist the members of this Committee in 
understanding why the challenge that has been posted to the referred 
policy has no grounds.
    Nearly 493,000 women died in 1998 in pregnancy and childbirth 
because of early and frequent childbearing and poor access to health 
care. Most of these maternal deaths occurred in developing countries 
and account for one third of all death to women of childbearing age in 
these countries. Included in that toll, are estimated 66,000 deaths 
from unsafe abortion. (Source: WHO)
    Some people have argued that the policy undermines the principle of 
free speech in developing nations, signals a reduction in the U.S. 
commitment to global family planning efforts, is likely to increase, 
rather than decrease the number of abortions, especially illegal 
abortions in poor countries, and exclude some of the most competent 
international family planning services providers. Against these 
allegations, I would like to present the following information:

          1. About 71% of the population assistance all over the world, 
        as reported by the UN, is directed towards countries in Asia 
        and the Pacific (25%), Latin America (13%), sub-Saharan Africa 
        (26%), Western Asia and North Africa (7%). (Figure 1) Very few 
        countries where USAID provides population assistance permit 
        abortion under circumstances broader than those allowed under 
        the Mexico City Policy. In addition, abortion is not only 
        illegal in these last countries, but also unconstitutional 
        because the constitution in many of these countries upholds the 
        protection of life since the moment of conception. The Mexico 
        City Policy then is consistent with the desire of most of these 
        countries and with the effort that many countries around the 
        world are making to decrease the number of abortions. 
        Furthermore, it is consistent with the desire of the majority 
        of the population of these countries who in recent years have 
        overwhelmingly opposed any intent, by a minority within those 
        countries, of legalizing abortion. The Mexico City Policy 
        imposes a resonable restriction because it is a job restriction 
        and it is respectful of it as it is consistent with the 
        decision of the population of these countries to uphold the 
        right to life of the unborn child. It is also respectful of the 
        sovereign right of countries to uphold their constitution and 
        domestic laws. Furthermore, the fact that some organizations 
        want to advocate abortion and to perform abortions does not 
        mean that U.S. tax money should pay for it. Nothing in the 
        Mexico City Policy forbids those groups from advocacy. It 
        simply denies the use of funds for this purpose. Let us keep in 
        mind, that point 8.25 of ICPD states clearly that ``in no case 
        should abortion be promoted as a method of family planning.''
          2. To the concern that this might signal a decrease in the 
        U.S. Commitment to global family planning efforts, I would like 
        to point out that while the overall funding of USAID to family 
        planning increased steadily between 1987-1995, the funding 
        allocated to this activity started to decline from 1996-2000, 
        before the Mexico City Policy was reenacted. Reasons, other 
        than this policy should explain the decline in funding. (Figure 
        2) Population spending goes up when there is a broader 
        consensus and when population assistance is funding 
        abortionist, there is no consensus. It needs to be remembered, 
        however, that the U.S. remains the principal contributor to 
        population assistance by a significant amount (of the order of 
        60%) (Figure 3) and that the total funds toward population 
        assistance as the UN reports it has not decreased but rather 
        has been channeled through other avenues such as NGOs (Figure 
        4).

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          3. The legalization of abortion across the world, rather than 
        decreasing has increased the number of abortions and this has 
        happened in spite of a significant increase in the use of 
        contraceptives, developing countries included. According to a 
        1997 study of the World Health Organization (WHO),\1\ mortality 
        risk for abortion varies in developing countries between 100-
        1,000 deaths per 100,000 cases while in the United States, the 
        same measure is 50. There are other equally high serious causes 
        of death for women, however, such as delivery of live birth 
        (250-800 deaths per 100,000 cases) which can be easily solve by 
        the presence of a delivery kit (which by the way costs a $1.50) 
        and skilled personnel. Lets keep in mind that this last case is 
        consider legal. To this must be added that in the history of 
        the organizations that participate in USAID-supported family 
        planning activities (over 450 foreign NGOs), few organizations 
        have a history of lobbying for change in the legal status of 
        abortion. Therefore, the restoration of the Mexico City Policy 
        neither increases the number of abortions, nor the number of 
        qualified family planning providers as it has been stated.
---------------------------------------------------------------------------
    \1\ Unsafe abortion: Global and Regional Estimates of Incidence of 
a Mortality Due to Unsafe Abortion With a Listing of Available Country 
Data--Third edition, 1997--Ref. WHO/RHT/MSM/97.16.
---------------------------------------------------------------------------
          4. Finally, I would like to bring to the attention of the 
        Committee the leading causes of death for women in developing 
        countries as reported in the ``1999 World Health Report'' 
        published by WHO. Table 1 summarizes this information. The 
        leading cause of death for women among the communicable 
        diseases maternal and perinatal conditions, and nutrition 
        deficiencies, is infectious diseases. With the exception of 
        AIDS, these diseases are rare, treatment is accessible in 
        developed countries, and their cost is remarkably low. 
        Furthermore, all the diseases mentioned are significantly 
        larger than the toll caused by abortion, even when the maternal 
        condition, as the cause of death, is taking into account alone. 
        This suggests that the funding provided by USAID can be put to 
        better use if this organization is aiming at helping the health 
        of women in need. Hemorrhages and other diseases cause twice as 
        many deaths as the estimates for abortion predict.

    To conclude, there have been several arguments put forward against 
the restoration of the Mexico City Policy. The data presented to the 
Committee in this short response, suggest that there is evidence on the 
contrary. If anything, the enactment of this policy increases the 
protection of freedom of choice of developing countries and allows for 
a more needed and efficient allocation of funds.
    Mr. Chairman, this concludes my statement. I would be glad to 
respond to any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Boxer. Thank you. I'm sure that you didn't mean to 
say that the 78,000 women a year who die of illegal abortion 
that you're pitting that against infectious diseases. I mean, I 
think we want to help everyone, don't we?
    Dr. Aguirre. That is a rough estimation, 66,000 women.
    Senator Boxer. Well, we have 78,000, but let's not quibble. 
The point is I hope you didn't mean to suggest that we ignore 
that and go after the other problems, because, in my view, I 
want to go after all the problems. I want to help those who are 
dying of back-alley abortions, that can't go to a clinic now 
and get family planning, and I want to help, of course, the 
children and the families, men and women, who have these other 
problems. Child nutrition is a major issue with me as well. I 
don't think that's what you meant. You were just saying illegal 
abortion isn't the biggest problem. Is that correct?
    Dr. Aguirre. That's right.
    Senator Boxer. It just is for the 78,000 women who die and 
their loved ones, but I get your point. I don't mean to in any 
way undermine you except to say that I don't like to see us set 
one group of dying people against another group of dying 
people.
    I would like to now call on Professor Pellegrom, president 
of Pathfinder International. Pathfinder International is a 
nonprofit organization based in Massachusetts which, among 
other things, works to improve reproductive health and family 
planning in the developing world. We welcome you.

  STATEMENT OF DR. DANIEL E. PELLEGROM, PRESIDENT, PATHFINDER 
                  INTERNATIONAL, WATERTOWN, MA

    Dr. Pellegrom. Thank you, Senator, and your colleagues who 
are concerned for this issue, and thank you for receiving my 
remarks.
    The gag rule is an unfortunate injection of the American 
domestic anti-abortion agenda on U.S. foreign policy. This year 
the current administration has reinstated the gag rule. Its 
supporters argue that it will stop abortion. But what really 
happens when we explore this domestic controversy abroad is 
something quite different.
    It will not reduce abortion, but it does hurt family 
planning. It does damage female reproductive services. And it 
undermines American foreign policy objectives that promote 
democracy and free speech.
    I have led Pathfinder International since 1985 just after 
President Reagan's original version of the gag rule was 
imposed. Pathfinder was the first organization to negotiate a 
cooperative agreement with USAID after the so-called Mexico 
City Policy was placed into all USAID cooperative agreements 
and grants. The gag rule was ineffective in doing what its 
proponents sought.
    Over the ensuing years in which it was in place, I observed 
no decline in abortion rates. I am not aware of any research 
that points to a decline in abortion rates, and I know of no 
one who attributes any decline to the American gag rule of the 
1980's.
    If this is the case, if it did not reduce abortion rates, 
why exactly has the administration revived it? The gag rule has 
had serious consequences on delivering family services in less-
developed countries. Indeed, if a hospital or clinic which 
operates in a country where abortion is legal offers a full 
range of reproductive health services in accord with U.S. laws 
and medical practices, how does the gag rule affect that 
provider of patient care if that provider offers abortion 
services or even abortion counseling? It is subject to the gag 
rule, and consequently termination of financial support for 
contraceptive services.
    This is the penalty that the U.S. imposes. The loss of 
contraceptive funds is inclined to increase unintended 
pregnancies which logically will result in increasing reliance 
on abortion as well as increasing maternal deaths.
    You are hearing today from two reproductive health care 
leaders. Each represents an excellent family planning provider, 
one from Nepal and one from Peru. Both organizations have been 
faced with difficult decisions. Each has come to a different 
conclusion. These organizations and countless similar ones have 
been put in jeopardy, trapped between reliance on American 
foreign assistance and their own nation's laws and medical 
practices. Their stories are among countless others, each 
unique to circumstance and culture and situation. All are 
result of the gag rule.
    As you will see, whichever choice is made, there is harm. 
The harm is to organizations and finally to the patients the 
organizations serve. Usually the patients are women. Mostly 
they are poor, young and anything but independent. They are 
people who rely on our good will.
    Let me share with you some late-breaking news from 
Bangladesh. Within the last few days I have received a letter 
from Bangladesh Rural Advancement Committee [BRAC], a large, 
multi-service non-government organization that provides a 
variety of family planning services to millions of families in 
one of the world's most impoverished nations. We have worked 
with BRAC for several years. For various reasons, it is an 
exceptional agency, but it is only one of hundreds that is 
being forced to make a damaging decision which has been imposed 
by the new United States gag rule.
    In Bangladesh menstrual regulation [MR], is legal. In the 
United States, we typically refer to menstrual regulation as 
very early abortion. MR is often performed prior to pregnancy 
being established. In Bangladesh, MR is promoted by the 
government as an essential element of the national health care 
package.
    BRAC is not an NGO that is trying to skirt local laws or 
customs. It is a responsible, even exceptional provider of 
health and human development services that has been put in a 
position to choose between obeying its own government or ours. 
That is not a fair choice to ask that NGO to make.
    It is not as though BRAC is out of step with the Government 
of Bangladesh on this; quite the contrary. U.S. policy in this 
instance is hurting BRAC, but it is also adversarial to the 
Government of Bangladesh and to its people.
    And who exactly benefits from withdrawing U.S. funds that 
were being used for the purpose of preventing pregnancy? It 
certainly does not appear that Bangladesh, the people of 
Bangladesh are going to benefit. BRAC certainly isn't.
    BRAC has informed me that it will not sign the gag rule. It 
says that it cannot permit a foreign government to dictate how 
it uses non-USAID funding. They have never used USAID funding 
for these purposes of course; therefore, beginning October 1, 
they will not be eligible to receive U.S. support.
    Proponents of the gag rule claim that it is not an assault 
on family planning. You will recall that I told you that BRAC 
is a broad-based provider of human services, and hence it 
continues to receive other support from USAID for other 
services and initiatives. BRAC's refusal to sign does not 
deprive it of all USAID funds, but its refusal to sign the gag 
rule does deprive it of family planning funds. How am I to 
conclude that the gag rule is anything other than hostile to 
family planning?
    U.S. foreign assistance funds have been given to people and 
organizations all over the globe for purposes of fostering 
democracy. Our leaders boast that America invests in civil 
society, builds democracy in nation after nation. Developing 
voices for democracy in nations where democratic ideals are 
only a concept is a high priority, one that the American 
taxpayers appear to support. Free expression, free speech is a 
requirement of a democratic society. How can we, indeed how 
dare we, spend Federal money teaching democratic aspirations on 
the one hand and then deny free speech on the other just 
because a particular subject happens at that moment to 
displease us.
    In this particular instance, the irony expands when one 
considers that abortion counseling and referral brings about a 
gag rule abroad while access to abortion services are 
guaranteed in the United States.
    What does all this mean to my organization, a U.S.-
incorporated NGO that does reproductive health work abroad? 
Pathfinder International has labored in the cause of 
reproductive health for more than 70 years if you reach back to 
its founder, and 45 years if you go back to the date of its 
incorporation. We have provided seed money that launched the 
initial family planning activity in over 30 countries. In all 
these years, first with private funds and since the late 1960's 
with public funds as well, we all have taken pride in our work, 
work that depends centrally and necessarily on with whom we 
partner in developing countries.
    Our criteria for selecting partners reads like a good 
management diary, but now, with the gag rule in place, the 
overriding question for us for how we spend U.S. Government 
funds is, first and foremost, ``How against abortion is this 
organization?'' This is the question, in spite of the fact that 
the money we are discussing could never have been used for 
abortion in the first place. How are we to conclude that this 
is not an assault on family planning?
    Between now and October 1, Pathfinder will scramble to find 
some other way to get family planning assistance to women in 
Bangladesh. We will attempt to patch together other providers, 
calling upon them to consider whether they are willing to 
accept the American Government's gag rule. We will attempt to 
do this as best we can in other countries as well, but there 
will be added costs, reduced efficiencies and diminished 
respect for American foreign assistance. Meanwhile, we will do 
everything in our power to get family planning services to 
women who will never know anything about today's proceedings.
    [The prepared statement of Dr. Pellegrom follows:]

             Prepared Statement of Dr. Daniel E. Pellegrom

    I would like to begin, Senator Boxer, by thanking you and your 
Senate colleagues for this opportunity to offer testimony on this vital 
subject.
    The gag rule is an unfortunate political interjection of the 
American domestic anti-abortion agenda on U.S. foreign policy. This 
year, the current Administration has reinstated the gag rule. Its 
supporters argue that it will stop abortion. But what really happens 
when we export this domestic controversy abroad is something quite 
different. It will not reduce abortion. It does hurt family planning, 
it does damage to female reproductive health services, and it 
undermines American foreign policy objectives that promote democracy 
and free speech.
    I have led Pathfinder International since 1985, just after 
President Reagan's original version of the gag rule was imposed (also 
known as the Mexico City Policy). Pathfinder was the first organization 
to negotiate a cooperative agreement with USAID, after the so-called 
Mexico City Policy was placed into all USAID cooperative agreements and 
grants. That gag rule was ineffective in doing what its proponents 
sought. Over the ensuing years in which it was in place I observed no 
decline in abortion rates. I am not aware of ANY such research that 
points to a decline in abortion rates and I know of no one who 
attributes any decline to the American gag rule of the 1980s. If it did 
not reduce abortion rates, why exactly has the Administration revived 
it?
    The gag rule has had serious consequences in delivery of family 
planning services in less developed countries. Indeed, if a hospital or 
clinic, which operates in a country where abortion is legal, offers a 
full range of reproductive health services in accord with its laws and 
medical practices, how does the gag rule affect that provider of 
patient care? If that provider of medicine provides abortion services 
or abortion counseling, it is subject to the ``Gag Rule'' and 
consequently the termination of financial support for contraceptive 
services. Thus, the penalty that the U.S. imposes, the loss of 
contraceptive funds, is inclined to increase unintended pregnancies, 
which logically will result in increasing reliance on abortion as well 
as an increase in maternal deaths.
    In a few minutes you will hear from two reproductive health 
leaders. Each represents an excellent family planning provider, one 
from Nepal, the other from Peru. Both organizations have been faced 
with a difficult decision; each has come to a different conclusion. 
These organizations, and countless similar ones, have been put at 
jeopardy, trapped between reliance on American foreign assistance and 
their own nation's laws and medical practices.
    Their stories are among countless others, each unique to 
circumstances of culture and situation; all are the result of the gag 
rule. As you will see, whichever choice is made there is harm. This 
harm is to organizations and, finally to the patients the organizations 
serve. Usually the patients are women, mostly very poor, young and 
anything but independent. They are people who rely on our good will.
    Let me share with you some late breaking news from Bangladesh. 
Within the last few days I have received a letter from the Bangladesh 
Rural Advancement Committee (BRAC), a large, multi-service non-
Government organization (NGO) that provides a variety of services to 
millions of families in one of the world's most impoverished nations. 
We have worked with BRAC for several years. For various reasons it is 
an exceptional agency, but it is only one of hundreds that is being 
forced to make a damaging decision imposed by the new United States gag 
rule.
    In Bangladesh menstrual regulation (MR) is legal. In the United 
States we typically refer to menstrual regulation as very early 
abortion. MR is often performed prior to pregnancy being established. 
In Bangladesh, it is referred to as MR and it is promoted by the 
Government as an essential element in the national health care package. 
BRAC is not an NGO that is trying to skirt local laws or customs. It is 
a responsible--even exceptional--provider of health and human 
development services that has been put in a position to choose between 
obeying its own government or ours. That is not a fair choice to ask 
any NGO to make.
    It is not as though BRAC is out-of-step with the Government of 
Bangladesh on this. Quite the contrary. U.S. policy, in this instance, 
is hurting BRAC, but it is also adversarial to the Government of 
Bangladesh and its people. And, who, exactly benefits from withdrawing 
U.S. funds that were being used for the purpose of preventing 
pregnancy? It certainly doesn't appear that the women of Bangladesh are 
the beneficiaries. BRAC doesn't benefit.
    BRAC has informed me that it will not sign the gag rule. It says 
that it cannot permit a foreign government to dictate how it uses its 
non-USA funding. Therefore, beginning October 1 they will not be 
eligible to receive USAID family planning funds.
    Proponents of the gag rule claim that this is not an assault on 
family planning. You will recall that I told you that BRAC is a broad-
based provider of human services and hence it continues to receive 
other support from USAID for other services and initiatives. BRAC's 
refusal to sign does not deprive it of all USAID funds; but its refusal 
to sign the gag rule does deprive it of family planning funds. How am I 
to conclude that the gag rule is other than hostile to family planning?
    Foreign Assistance funds have been given to people and 
organizations all over the Globe to foster democracy. Our leaders boast 
that America invests in civil society and builds democracy in nation 
after nation. Developing voices for democracy in nations where 
democratic ideals are only a concept is a high priority, one that 
American taxpayers appear to support.
    Free expression--free speech--is a requirement of a democratic 
society. How can we--indeed, how dare we--spend Federal money teaching 
democratic aspirations, on the one hand, and then deny free speech, on 
the other, when the subject happens to displease us?
    In this particular instance the irony expands when one considers 
that abortion counseling and referral brings about a gag rule abroad, 
while access to abortion services is guaranteed in the United States.
    What does all this mean for my organization, an U.S. incorporated 
NGO that does reproductive health work abroad? Pathfinder International 
has labored in the cause of reproductive health for more than seventy 
years, if you reach back to our founder and for 45 years if you go back 
to the date of our incorporation.
    We have provided the seed money that launched the very first family 
planning work ever undertaken in 30 different countries. In all these 
years, first with private funds, and, since the late 1960's, with 
public funds as well, we have taken pride in our work, work that 
depends centrally on with whom we partner in a developing country. Our 
criteria for selecting partners reads like a good management diary. 
These are some of the questions:

  <bullet> What is the most cost effect organization?

  <bullet> Which organization is managed well?

  <bullet> Which organization provides the highest quality of care?

  <bullet> Which organization has the best capacity to expand in order 
        to reach the poorest of the poor?

  <bullet> Which organization is the most sincerely committed to 
        improve the conditions of its people?

    With the gag rule in place, the over-riding question for how we 
spend U.S. government funds must be first and foremost:

          Is the organization anti-abortion enough?

    This is the question in spite of the fact that the money we are 
discussing could never be used for abortion in the first place. How are 
we to conclude that this is not an attack on family planning?
    Between now and October 1, Pathfinder will scramble to find some 
other way to get family planning assistance to three million mothers in 
Bangladesh. We will attempt to patch together other providers, calling 
upon them to consider whether they are willing to accept the American 
Government's gag rule. We will attempt to do this as best we can in 
other countries, as well. But there will be added costs, reduced 
efficiencies, and diminished respect for American foreign assistance.
    Meanwhile, we will do everything in our power to get family 
planning services to women who will never know anything about today's 
proceeding. Family planning will save the lives of some of these 
women--and it will enrich the lives of all of them.

    Pathfinder International, a nonprofit organization headquartered in 
Watertown, Massachusetts, provides women, men, and adolescents 
throughout the developing world with access to quality family planning 
and reproductive health information and services. Pathfinder works to 
halt the spread of HIV/AIDS, to provide care to women suffering from 
the complications of unsafe abortion, to address the sexual health 
needs of adolescents, and to advocate for sound reproductive health 
policies in the U.S. and abroad.

    Senator Boxer. Thank you very much. And I think that's a 
good point.
    I'm going to call on Kathy Cleaver and tell you about her 
in a moment, but I want to place in the record a page out of 
this booklet which talks about a study. It's a study on the 
implications of restrictive abortion laws in Nepal, and it says 
that, in fact, the only exception in Nepal is ``unintentional 
termination while undergoing medical treatment.'' It does not 
say there is an exception for life. So I am going to put this 
in the record and ask you if you have other documentation, so 
we don't leave this hearing--we now have two different views. 
We have the view that the only exception is unintentional 
termination while undergoing medical treatment and the 
professor here who says there is an exception for life. So we 
will put both sides into the record.
    [The material referred to follows:]

                             [Crehpa 2000]

                 Women in Prison in Nepal for Abortion

    A study on implications of restrictive abortion law on women's 
social status and health.

1.1. Background

    Around the world, laws governing induced abortion range from those 
prohibiting abortion with no explicit exceptions to those establishing 
it as a right of pregnant women. Nepal is one of the few countries 
where abortion is legally restricted. In this country, induced abortion 
is a criminal act under any circumstances, even in case of rape or 
incest, punishable by imprisonment for both the woman undergoing an 
abortion and abortion service provider. The only exception is 
unintentional termination while undergoing medical treatment.
    Despite the restrictive abortion law, every year thousands of 
induced abortions are performed clandestinely in the country. Most of 
these abortions are conducted by untrained or unqualified personnel or 
quacks, which adversely affect both the interests of the women and the 
society at large. Since most clandestine procedures either remain 
incomplete or they are associated with severe complications, these 
women have no choice but to visit hospitals in critical conditions, 
thereby severely straining the finite hospital resources of the 
country.
    It is estimated that deaths due to unsafe abortion procedures 
account for more than half of the maternal deaths in the country. 
Because of the illegal status of abortion, a considerable proportion of 
Nepalese women especially from rural areas who are poor, illiterate and 
have low social status, frequently fall victim to exploitation and 
imprisoned on charges of abortion and infanticides. As the present law 
does not clearly differentiate between Garbhapaat (abortion) and Jaatak 
(infanticide), prosecutors tend to choose the latter and rarely, women 
accused of such acts are represented by a lawyer. Although in all 
circumstances abortions are motivated and carried out with the 
assistance of spouse or male partner, in most cases it is the women and 
not their spouse or male partner, . . .

    Senator Boxer. I want to thank you and I will get back to 
you in a minute with some questions, Dr. Pellegrom.
    So we're going to hear from Ms. Kathy Cleaver, director of 
Planning and Information for the U.S. Conference of Catholic 
Bishops here in Washington, DC. And we welcome you.

     STATEMENT OF KATHY CLEAVER, DIRECTOR OF PLANNING AND 
 INFORMATION FOR THE SECRETARIAT FOR PRO-LIFE ACTIVITIES, U.S. 
         CONFERENCE OF CATHOLIC BISHOPS, WASHINGTON, DC

    Ms. Cleaver. Thank you very much, Senator Boxer. I am very 
grateful for the opportunity to present testimony today on the 
importance of the Mexico City Policy.
    As director of Planning and Information for the Secretariat 
for Pro-Life Activities of the United States Conference of 
Catholic Bishops, I have the privilege of playing a role in the 
Church's mission to teach and deepen respect for all human 
life, especially the most vulnerable members of the human 
family, the poor, the unborn, the disabled, and the dying.
    The Mexico City Policy is the most significant policy 
initiative on abortion taken by the United States in the area 
of foreign assistance in the last 20 years. To state it 
clearly, the Mexico City Policy simply requires non-
governmental organizations receiving U.S. aid to refrain from 
performing or promoting abortion as a method of family planning 
in developing nations. And we, of course, commend President 
Bush for reinstating this very important policy.
    The argument has been made by abortion proponents that the 
Mexico City Policy is nothing more than powerful U.S. 
politicians forcing their policies on poor nations. But, 
frankly, quite the opposite is true. First, the policy forces 
nothing and in that sense could be viewed as pro-choice. The 
non-governmental organizations may choose to apply for U.S. tax 
funds, and to be eligible, they must refrain from abortion 
activity. On the other hand, NGOs may choose to do abortions or 
to lobby foreign nations to change their laws which restrict 
abortion, and, if they choose that path, they render themselves 
ineligible for U.S. money. As we saw last time the policy was 
in place, only two out of hundreds of organizations elected to 
forfeit the U.S. money for which they were otherwise eligible. 
But it was and will be entirely their choice. Far from forcing 
a policy on poor nations, the Mexico City Policy ensures that 
NGOs will not themselves force their abortion ideology on 
countries without permissive abortion laws in the name of the 
United States as U.S. grantees.
    And as we have learned from our experience in international 
conferences on population, it is not the Mexico City Policy but 
the United States' promotion of permissive abortion attitudes 
through funding of such programs that is likely to cause 
resentment in these countries. This is especially true when it 
is perceived as a means by which the West is attempting to 
impose population control policies on developing nations as 
conditions for development assistance.
    The Mexico City Policy is needed because the agenda of many 
organizations receiving U.S. population aid has been to promote 
abortion as an integral part of family planning. That's no 
secret. And they do this even in developing nations where 
abortion is against the law. So, far from being perceived as an 
imposition on developing nations, the Mexico City Policy 
against funding abortion programs has been greeted by those 
nations as a welcome reform. The vast majority of these 
countries have legal policies against abortion, and virtually 
all forbid the use of abortion as merely another method of 
birth control.
    Moreover, the Mexico City Policy is remarkably mainstream. 
The vast majority of Americans do not want their tax dollars 
used for programs that promote or provide abortion as a method 
of family planning. The Mexico City Policy simply brings 
American foreign policy back in line with the views of the 
American people.
    Finally, some opponents of the Mexico City Policy are fond 
of using the slogan, global gag rule, to refer to the policy, 
and that is a smart public relations move. But it does not 
reflect reality. The truth of the matter is poor women in 
developing nations are not calling for help to abort their 
children. They are calling for food, housing, and medicine for 
themselves and their children so that they can lead lives of 
full human dignity. With the Mexico City Policy in place, the 
United States can best respond to their pleas, and respond with 
respect for their personal dignity and their humanity. Thank 
you very much.
    [The prepared statement of Ms. Cleaver follows:]

            Prepared Statement of Cathleen A. Cleaver, Esq.

    Chairman Boxer, Members of the Committee, I am grateful for the 
opportunity to present testimony today on the importance of the Mexico 
City Policy.
    As Director of Planning and Information for the Secretariat for 
Pro-Life Activities of the United States Conference of Catholic 
Bishops, I have the privilege of playing a role in the Church's mission 
to teach and deepen respect for all human life, especially the most 
vulnerable members of the human family--the poor, the unborn, the 
disabled, and the dying.
    The ``Mexico City Policy'' is the most significant policy 
initiative on abortion taken by the United States in the area of 
foreign assistance in the last twenty years. To state it clearly: the 
Mexico City Policy simply requires non-governmental organizations 
receiving U.S. aid to refrain from performing or promoting abortion as 
a method of family planning in developing nations.
    We commend President Bush for reinstating this important policy.
    The argument has been made by abortion proponents that the Mexico 
City Policy is nothing more than ``powerful'' U.S. politicians forcing 
their policies on poor nations. But, frankly, the opposite is true. 
First, the policy forces nothing: Non-governmental organizations (NGOs) 
may choose to apply for U.S. tax funds, and to be eligible, they must 
refrain from abortion activity. On the other hand, NGOs may choose to 
do abortions or to lobby foreign nations to change their laws which 
restrict abortion, and if they choose that path they render themselves 
ineligible for U.S. money. As we saw last time the policy was in place, 
only two out of hundreds of organizations elected to forfeit the U.S. 
money for which they were otherwise eligible.\1\ But it was and will be 
entirely their choice.
---------------------------------------------------------------------------
    \1\ The London-based International Planned Parenthood Federation 
(IPPF) received approximately $17 million from the U.S. Agency for 
International Development (U.S. AID) in 1984 but forfeited all its 
federal funding under the Mexico City Policy. Approximately 57 IPPF 
affiliates worldwide agreed to the Policy and continued to receive U.S. 
funds. Planned Parenthood Federation of America also refused to agree 
to the limitations resulting in the cessation of its grant of 
approximately $18 million in 1990. According to U.S. AID congressional 
testimony, approximately 400 NGOs were receiving funds under the Mexico 
City Policy terms in 1991. Congressional Record, June 12, 1991, H4336-
4338. U.S. AID testified that, under the Mexico City Policy, the United 
States provided ``about 45 percent of all international family planning 
assistance in more than 100 countries . . . 85 of those countries were 
developing countries.'' Congressional Record, June 12, 1991, H4338.
---------------------------------------------------------------------------
    Far from forcing a policy on poor nations, the Mexico City Policy 
ensures that NGOs will not themselves force their abortion ideology on 
countries without permissive abortion laws in the name of the United 
States as U.S. grantees.
    And as we have learned from our experience in international 
conferences on population, it is not the Mexico City Policy but the 
United States' promotion of permissive abortion attitudes through 
funding of such programs that is likely to cause resentment.\2\ This is 
especially true when it is perceived as a means by which the West is 
attempting to impose population control policies on developing nations 
as conditions for development assistance.
---------------------------------------------------------------------------
    \2\ In 1985, the U.S. Agency for International Development told 
Congress:
---------------------------------------------------------------------------
        Abortion is a controversial issue in many countries, 
      especially those with large Catholic or Moslem populations. 
      The U.S. has been criticized in developing countries for 
      its funding of groups (such as IPPF and some of its 
      affiliates) which perform abortions with their own funds . 
      . . The Administration believes that it is important to 
      avoid the damage to U.S. interests which results from the 
      belief it supports abortion.
    The Program of Action of the 1994 United Nations International 
Conference on Population and Development held in Cairo reaffirmed the 
position first adopted by United Nations delegates at the 1984 Mexico 
City population conference: ``In no case should abortion be promoted as 
a method of family planning.''
    The Mexico City Policy is needed because the agenda of many 
organizations receiving U.S. population aid has been to promote 
abortion as an integral part of family planning--even in developing 
nations where abortion is against the law.\3\ So, far from being 
perceived as an imposition on developing nations, the Mexico City 
Policy against funding abortion programs has been greeted by those 
nations as a welcome reform. The vast majority of these countries have 
legal policies against abortion, and virtually all forbid the use of 
abortion as merely another method of birth control.\4\
---------------------------------------------------------------------------
    \3\ Perhaps one of the most striking examples of this was seen in a 
1983 resolution signed by then-PPFA President Faye Wattleton:
---------------------------------------------------------------------------
        Family Planning Associations and other non-governmental 
      organizations should not use the absence of a law or the 
      existence of an unfavorable law as an excuse for inaction; 
      action outside the law, and even in violation of it is part 
      of the process of stimulating change.
---------------------------------------------------------------------------
    \4\ In 1984 the laws of only 5 of 126 less developed nations 
permitted abortion upon request, and only 8 permitted abortion for 
socio-economic reasons. Concise Report on the World Population 
Situation in 1983, Department of International Economic and Social 
Affairs, United Nations (Population Studies No. 85) (New York 1984). In 
1994 the United Nations reported that abortion upon request and 
abortion for socio-economic reasons was legal in only 12 of 133 
developing nations. Today, approximately half of the developing nations 
allow abortion only to protect the mother's life or in cases where the 
pregnancy resulted from rape or incest. Virtually all prohibit the use 
of abortion as a method of birth control. (A. Rahman, L. Katzive and S. 
Henshaw, ``A Global Review of Laws on Induced Abortion, 1985-1997,'' 
International Family Planning Perspectives, vol. 24 no. 2, June 1998).
---------------------------------------------------------------------------
    Moreover, the Mexico City Policy is remarkably ``mainstream.'' The 
vast majority of Americans do not want their tax dollars used for 
programs that promote or provide abortion as a method of family 
planning. The Mexico City Policy simply brings American foreign aid 
policy back in line with the views of the American people.
    Finally, some opponents of the Mexico City Policy are fond of using 
the slogan ``Global Gag Rule'' to refer to the policy, and that is a 
smart public relations move. But it doesn't reflect reality. The truth 
of the matter is: Poor women in developing nations are not calling for 
help to abort their children. They are calling for food, housing, and 
medicine for themselves and their children so that they can lead lives 
of full human dignity. With the Mexico City Policy in place the United 
States can best respond to their pleas, and respond with respect for 
their personal dignity and their humanity.
    Thank you.

    Senator Boxer. Thank you. I guess we have a different view 
of when a woman is treated with dignity, and we will bring that 
out.
    I do want to correct the record because you are about the 
third witness who has made the statement that this was done so 
that U.S. tax dollars wouldn't be used for abortion, and I'm 
going to put in the record at this time the section of the law 
that was actually written by our ranking member in the full 
committee, Senator Helms in 1973, which has prohibited since 
1973 the spending of U.S. dollars on abortions, and I just want 
to make sure that that appears in the record.
    [The information referred to follows:]

SEC. 2151b. POPULATION PLANNING AND HEALTH PROGRAMS

    (a)  *  *  *

  *          *          *          *          *          *          *

    (f) Prohibition on Use of Funds for Performance or Research 
Respecting Abortions or Involuntary Sterilization.--
          (1) None of the funds made available to carry out subchapter 
        I of this chapter may be used to pay for the performance of 
        abortions as a method of family planning or to motivate or 
        coerce any person to practice abortions.
          (2) None of the funds made available to carry out subchapter 
        I of this chapter may be used to pay for the performance of 
        involuntary sterilizations as a method of family planning or to 
        coerce or provide any financial incentive to any person to 
        undergo sterilizations.
          (3) None of the funds made available to carry out subchapter 
        I of this chapter may be used to pay for any biomedical 
        research which relates, in whole or in part, to methods of, or 
        the performance of, abortions or involuntary sterilization as a 
        means of family planning.

  *          *          *          *          *          *          *

    Senator Boxer. Our last and certainly not least panelist we 
want to welcome at this time is Mr. Neier. And he is president 
of the Open Society Institute, which is based in New York. His 
organization promotes the development of open societies around 
the world. Mr. Neier is also a founder of what is today one of 
the most respected organizations, I think, in the world, Human 
Rights Watch. So we're very honored that you're here today and 
please proceed.

 STATEMENT OF ARYEH NEIER, PRESIDENT, OPEN SOCIETY INSTITUTE, 
                          NEW YORK, NY

    Mr. Neier. Thank you very much, Chairman Boxer. I have 
spent the past four decades promoting rights first as director 
of the American Civil Liberties Union dealing with domestic 
rights in the United States, then as the founding director of 
Human Rights Watch, and in my present capacity as president of 
the Open Society Institute. The network of Soros foundations of 
which I am also the president is perhaps the leading supporter 
of human rights work worldwide.
    I want to focus on the significance of the global gag rule, 
and I think the name is an appropriate one, for human rights. 
In particular, I want to focus on the way in which promoting 
abortion is defined in the global gag rule. One of the 
provisions says that conducting a public information campaign 
in USAID-recipient countries regarding the benefits and/or the 
availability of abortion as a method of family planning; that 
is, if you conduct a campaign on benefits or availability, you 
cannot receive U.S. funding.
    That seems to me a very serious interference with the free 
speech rights of the non-government organizations that are the 
recipients of U.S. funding. As has been pointed out, if such a 
prohibition were enacted in the United States, it would violate 
the first amendment. One should also note that subsequent to 
the earlier Mexico City Policy, the United States ratified the 
International Covenant on Civil and Political Rights. That 
ratification means that the covenant is binding on the United 
States. The covenant has a provision dealing with free speech 
that is the counterpart of the first amendment. It provides 
that ``Everyone shall have the right to freedom of expression. 
This right shall include freedom to seek, receive and impart 
information and ideas of all kinds regardless of frontiers, 
either orally, in writing or in print, in the form of art, or 
in any other media of his choice.''
    It does seem to me that a prohibition on a public 
information campaign on availability of abortion flatly 
violates the treaty obligation that the United States undertook 
when it ratified the International Covenant on Civil and 
Political Rights.
    Beyond that, I want to indicate how this also affects the 
free speech rights of Americans. Americans are indirectly or 
perhaps even directly affected in their free speech rights by 
the rule. It has to do with the way the international human 
rights effort takes place.
    American organizations such as the one of which I was the 
founder and director, Human Rights Watch, conduct 
investigations worldwide. The way we conduct investigations, 
except in a handful of the most repressive countries on Earth 
where non-governmental organizations cannot function, is to go 
to counterpart non-government organizations and find out from 
them about human rights abuses in their countries, and then 
conduct investigations of those abuses.
    There is a kind of partnership between U.S.-based human 
rights organizations and non-government organizations in other 
countries. They depend on us for international resonance for 
their findings and for protection in case their governments 
take reprisals against them.
    We depend on them for information and to point us in the 
right direction in examining abuses. That effort essentially is 
blocked in the field of abortion or reproductive rights; that 
is, American organizations cannot gather information on these 
problems if the non-governmental organizations that are active 
in the field of family planning, that are likely to be the 
repositories of information on these issues may not provide 
information to them on the benefits or availability of abortion 
as a method of family planning as specified in the global gag 
rule. It's a restriction on their rights. It's a restriction on 
our rights. If it were applied in any other field of 
international human rights, it would be disastrous for the 
human rights field. It's disastrous in this field.
    Moreover, I point out that the United States is replete 
with laws--the Foreign Assistance Act, the International 
Financial Institutions Act--which make U.S. policy favor the 
activities of non-governmental organizations in providing 
information on rights. Section 502(b) of the Foreign Assistance 
Act, Section 116 of the International Financial Institutions 
Act specify that the availability of information from non-
governmental institutions is one of the ways the United States 
assesses the human rights situation of other countries.
    This global gag rule seems to me to violate our obligations 
under the Covenant on Civil and Political Rights and to 
contradict U.S. legislation dealing with international human 
rights.
    Thank you very much.
    [The prepared statement of Mr. Neier follows:]

                   Prepared Statement of Aryeh Neier


                              INTRODUCTION

    Senator Boxer, Senator Helms, Members of the Committee, good 
morning. Thank you for inviting me here today to testify before the 
Senate Committee on Foreign Relations. I am here to testify in 
opposition to the Administration's policy known as the ``Global Gag 
Rule,'' and in favor of Senator Boxer's bill, the Global Democracy 
Promotion Act of 2001 (S. 367), which would overturn the Global Gag 
Rule.
    I am the President of the Open Society Institute (OSI), a United 
States-based charitable foundation based in New York City. The Open 
Society Institute was established in 1993 to promote the development 
and maintenance of open societies around the world. OSI does this by 
supporting an array of activities dealing with education, social, legal 
and health care reform, and by encouraging alternative approaches to 
complex and controversial issues. OSI funds projects both domestically 
and in over sixty foreign countries for the purpose of promoting 
democratic governments, robust political debate, human rights, and the 
rule of law. We promote these goals primarily by supporting non-
governmental organizations (NGOs).
    My testimony addresses the central advocacy role NGOs play in 
formulating and monitoring international agreements, shaping 
international human rights law, influencing the policies and laws of 
the United States, and promoting open and civil societies worldwide. I 
would also like to emphasize my strong support for the Global Democracy 
Promotion Act, which would overturn the censorship imposed by the 
United States Agency for International Development (USAID) on privately 
funded speech that promotes abortion law reform, otherwise known as the 
``Global Gag Rule.''
    In over 38 years of experience in the human rights field, the 
Global Gag Rule is the only time I have encountered U.S. censorship of 
speech promoting law reform through democratic processes. The entire 
human rights movement relies on the ability of NGOs to gather 
information and speak without impediment and to associate freely with 
foreign NGOs to increase the effectiveness of their speech and 
advocacy.
    This law reform gag not only irreparably damages the association, 
free speech, and political advocacy rights of international human 
rights advocates. but causes continuing irreparable injury to the 
American public. Impeding the information gathering and freedom of 
expression of human rights advocates sends a message worldwide that we 
are willing to diminish First Amendment protections for political ends 
and undermines the commitment of the United States to free 
dissemination of information and democratic values worldwide.

                       BACKGROUND AND EXPERIENCE

    I have spent my career as a human rights advocate and scholar 
promoting the establishment and enforcement of civil and human rights 
under the United States Constitution and international treaties, 
agreements and norms.
    I have been the President of OSI since it was founded in 1993. The 
Institute began by funding local NGOs in Eastern Europe and the former 
Soviet Union to encourage political debate and law reform. Over the 
last 8 years, OSI has funded and supported hundreds of NGOs in the 
United States and around the world. A number of these NGOs work on 
human rights issues, including many whose work focuses on reproductive 
rights and health.
    In 1978 I was a founder of what is now Human Rights Watch (HRW), 
and spent twelve years as its Executive Director. HRW is dedicated to 
protecting the human rights of people around the world, and is the 
largest U.S.-based NGO operating internationally to protect human 
rights. HRW began with my participation in the establishment of the 
Helsinki Watch committee to monitor the implementation of the 1975 
Helsinki Final Accords, a human rights treaty with thirty-five European 
and North American countries as parties including the Soviet Union and 
the countries of Central and Eastern Europe it controlled. Helsinki 
human rights monitoring was a critical catalyst for human rights and 
democracy movements that created political opportunities for some of 
the forces that ultimately overthrew Communist rule. Central to this 
effort (and illustrative of the harm of the Global Gag Rule) were the 
advocacy networks of domestic and international NGOs, which my 
colleagues and I formed with the Watch Committees to monitor and 
publicize abuses under communist governments.
    Prior to my work at HRW, I spent fifteen years with the American 
Civil Liberties Union (ACLU), eight of those as National Executive 
Director. The ACLU is a nonprofit civil rights organization with nearly 
300,000 members and supporters. Founded in 1920, the ACLU is the 
largest U.S. NGO protecting the Bill of Rights. The ACLU fulfills its 
mission of defending the individual rights and liberties of all people 
under the Constitution through litigation, advocacy and public 
education. Our docket historically stressed protection of First 
Amendment rights and expanded to include voting rights, women's rights, 
racial equality efforts and privacy rights. A copy of my curriculum 
vitae is attached hereto as Exhibit A. [Exhibits A and B have been 
retained in the committee's files.]
    I have worked with virtually every major human rights group 
internationally and am familiar with the advocacy process across 
national frontiers that has resulted in enormous gains in acceptance of 
and compliance with international human rights law.

                BACKGROUND OF THE HUMAN RIGHTS MOVEMENT

    The human rights movement seeks to have certain fundamental human 
rights principles accepted as international norms. If universally 
accepted, these human rights would establish basic enforceable 
protections and rights for all people.
    The movement for human rights took on a global perspective after 
World War II as a result of the Holocaust and the War Crimes Tribunals. 
The events of World War II galvanized the international community and 
led to the creation of the United Nations in 1945.
    The United Nations committed itself in its Charter to protect human 
rights and spelled out its understanding of universal rights through 
the adoption of the Universal Declaration of Human Rights (UDHR),\1\ 
which was adopted without dissent by the General Assembly in 1948. The 
UDHR proclaims that all men and women are entitled to the right to 
life, liberty, nationality, and to participate in government, and to 
freedom of thought, conscience and religion. Eleanor Roosevelt and the 
United States delegation to the United Nations were instrumental in 
drafting the UDHR and securing its passage.
---------------------------------------------------------------------------
    \1\ Universal Declaration of Human Rights, adopted 10 Dec. 1948, 
G.A. Res. 217A (III), UN Doc. A/810, at 71(1948).
---------------------------------------------------------------------------
    The principles set forth in the UDHR are legally binding on party 
nations, including the United States, through two international 
covenants: the International Covenant on Civil and Political Rights 
(ICCPR) \2\ and the International Covenant on Economic, Social and 
Cultural Rights (ICESC),\3\ both of which entered into force in 1976 
when ratified by 35 countries. The United States has ratified the 
International Covenant on Civil and Political Rights.
---------------------------------------------------------------------------
    \2\ International Covenant on Civil and Political Rights, adopted 
16 Dec. 1966, entered into force 23 Mar. 1976, 999 U.N.T.S. 171.
    \3\ International Covenant on Economic, Social and Cultural Rights, 
adopted 16 Dec. 1966, entered into force 3 Jan. 1976, 999 U.N.T.S. 3.
---------------------------------------------------------------------------
    Collectively, the UDHR, ICCPR and ICESC are commonly known as the 
International Bill of Rights. They are attached hereto as Exhibit B. 
Since 1976, numerous countries have signed and ratified the treaties, 
taking important steps towards the implementations of their provisions.
    In addition to these documents, more than 80 other conventions and 
declarations related to human rights have been adopted, including 
conventions to end discrimination on the basis of race and gender, and 
declarations for the protection of refugees and to end genocide.
    A central tenet of the International Bill of Rights and many of the 
subsequently drafted documents is the recognition of freedom of 
expression and the right to ``seek, receive and impart information and 
ideas through any media and regardless of `frontiers.' '' See, e.g., 
article 19 of UDHR and article 19(2) of ICCPR. Like the First 
Amendment's rights to freedom of speech, of the press and of peaceable 
assembly, these rights are not only freestanding human rights, but are 
essential tools for advancing all other rights.
    The human rights movement over the last fifty years has had 
tremendous success in securing the adoption of human rights treaties as 
part of international and U.S. domestic law.
    As human rights and international law have developed, the United 
States has endorsed many covenants and declarations, and has ratified a 
number of human rights treaties in accordance with the treaty-making 
authority prescribed by the Constitution. This has created new avenues 
for the human rights movement and NGOs to influence the United States.
    The Global Gag Rule, however, interferes with the development of 
international and domestic law related to reproductive health and 
rights at every stage in the development of such law.

                   THE HUMAN RIGHTS ADVOCACY PROCESS

    The process of political advocacy in the context of the advance of 
international human rights is revolutionary. An understanding of this 
process is crucial to understanding the degree of harm caused by the 
Global Gag Rule due to the critical stage of development of the global 
reproductive rights movement. It also illustrates the direct effect of 
the law reform gag on human rights organizations, individual human 
rights attorneys, and other individuals who are instrumental in that 
movement.
    There are two main components to human rights advocacy: 1) the 
development and adoption of human rights norms into domestic and 
international law; and 2) encouraging and ensuring compliance by 
governments with human rights standards through the collection and 
dissemination of information about practices that may diverge from 
those norms. Transnational advocacy networks of human rights NGOs, both 
international (like HRW) and domestic, are essential participants in 
each stage of this process.
    The first step in the human rights advocacy process is to define 
human rights. This has primarily been accomplished through coalitions 
of NGOs working with government delegations at regional and 
international meetings or forums to establish certain human rights 
norms. Through this process human rights theories are transformed from 
ideals into enforceable rights. Language is drafted and agreed upon, 
and the resulting documents are adopted by participating countries. 
These documents establish international law, and upon adoption may 
become incorporated into the adopting country's domestic law.
    There are numerous examples illustrating the influence of NGOs in 
the development of human rights norms. The 1997 Nobel Peace Prize was 
awarded to an NGO coalition, the International Campaign to Ban 
Landmines for its leadership in the adoption of a treaty banning 
antipersonnel mines by 123 governments meeting that December in Ottawa. 
Another such example is the 1998 Rome treaty calling for the 
establishment of the International Criminal Court (ICC). This treaty 
was endorsed by 120 governments at a conference in Rome in which NGOs 
played a major part. It was the work of these human rights groups that 
provided the impetus to adopt the treaty and obtain the signatures and 
ratifications necessary for it to take effect. The organization of 
which I was a founder, Human Rights Watch, played a leading role in 
both treaties. NGOs were also critical in ensuring the recognition of 
gender-sensitive and reproductive specific issues (such as forced 
pregnancy as war crimes) were included in the mandate of the ICC. When 
the government of Libya tried to block NGOs from speaking at the Rome 
Conference, the United States government took a leading role in 
upholding the rights of NGOs.
    NGOs will continue to work domestically and internationally to 
increase the number of countries becoming state parties to treaties, 
covenants and declarations protecting human rights. As support builds 
for the acceptance of a human rights norm, demonstrated by the 
endorsement of documents enshrining those norms by an increasing 
numbers of countries, international pressure builds on those countries 
that have not yet endorsed the documents. Pressure can be brought to 
bear through tangible actions, such as a United Nations censure or 
economic sanctions. Human rights movements can also come from within a 
country, such as the non-governmental democracy movement in Poland, 
``Solidarity,'' which played a leading role in the fall of communism in 
that country and throughout the former Soviet bloc. International 
pressure legitimizes and supports the efforts of local NGOs.
    Once a human rights norm has been defined and accepted, it provides 
a yardstick by which to measure the compliance of governments, whether 
or not a particular country has agreed to be bound by a document. Many 
of the international agreements on human rights include requirements 
that adopting governments report to the United Nations on compliance, 
and that they must assist in efforts to monitor the compliance of other 
governments. Thus, a critical component of human rights advocacy is the 
ability to hold countries accountable.
    In fact, the United States has adopted a set of statutes by which 
the State Department monitors and reports to Congress upon compliance 
with international human rights norms. A particularly important statute 
is Sec. 502B of the Foreign Assistance Act of 1961, as amended (22 USC 
2304). It requires the State Department to submit an annual report to 
Congress on human rights practices worldwide. The law provides that in 
preparing such reports ``the relevant findings of appropriate 
international organizations, including non-governmental organizations'' 
should be considered (3)(b)(1); as well as ``the extent of cooperation 
by such government in permitting an unimpeded investigation by any such 
organization of alleged violations of internationally recognized human 
rights'' (3)(b)(2). In doing so, the State Department relies 
extensively on information supplied by HRW and frequently cites HRW's 
findings.
    NGOs play a critical role in monitoring compliance because they 
often have direct access to information through their contacts with 
their NGO counterparts worldwide and the ability to document human 
rights abuses, and are in a position to put governments on notice of 
how they are violating an international norm or right.
    One of the most powerful weapons for ensuring government compliance 
with human rights norms is the dissemination of information about 
abuses. The presentation of such information through the media and in 
international forums often ``shames'' the government into responding, 
and can lead to international isolation and sanction if governments 
fail to remedy abuses.
    The information necessary to bring such abuses to light may be 
difficult to obtain without the assistance of local NGOs, as this is 
the very type of information that non-compliant governments are likely 
to suppress. Local NGOs, however, often do not have the knowledge, 
resources or international contacts necessary to disseminate the 
information, and need to form partnerships and coalitions with other 
NGOs in order to advocate effectively. The most effective engine for 
change comes when local and international NGOs work together. Indeed, 
the human rights movement as it exists would not have occurred without 
transnational coalitions of NGOs.
    The process that I have described reflects both my personal 
experience and extensive academic analysis in the fields of 
international relations and political science.\4\
---------------------------------------------------------------------------
    \4\ Henkin, Louis, Neyman Orentlicher, Leebron Human Rights 
(Foundation Press, 1999). Keohane, and Nye, eds. Power and 
Interdependence (Addison Wesley, 2000). Cook, Rebecca Human Rights of 
Women: National and International Perspectives (University of 
Pennsylvania Press, 1994). Henkin, Louis Foreign Affairs and the U.S. 
Constitution (Oxford, 1996). Risse-Kappen, Thomas Bringing 
Transnational Relations Back In: Non-State Actors, Domestic Structures 
and International Institutions (Cambridge University Press, 1995). Sen, 
Gita, Adrienne Germain, Lincoln C. Chen Population Policies 
Reconsidered: Health, Empowerment and Rights.
---------------------------------------------------------------------------

       REPRODUCTIVE RIGHTS ADVOCACY AND THE HUMAN RIGHTS MOVEMENT

    In order to explain fully the pernicious effect of the Global Gag 
Rule, it is necessary to understand the history of reproductive rights, 
and particularly the right to abortion, within the context of human 
rights law.
    Compared to the civil and political rights recognized in the 
Helsinki Accords and ICCPR, reproductive rights (along with other 
women's rights) have not progressed very far yet in their acceptance as 
human rights norms.
    It has only been quite recently that discussion of reproductive 
rights as human rights has occurred at the international level. Much of 
the progress on this issue has come through conferences sponsored by 
the United Nations, including the World Conference on Human Rights, 
held in Vienna in 1993, the International Conference on Population and 
Development, held in Cairo in 1994, the Fourth World Conference on 
Women, held in Beijing, China, in 1995, and the five-year review 
conferences for both the Cairo and Beijing conferences.
    The right to legal abortion is considered by many to be inseparable 
from the unified whole of reproductive rights. Failure to incorporate 
the right to abortion within the human rights norms recognizing 
reproductive rights renders the protection afforded incomplete and 
undermines the implementation of those rights that are recognized.
    Because of the controversy surrounding abortion, although other 
aspects of reproductive health are recognized, such as the right to 
family planning,\5\ health,\6\ and physical integrity,\7\ there is yet 
no universally recognized right to legal abortion per se.
---------------------------------------------------------------------------
    \5\ The Vienna Declaration includes an affirmation of the rights of 
women to ``accessible and adequate health care and the widest range of 
family planning services.'' Vienna Declaration and Programme of Action 
para. 41, U.N. Doc. A/CONF.157/23 (1993). The Beijing Declaration 
states: ``The explicit recognition and reaffirmation of the right of 
all women to control all aspects of their health, in particular their 
own fertility, is basic to their empowerment.'' Report of the Fourth 
World Conference on Women, para. 17, U.N. Doc. A/CONF.177/20 (1995). 
The Cairo Report devotes several provisions to family planning. Report 
of the International Conference on Population and Development, 
para.para. 7.12-.26, U.N. Doc. A/CONF.I71/13 (1994).
    \6\ One of the goals adopted in the Beijing Declaration is to: 
``Ensure equal access to and equal treatment of women and men in 
education and health care and enhance women's sexual and reproductive 
health as well as education.'' Report at para. 30. ICESCR, Art. 12.2.
    \7\ Physical integrity is embodied in the concept of security of 
the person, recognized in the UDHR (Article 5) and ICCPR (Article 7).
---------------------------------------------------------------------------
    While not affording abortion full status as an enforceable human 
right, groundbreaking progress on the abortion issue was made at the 
Cairo and Beijing conferences.
    The Cairo Programme of Action recognizes that unsafe abortion is a 
major public health issue and urges that in locations where it is 
legal, abortion should be safe.\8\
---------------------------------------------------------------------------
    \8\ Report of the International Conference on Population and 
Development, para. 8.25, U.N. Doc. A/CONF.171/13 (1994).
---------------------------------------------------------------------------
    The Beijing Platform of Action goes even further, urging countries 
to ``consider reviewing laws containing punitive measures against women 
who have undergone illegal abortions'' and calling for ``research to 
understand and better address the determinants and consequences'' of 
unsafe abortion. Beijing Platform for Action para. 106(k); 109(i).
    Although the platforms are only incremental steps toward universal 
norms on legal abortion, the Cairo and Beijing conference reports are 
normative documents that have been endorsed by 180 countries, including 
the United States.
    The Cairo and Beijing documents thus create measures by which U.S.-
based human rights organizations, in coalition with foreign NGOs, can 
hold governments accountable through monitoring and reporting. The 
Global Gag Rule, however, prohibits (or at least chills) hundreds of 
the most influential NGOs in the reproductive health field, active in 
dozens of countries, from engaging in advocacy related to 
implementation or monitoring of the abortion provisions of these 
agreements.
    Over 1500 NGOs from 180 countries participated in the Cairo 
conference, and the robust debate made possible by their wealth of 
knowledge and their vigorous advocacy was instrumental in the 
recognition of reproductive rights as human rights, and in the adoption 
of the statements on abortion described above. Many of these NGOs could 
not have engaged in open discussion of the abortion issue (except 
pejoratively) in 1993 or 1994 had the Global Gag Rule been in effect. 
In addition to preventing those organizations from direct participation 
and advocacy, the loss of information that they possessed would have 
limited the advocacy of many other NGOs.
    Precluding organizations from creating coalitions and networks with 
strategic NGOs in the countries affected by the Global Gag Rule for the 
purpose of monitoring the Cairo and Beijing agreements significantly 
devalues these agreements as normative documents.
    The current period is a critical one in history for the advocacy of 
reproductive rights as human rights, including the right to abortion. 
The gains made throughout the 1990s and the worldwide attention 
resulting from the Cairo and Beijing Conferences and their five-year 
reviews all show that momentum is building behind the efforts of the 
transnational coalitions to give international legal protection to 
abortion. As a result, censorship by the United States of an important 
piece of this advocacy will likely have a devastating impact.

               THE IMPORTANCE OF ASSOCIATIONS AMONG NGOS

    Human rights law reform advocates will be significantly hampered in 
achieving their goal of recognition of reproductive rights, including 
the right to abortion, as human rights, if they cannot obtain 
information and persuasive evidence from, speak for purposes of 
persuasion to, and otherwise work with the NGOs affected by the law 
reform gag.
    The importance to the human rights movement of the ability of NGOs 
to associate with, communicate freely with, and exchange information 
with one another cannot be overestimated. Perhaps the most important of 
these associations are those between international NGOs and local 
(national or regional) organizations. These partnerships are the 
cornerstone of effective human rights advocacy. Indeed, I am aware of 
no instance, and do not believe it would be possible, for an 
international NGO (or indeed any NGO working in a country that is not 
its base of operations) working alone to have a significant impact at 
the national level. Progress in changing national laws and ensuring 
compliance with international norms through monitoring and exposing 
abuses depends on the work of local NGOs.
    Human rights advances and law compliance would likely not occur if 
dependent solely on a government's initiative. The resources of NGOs 
are limited, however, and to be effective advocacy strategies must be 
strategic.
    International human rights groups that have technical expertise and 
the freedom and resources to operate across borders must rely on local 
NGOs (such as those subject to the law reform gag) who provide the 
knowledge of the local politics, the local law and the local people 
suffering from abuses. Successful political advocacy and change needs 
the association of these two together. The international groups bring 
external public opinion to bear, can have free access to the press, and 
can usually be freer in monitoring and publicizing a dangerous 
situation than a local entity which might be afraid to do so.
    In many countries it is forbidden for a non-citizen to set up an 
NGO. Therefore, international groups must operate in conjunction with 
local NGOs in order to effect political change.
    For example, HRW works extensively in coalition with strategic 
local NGOs and could not have furthered its mission of implementing and 
monitoring the ICCPR without these critical associations. I cannot 
imagine how different the state of human rights around the world would 
be today if hundreds of NGOs relevant to HRW campaigns had been 
censored over the past twenty years.
    My experience provides many examples both within the United States 
and abroad that illustrate the importance to NGOs of the ability to 
work in association with one another. It was critical for the ACLU to 
work in association with other like-minded religious or civil rights 
groups toward the realization of many civil rights and liberties goals. 
In fact, it was only by such political associations that the movements 
for racial equality and women's rights were successful.
    In 1991, leaders of several other NGOs and I launched an NGO-
centered movement that advocated for a treaty on landmines. The 
landmine campaigns garnered influential and wide support only when HRW 
and Physicians for Human Rights, working with an NGO treating victims 
of landmines in Cambodia, published our first human rights report on 
the issue highlighting the plight of the victims. This humanitarian 
NGO, which gave prostheses to victims, received funds from the Unites 
States Government. If there had been censorship of organizations that 
dealt with these victims of land mines, as there is with the law reform 
gag as to the harmful effects of illegal abortion, the landmine treaty 
might not exist today, and its adoption would certainly have been 
significantly retarded. Effective advocacy was only possible through 
unimpeded access to the victims of the mines.
    In Argentina, the Center for Legal and Social Studies monitored 
torture and worked with torture victims. HRW was able to work with the 
Center to publicize the problem, and the effectiveness of the campaign 
helped lead to the end of the military government in Argentina. The 
campaign also affected United States policy because it resulted in 
human rights conditions on U.S. assistance to Argentina. It was only 
through the unfettered association between HRW and this particular NGO, 
the only one with the necessary information and access to victims of 
torture, that these changes were possible.
    In Chile, a Roman Catholic organization, the Vicaria de la 
Solidaridad, also documented torture. This NGO was the main source for 
HRW to document these human rights abuses. Although unable to influence 
the Pinochet government directly, the Vicaria and HRW were very 
effective in bringing about reform by getting the U.S. government to 
bring pressure on the Chilean government. If the U.S. government had 
censored Vicaria, severe human rights abuses in Chile may have 
persisted much longer. In both Argentina and Chile, effective advocacy 
was dependent on HRW's ability to work with those NGOs.
    In my experience, it is frequently the case that only one NGO in a 
particular country has gathered the human rights information needed by 
the international human rights movement to bring effective pressure 
against abuses in that country. Frequently, there is only one such 
group in a country or only one group may have the nationwide structure 
and the trust required to gather information. The proliferation of NGOs 
in the United States is not matched in most other countries. Especially 
in former communist countries or other states that experienced 
authoritarian rule, NGOs were forbidden or severely harassed and it is 
often the case that only a single group has subsequently emerged as a 
reliable source of human rights information. An example is Yugoslavia 
which only ended the authoritarian rule of Slobodan Milosevic in 
October 2000. A single group, the Humanitarian Law Center, has been the 
indispensable source of human rights information in that country. If it 
were silenced, no other group could have provided reliable human rights 
information.
    Thus, in the time of globalization, and international agreements on 
many issues such as land mines, endangered species, environmental 
issues, and global warming, it is essential that political advocacy be 
protected without respect to national borders. Indeed, the United 
States has endorsed this principle by its ratification of Article 19 of 
the ICCPR, which explicitly protects freedom of expression and the 
freedom to gather and disseminate information regardless of frontiers.

  THE GLOBAL GAG RULE CENSORS INFORMATION CRITICAL TO PERSUADING U.S. 
                              POLICYMAKERS

    The United States holds a unique position among all other nations. 
Because of its power and resources, policy decisions by the U.S. often 
have worldwide impact. The United States is also responsible for a 
significant amount of the foreign assistance provided to developing 
nations. Decisions affecting these appropriations affect numerous 
governments, NGOs and individuals.
    The United States is also influential within the international 
community on human rights issues. It has endorsed many of the 
significant human rights agreements, and has thereby obligated itself 
to monitor compliance both within its borders and in other countries. 
This is also required by many U.S. laws including Section 502B of the 
Foreign Assistance Act. The Global Gag Rule notwithstanding, several 
provisions of United States law condition foreign assistance on 
compliance by recipient countries with human rights norms, including 
free speech and political association. In addition to Section 502B of 
the Foreign Assistance Act, see Section 701 of the International 
Financial Institutions Act of 1977 (22 USC 262g).
    The United States is also a participant at all major international 
United Nations sponsored conferences, and can bring significant 
influence to bear on the drafting and negotiating process of human 
rights documents.
    Although influential in the arena of human rights, the United 
States does not often take a leading role in the adoption of human 
rights norms. It is usually only after significant international 
support has been demonstrated that the United States endorses human 
rights agreements. For example, the United States was one of the last 
developed countries to ratify the ICCPR, and the United States is one 
of only a handful of nations that has not yet ratified the Convention 
on the Elimination of All Forms of Discrimination Against Women.
    The ability of U.S. NGOs to work directly with foreign NGOs is 
central to human rights advocacy directed at the U.S. government. The 
most effective way to shape U.S. foreign policy on human rights is to 
bring people from the affected countries to provide firsthand 
information. In my experience at HRW, bringing the victims of abuses 
and representatives from foreign NGOs to talk to members of Congress, 
the State Department and the National Security Council was exceedingly 
effective. Direct exposure to FNGOs and the witnesses and victims to 
whom they have access continues to be a critical component of the U.S. 
advocacy of many U.S. human rights organizations.
    I have seen many times how foreign NGOs can affect United States 
policy. When the Yugoslavian government shut down a foundation funded 
in that country by OSI, we brought members of this NGO to Washington, 
D.C., to educate U.S. policymakers. As a result, then Vice President Al 
Gore issued a statement critical of the closure, and the following day 
the foreign minister of Yugoslavia informed the NGO it would be 
reopened.
    Similarly, the most effective strategy that OSI has found for 
bringing attention to human rights abuses in Belarus, Kosovo and Bosnia 
was to bring representatives of NGOs from those regions to Washington.
    In striking contrast is the experience of South African activists 
who came to Washington during apartheid. Under South African law at 
that time, citizens of that country were prohibited from speaking in 
favor of sanctions aimed at eliminating apartheid. When these activists 
met with members of Congress, they could not advocate for sanctions 
because to do so would put them at risk of severe criminal penalties.
    The Global Gag Rule affects many aspects of United States policy, 
and, therefore, advocacy on these issues by domestic and foreign NGOs. 
For example, due to the gag, human rights organizations are prevented 
from bringing representatives of gagged NGOs to brief members of 
Congress about the pernicious effect of the gag itself without first 
having to obtain explicit permission from government attorneys. As a 
result, NGOs with the most relevant information about the effects of 
the law reform gag may not provide it to Congress without jeopardizing 
essential funding. In my experience, this will impede, and possibly 
prevent, efforts by organizations to repeal the Global Gag Rule and to 
pass the Global Democracy Promotion Act.
    Information in the possession of foreign NGOs is also relevant to 
congressional deliberations as to the amount and scope of funding for 
both USAID and UNFPA. As noted, both the Cairo and Beijing documents 
recognize unsafe abortion as a major public health threat. Limiting 
advocacy in Congress to information about this issue from U.S.-based 
NGOs results in an incomplete picture as to how appropriated funds may 
be put to best advantage to improve reproductive health in recipient 
countries.
    The United States has an independent obligation to monitor and 
promote compliance with the agreements it has adopted both within the 
U.S. and in other countries. The Global Gag Rule interferes with this 
obligation in two ways. First, by restricting speech in other 
countries, it undermines freedom of expression, a right expressly 
recognized in the UDHR and ICCPR. Second, by limiting discussion and 
the free flow of information, the gag limits the ability of the United 
States to monitor compliance by other countries with agreements such as 
Cairo and Beijing.
    Human rights are by definition global, or universal. The political 
advocacy of NGOs working on human rights issues, such as reproductive 
rights, is therefore, by definition, global. Organizations cannot 
engage in necessary political speech, nor engage in effective political 
advocacy, without unfettered associations and communications with 
foreign NGOs affected by the Global Gag Rule. In order to truly 
effectuate the constitutional guarantees that ensure full debate and 
consideration of important political issues, these extraterritorial 
associations and communications must be afforded the highest 
protection.

  THE GLOBAL DEMOCRACY PROMOTION ACT ENSURES RESPECT FOR HUMAN RIGHTS

    The Global Democracy Promotion Act's main purpose is to ensure that 
U.S. foreign policy is consistent with fundamental human rights values, 
including medical ethics and practice, as well as freedom of speech. It 
prevents the imposition of requirements that are unconstitutional or 
untenable as a matter of policy here in the U.S. from being exported as 
a matter of U.S. foreign policy. The bill has two main provisions.
    The first provision of the Global Democracy Promotion Act provides 
that foreign NGOs cannot be denied funding based on the medical 
services they provide with their own funds, including counseling and 
referral services. As a fundamental principle of medical ethics and 
heath care practice, health care providers in the United States are 
expected to supply patients with all of the information they need to 
make appropriate decisions about their health care. In the United 
States it would be considered an intolerable intrusion into the health 
care provider/patient relationship if the government were to determine 
what information providers can or cannot give to their patients. 
Requiring foreign health care providers to withhold critical medical 
information from their patients as a condition of receiving U.S. 
assistance constitutes unjustifiable interference by the U.S. 
government into the delivery of health care in other countries.
    Conditioning the eligibility for U.S. assistance on a foreign NGO's 
willingness give up providing, with its own funds, the legal medical 
services it deems appropriate for its own patients demonstrates a 
disregard and disrespect for the ability of independent organizations 
to serve the critical heath care needs of their fellow citizens. The 
Global Democracy Promotion Act would ensure that such restrictions are 
abolished.
    The second provision of the Global Democracy Promotion Act provides 
that foreign NGOs, as a condition of eligibility for U.S. development 
assistance, cannot be forced to sacrifice their right to use their own 
funds to engage in free speech and assembly activities any more than 
U.S.-based groups are asked to do.
    Furthermore, conditioning the receipt of federal funds upon the 
sacrifice of the constitutionally-protected ``right of the people to 
peaceably assemble and to petition the government for a redress of 
grievances'' (First Amendment to the U.S. Constitution) is itself 
unconstitutional where U.S. citizens are concerned. Exporting a policy 
that is an violation of both the U.S. Constitution and internationally-
recognized human rights is contrary to the great weight of U.S. foreign 
policy in support of such rights.
    A principal goal of U.S. foreign policy is the promotion of 
democracy. To this end, supporting--as opposed to hindering--the 
ability of foreign organizations to use their non-U.S. funds to engage 
in advocacy--regardless of the subject or point of view--is essential 
to nurturing an independent and politically active civil society. The 
Global Democracy Promotion Act would ensure that freedom of speech and 
the support of democracy are restored as fundamental tenets of U.S. 
foreign policy.

                               CONCLUSION

    With this testimony, I have outlined the importance of freedom of 
speech and association of human rights advocacy organizations to the 
evolution of international human rights law. The significance of these 
fundamental freedoms underscores the necessity of overturning the 
Global Gag Rule. I strongly urge your support of the Global Democracy 
Promotion Act of 2001, appreciate your kind attention to my testimony 
and your thoughtful consideration of these critical matters.

    Senator Boxer. Thank you very much. I have a couple of 
questions, and then I have a one o'clock meeting that I must 
attend.
    First let me start off by saying that each of you, I 
thought, was terrific in terms of presenting your point of 
view. In the case of Dr. Eberstadt, an interesting question for 
us all, which is the practical effect of this. I just disagree 
with him that it's theater. I think it's lives, and I think we 
saw very much a little girl here and what we're talking about.
    I want to pick up, Mr. Neier, on your point about the 
Americans being impacted. I want to ask you a question because 
I really don't have the answer at this point, and I'm looking 
for the answer. If an American is working in Peru let's say for 
Ms. Galdos' organization or working in Nepal for Dr. Bista or 
in Bangladesh with the organization Dr. Pellegrom talked about, 
is that American gagged?
    Mr. Neier. I would say yes on the ground that the 
prohibition applies to the organization. If the person is 
acting on behalf of the organization, it would be a violation 
for the organization to have an American or anyone else who is 
working for it provide information on the availability or the 
benefits of abortion.
    Senator Boxer. So then this gag rule takes away freedom of 
speech from American citizens who would be working abroad, not 
by the country in which they are serving, their duty if they 
feel it is such, but by the American Government.
    Mr. Neier. Yes. My foundation funds many Americans to work 
in non-governmental organizations in other countries. We 
support internship programs of various sorts, and any of those 
interns or any of the people we support, if they were working 
for an organization receiving U.S. family planning funds, those 
persons would be barred from this activity.
    Senator Boxer. Well, I would be really interested to see a 
legal matter on whether or not our freedom of speech by our 
Government can be taken away by virtue of the fact that we have 
to get on a plane and go somewhere else. I just raise that. I 
think it is an interesting question.
    Let me switch to Dr. Pellegrom here. You mentioned sadly 
that another organization in addition to the one we heard about 
today is refusing to take USAID funds because they don't want 
to be gagged on what they can do in their own country. Do you 
know how much we are talking about in terms of dollars? You 
said you are going to try very hard to make up those dollars. 
Do you know in this case what we are talking about here?
    Dr. Pellegrom. It is in the vicinity of a million dollars a 
year for that particular organization, and it is three million 
women who are served in that particular instance.
    Senator Boxer. Well, then I would love to know if you could 
help us to find, and maybe some of our other witnesses can as 
well, with that million dollars, the family planning services 
that could have been given to these women and for how long a 
period because I think we need to quantify because I think Dr. 
Eberstadt makes a good point, that we don't have the 
quantification of this issue. And I think if this organization 
were not to get the million dollars, and even if they did, even 
if we said no to the gag rule, the fact of the matter is I am 
not sure--what happens is, if you replace the million, then 
that is a million they can't use for additional contraceptive 
help for women. If you could please get us that information and 
send a copy to Dr. Eberstadt so he can try to put that in his 
math equation as real people being denied real service and what 
that means. We would appreciate it.
    Ms. Cleaver, you represent very eloquently the U.S. 
Conference of Catholic Bishops. I have seen you many times 
doing the best job that a human being could do for them, so I 
am complimenting you on that.
    Do you know if the Conference of Catholic Bishops supports 
contraception.
    Ms. Cleaver. Well, Senator Boxer, the position of the 
Catholic Church with regard to contraception is very clear and 
very well-known, artificial contraception.
    Senator Boxer. Well, I don't know, so perhaps you can 
enlighten me because it may have changed from when I was paying 
attention to it.
    Ms. Cleaver. Well, that's also one of the doctrines of the 
Catholic Church. We don't change very often, and for a long 
time it has been the belief and the doctrine of the Catholic 
Church that artificial contraception is not something that 
adherents to the Catholic Church may do licitly.
    Senator Boxer. Artificial you mentioned. Let me be clear. 
In other words, that is not contraception. I mean, if you say 
the rhythm method, that is not contraception because it does 
not really work a lot of the time, so I mean--so the U.S. 
Conference of Catholic Bishops does not believe in family 
planning other than telling women a certain time of the month 
you should abstain from activity; is that accurate?
    Ms. Cleaver. Well, definitely family planning, I'm 
guessing, in your book would include abortion, and the Catholic 
Church's book does not include either abortion----
    Senator Boxer. No, no, time out.
    Ms. Cleaver [continuing]. Or artificial contraception.
    Senator Boxer. Time out. I don't tell you what you believe, 
and you don't tell me what I believe. I do not believe abortion 
is family planning, so don't tell me that I do. I view it as 
something that is available for a woman in the face of a 
crisis, and it is between her God and her doctor and her family 
and her conscience and her morality and all of that. It is not 
family planning. It is a failure, a failure of family planning. 
So let's start from scratch and let's start over.
    The U.S. Conference of Catholic Bishops opposes then any 
type of contraceptive devices that a woman might use; is that 
correct?
    Ms. Cleaver. We don't publicly oppose artificial 
contraception. It is a doctrine that our adherents are asked to 
follow. It is a religious doctrine for Catholics. We take no 
position----
    Senator Boxer. I am trying to understand this.
    Ms. Cleaver. I am sorry, but I am trying to help answer 
your question.
    Senator Boxer. So in other words, do you support outside of 
the rhythm method, let's put that aside, do you support any 
other means of contraception such as a diaphragm, women having 
a diaphragm?
    Ms. Cleaver. And I would have to ask you for further 
clarification. As a matter of public policy, public funding or 
as a matter of religious belief or Catholic adherence, because 
the answer would be different in those questions?
    So, as a matter of Catholic belief, the Church does not 
support artificial contraception of any nature. We support--you 
are calling it the rhythm method what we call natural family 
planning. It does have to do with following the natural rhythms 
of your body. But we do not oppose it as a matter of public 
policy.
    Senator Boxer. OK, that is important. So you support family 
planning around the world?
    Ms. Cleaver. I say we don't oppose it as a matter of public 
policy.
    Senator Boxer. So you don't support it?
    Ms. Cleaver. We have long taken the position that when 
family planning programs overseas are expanded to include the 
use of abortion----
    Senator Boxer. I'm not talking about abortion.
    Ms. Cleaver. Well, that is what the hearing is about. That 
is what I am here to testify to today, the Catholic Church's 
position with regard to the Mexico City Policy, and the Mexico 
City Policy simply clarifies the distinction between family 
planning funding and abortion.
    Senator Boxer. Well, let me reiterate. No U.S. funds since 
1973 have been able to be used for abortion, abortion 
counseling, abortion services overseas, so that is not at all 
what we are talking about here today. It may be what you are 
talking about, but it is not what this committee is talking 
about. We are talking about the Mexico City gag rule.
    So publicly--I am really confused. You don't oppose or 
support family planning. You oppose abortion, but you do not 
either support or oppose family planning other than that you 
support--how do you phrase the rhythm method?
    Ms. Cleaver. But otherwise, we don't support family 
planning.
    Senator Boxer. OK, let me move on. Do you support, not you 
personally, the organization, any exceptions to your anti-
abortion policy? For rape or incest, for example, do you 
support exceptions for rape or incest as an organization?
    Ms. Cleaver. The position of the Catholic Church on this 
also is well-known, and I will restate it for you.
    Senator Boxer. Well, ma'am, I just asked you--honestly, if 
I knew the answer, I wouldn't--I have a meeting at one, so just 
tell me yes or no.
    Ms. Cleaver. The Catholic Church never finds it licit to 
intentionally kill anyone.
    Senator Boxer. Never finds it what?
    Ms. Cleaver. Licit, licit.
    Senator Boxer. Licit?
    Ms. Cleaver. A licit act to intentionally kill innocent 
human life of any sort.
    Senator Boxer. Do you support an exception to your anti-
abortion policy for rape or incest; yes or no?
    Ms. Cleaver. No.
    Senator Boxer. OK. Do you support exceptions for life of 
the mother; yes or no?
    Ms. Cleaver. Not as stated. That is a more complicated 
question. The casual way of talking about saving a mother's 
life when an abortion threatens her life is known as life of 
the mother, and that is a casual reference to it.
    What is a more precise reference to it is the notion of the 
doctrine of double effect whereas, if a doctor is required to 
undertake an action to save a woman's life and the unintended 
but necessary result of that is the death of an unborn child, 
then that is a licit undertaking. It is the principle of the 
double effect. You see it at the end of life as well where, if 
you, unintending to hasten the death of someone, you increase 
the morphine and your intent--it all has to do with intent, so 
it is never--the Catholic Church never believes it is 
appropriate to intend to kill innocent human life. If it is the 
unfortunate but necessary result to save the life of a mother--
that's why life of a mother, as stated, we wouldn't say it is 
OK to undergo an abortion if any exception. We would say if 
that is the necessary result----
    Senator Boxer. But if that is an unintended consequence of 
trying to save a woman's life?
    Ms. Cleaver. Correct.
    Senator Boxer. The reason I am asking you these questions 
is not in any way a theological exercise or to put you in a 
difficult position, which I don't think you feel that you are 
in any case because you must believe these things and support 
these things.
    But it is because I do believe, despite Dr. Eberstadt's 
mathematical presentation that we cannot really decide one way 
or the other, I believe as a thinking person that, if a woman 
in Nepal can no longer walk into Dr. Bista's clinic to get 
contraception because he has closed his clinic because he is 
out there defending little girls like this who go to jail 
because they were raped--I don't even want to get into whether 
we think--I'm not going to go there.
    The fine line is I think you are going to see more 
abortions. That is my belief. And because I do not believe 
abortion is family planning, but instead it is an end result of 
the failure of family planning and because I want to stop these 
78,000 illegal abortions which the professor here says is 
66,000, so we will pick something in the middle, I believe the 
Mexico City gag rule, this global gag rule, is not only a 
violation of democracy and freedom and a slap at women around 
the world, but I think it will lead to more abortion, and that 
is why I am so confused and appalled that the people who say 
they are against abortion will come out in favor of this.
    I also think it is very interesting that the Catholic 
Conference today chooses to support the gag rule when there is 
no exception for rape and incest. I think you ought to, being 
intellectually honest, you ought to take a look at that.
    But, bottom line, I think that today's hearing has been 
very instructive. To me, the most moving testimony is from the 
people on the ground. The most moving part of this hearing 
perhaps is the fact a woman had to go to court to be able to 
testify here today. And I know that we have had a very 
carefully balanced presentation with the witnesses, which is 
the way we do things here in this committee. Senator Helms and 
others who oppose me on this had every right to have the 
witnesses they wanted. I am pleased that you were able to be 
here.
    But I just want to, as one Senator, not speaking for anyone 
else because no one else is here to speak on this, I want to 
apologize to you, Ms. Galdos, I do, as a U.S. Senator under the 
auspices of chairing this hearing, apologize that you had to go 
to court to be able to speak to us today from your heart and 
from your soul about what you are seeing happening in your 
country and the fact that you have made a decision to be gagged 
in order to provide whatever services that you can to your 
people. It is moving to me. I am saddened deeply that in this 
land of the free and home of the brave, that is what happened. 
But you were able to speak.
    When you walk out this door and the press comes up to you, 
you can't speak to them. I apologize to you for that, but I 
will carry on. I will speak to them, and I will speak for you. 
Anita Lowey will speak for you. And Senator Chafee will speak 
for you. And Senator Snowe will speak for you. We had five 
partisan voices here. We will speak for you.
    And to Dr. Bista, who had to close or may have to close his 
clinic to go out and change a heinous law which puts 13-year-
old girls in jail, I apologize to you.
    And to Dr. Pellegrom, who is going to have to escalate his 
fund-raising activities away from other things to help clinics 
in Bangladesh because they have informed him that they--I am 
sorry. I am saddened. And all I want you to know is that I know 
that this Senate does not agree with this President. I know it 
because I have counted the votes and I have the votes, 
Democrats and some Republicans, enough to overturn this. 
Whether it will be overturned or not, I can't tell you. When we 
have the votes to override a veto by this President, I don't 
know, but your voices today, those of you who argued eloquently 
for the overturning of this rule will be heard. You will be 
heard, and you will not be forgotten indeed. And to the other 
witnesses who came on the other side of the issue, I guarantee 
your voices are heard, too. You have eloquent proponents, too, 
in this Senate. And that is what our democracy is about, and I 
guess that is where I will conclude.
    I just want this democracy to happen in other countries. I 
don't want people like Ms. Cleaver or you in Peru to be back. I 
don't. I want you to go there to the Peruvian Government--right 
on. No more abortions, no circumstances, it is your right, just 
as much as I fight for Ms. Galdos to go before that body and 
say you are killing women, you are hurting people and you are 
hurting families.
    That is all I want. I mean, this is the greatest country in 
the world. I don't want us to take away these freedoms from 
other people. I want us to share these freedoms, not take them 
away. The debate was emotional. It was difficult. But you know 
what? It's a debate that we have had with civility and dignity, 
and I want to fight for that all across the world.
    I want to thank you all for being here, and we stand 
adjourned.
    [Whereupon, at 12 noon, the committee adjourned, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
